<html>
<title> - DESIGNATION/REAUTHORIZATION OF NATIONAL HERITAGE AREAS</title>
<body><pre>[Senate Hearing 109-663]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-663
 
         DESIGNATION/REAUTHORIZATION OF NATIONAL HERITAGE AREAS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 574                             S. 2037

                           S. 1387                            S. 2645

                           S. 1721



                               __________

                             JUNE 22, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

30-701 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina         TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky
                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD BURR, North Carolina         RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allen, Hon. George, U.S. U.S. Senator from Virginia..............     6
Cutler, Charlene Perkins, Executive Director & CEO, Quinebaug-
  Shetucket Heritage Corridor, Inc...............................    46
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........     2
Kennedy, Hon. Edward M., U.S. Senator from Massachusetts.........     3
Lieberman, Hon. Joseph I., U.S. Senator from Connecticut.........     5
Murphy, Donald W., Deputy Director, National Park Service, 
  Department of the Interior.....................................    10
Rice, Daniel M., President and CEO, Ohio & Erie Canalway 
  Coalition, Akron, OH...........................................    41
Salazar, Hon. Ken, U.S. Senator from Colorado....................     8
Sullivan, Dr. W. Michael, Director, Rhode Island Department of 
  Environmental Management.......................................    25
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Velasquez, Ann Marie, Sangre de Cristo National Heritage Area....    29
Voinovich, Hon. George V., U.S. Senator from Ohio................     6
Wyatt, Cate Magennis, President, The Journey Through Hallowed 
  Ground Partnership.............................................    34

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    59


         DESIGNATION/REAUTHORIZATION OF NATIONAL HERITAGE AREAS

                              ----------                              


                        THURSDAY, JUNE 22, 2006

                               U.S. Senate,
                    Subcommittee on National Parks,
                   Committee on Energy & Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

         OPENING STATEMENT BY HON. CRAIG THOMAS, U.S. 
                      SENATOR FROM WYOMING

    Senator Thomas. I call the committee to order.
    Thank you very much. We're going to vote in about an hour. 
So we can just begin as soon as we possibly can.
    Good afternoon, I want to welcome Deputy Director Don 
Murphy from the National Park Service and our other witnesses 
to today's subcommittee hearing.
    Our purpose for this hearing is to receive testimony on 
five Senate bills.
    S. 574, a bill to amend the Quinebaug [kwen-uh-bog] and 
Shetucket [shuh-tuck-it] Rivers Valley National Heritage 
Corridor Act of 1994 to increase the authorization of 
appropriations and modify the date on which the authority of 
the Secretary of the Interior terminates under the Act.
    S. 1387, a bill to provide for an update of the Cultural 
Heritage and Land Management Plan for the John H. Chafee 
Blackstone River Valley National Heritage Corridor, to extend 
the authority of the John H. Chafee Blackstone River Valley 
National Heritage Corridor Commission, to authorize the 
undertaking of a special resource study of sites and landscape 
features within the Corridor, and to authorize additional 
appropriations for the Corridor.
    S. 1721, a bill to amend the Omnibus Parks and Public Lands 
Management Act of 1996 to extend the authorization for certain 
national heritage areas, and for other purposes.
    S. 2037, a bill to establish the Sangre [San-gray] de [Day] 
Cristo [Chris-tow] National Heritage Area in the State of 
Colorado, and for other purposes.
    And S. 2645, a bill to establish the Journey Through 
Hallowed Ground National Heritage Area, and for other purposes.
    All of these bills concern the designation of new national 
heritage areas or the reauthorization of existing heritage 
areas. I think national heritage area designation has 
accomplished many good things, but with 27 in existence and 
over 20 more proposed for designation, the program needs 
definition and criteria to remain viable. Heritage areas are 
not units of the National Park System yet they expect annual 
funding through the national park budget. They are created with 
a limited funding authorization of $10 million for a limited 
time of 15 years yet they return for an extension of both money 
and time. They seem to be looking more and more like park units 
from a fiscal perspective, and that was never the intent. I 
want to encourage the House to pass my bill, S. 243, to give 
better definition to national heritage areas.
    I understand that our witness for S. 574 is prepared to 
testify that her heritage area has found a way to be self 
sufficient by the year 2015 and that the bill should be amended 
to reflect that. I would like to thank Ms. Cutler for 
developing such a strategy and I challenge every other heritage 
area to improve on that approach by becoming self sufficient 
within the initial authorization period of 15 years.
    I thank the witnesses for being here and look forward to 
receiving their testimony.
    Senator Allen, if you'd like to go right ahead, sir.
    [The prepared statements of Senators Dodd, Kennedy, 
Lieberman, and Voinovich follow:]
     Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator 
                            From Connecticut
    Chairman Thomas, Vice Chairman Alexander, Senator Akaka, and 
members of the Subcommittee, I thank you for holding this hearing 
today. I appreciate the opportunity to offer testimony in support of 
the Quinebaug-Shetucket Rivers Valley National Heritage Corridor 
(Corridor) reauthorization.
    The Corridor is one of the last unspoiled river valleys along the 
coastal, eastern United States and is often referred to as the Last 
Green Valley. Established twelve years ago, and expanded to include a 
few more towns in 1999, the region is known for its scenery, vibrant 
wildlife, recreational opportunities, and more than 100 historic and 
architecturally significant mills. The Corridor is highly regarded as 
an advocate for resource protection and is looked to by its 35 small 
communities and residents as the glue that holds together the regional 
success stories. Hundreds of volunteers and thousands of hours of 
service have contributed to the projects and programs of the Corridor 
each year.
    The excellence of their work has been recognized by state and 
national awards including the 2005 Public Education Award from the 
American Planning Association of the Green Valley Institute.
    What I find very impressive is their record of leveraging non-
federal matches to the federal investment. In fact, the cumulative 
ratio is $19 non-federal dollars to each federal dollar. In a time of 
scarce federal resources, I think it is clear that the Corridor is a 
great federal investment.
    Since Senator Lieberman, Senator Kennedy and Senator Kerry joined 
with me last year in introducing S. 574, a bill to extend the 
authorization of the Corridor, the Corridor itself completed an 
innovative Sustainability Plan, The Trail to 2015, and intends to be 
self-sufficient of federal funding by 2015. They are the first heritage 
corridor to embark on such a plan.
    However in the intervening years, it is imperative that the 
Corridor continue to receive federal appropriations to support critical 
programs while it is developing an alternative resource base.
    Therefore, I respectfully request that we amend our bill to extend 
the Quinebaug-Shetucket Rivers Valley National Heritage Corridor 
Authorization Act of 1994 to extend the period of authorization beyond 
2009 to 2015, and to extend the appropriation to reflect an additional 
$6 million to coincide with the six-year extension. This would reflect 
the Corridor's timetable to be self-sustaining by 2015.
    I would be remiss if I didn't recognize and thank Charlene Cutler 
for the wonderful job she is doing. She is the Executive Director and 
CEO of Quinebaug-Shetucket Heritage Corridor, Inc., the grassroots 
nonprofit designated as the management entity for the Corridor and she 
will offer testimony at this hearing in support of this proposal.
                                 ______
                                 
      Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator 
                           From Massachusetts
    I commend Chairman Thomas and Senator Akaka for holding this 
hearing. Earlier this year, Senators Voinovich, Chafee, Byrd, Grassley, 
Specter, Kerry, Graham, DeWine, Reed, Schumer, Clinton, Rockefeller and 
I requested the Committee to consider S. 1721, and I appreciate the 
opportunity to offer my strong support for that bill, as well as two 
others on which the Committee will receive testimony today.
    Senate bills 1721, 1387, and 574 would reauthorize Heritage Areas 
covering thousands of square miles across 12 states. Among them are the 
Essex National Heritage Area, the John H. Chafee Blackstone River 
Valley National Heritage Corridor, and the Quinebaug-Shetucket Heritage 
Corridor, which span 56 cities and towns in the northeast and south-
central regions of the Commonwealth of Massachusetts. They include some 
of the nation's most historic, scenic and culturally significant sites, 
and it's vital that they be preserved.
    Essex County is uniquely historic. It includes Salem, where the 
Heritage Area Commission is based, which was among the nation's first 
colonial settlements dating back to the early 17th century. It was home 
to the great American author Nathaniel Hawthorne, and was also the site 
of the infamous Salem witch trials of 1692.
    The city of Lawrence gave us the 1912 ``Bread & Roses Strike,'' 
which was an early battlefront in the effort to protect the rights of 
the nation's factory workers.
    In Amesbury, the Merrimack River powered some of the nation's 
earliest textile mills, and John Greenleaf Whittier, the poet and 
abolitionist, did most of his writing here.
    Gloucester is one of the nation's oldest and greatest fishing 
ports.
    Essex County has all of this history and much more. Congress 
recognized its significance when it established the Essex National 
Heritage Area 10 years ago as part of the Omnibus Parks and Public 
Lands Act of 1996.
    Earlier this month, the Heritage Area celebrated its tenth 
anniversary, and the event was called ``10 years and 100 Milestones.'' 
I ask the Committee to include a copy of my remarks on that occasion, 
and I urge the Committee to act on S. 1721, so that these unique 
treasures may be preserved and protected for future generations.
    Both S. 1721 and Sen. Chafee's bill, S. 1387, would reauthorize the 
John H. Chafee Blackstone River Valley National Heritage Corridor, 
which includes 24 cities and towns in Massachusetts and Rhode Island.
    The Blackstone Corridor is a window into the nation's early 
industrial period. It was here that the nation's first factory--the 
Slater Mill--was built in 1790. It was a cotton-spinning mill powered 
by the Blackstone River in Pawtucket, Rhode Island. Its success 
inspired other water-powered mills and led to America's Industrial 
Revolution, in which raw materials from the south were shipped to New 
England to be woven into textiles. The process greatly strengthened the 
nation's commercial power and reduced its dependence on imported goods.
    Today, there are few remnants of our early Industrial period. Many 
of the old mill buildings have been demolished and replaced with modern 
structures, or put to entirely different uses. That's why the 
Blackstone Corridor, which preserves and promotes understanding about 
mill community-living, is so precious. It offers a glimpse at America 
as a young nation on the way to becoming a world power, and it honors 
the ingenuity and hard work that led us forward.
    In fact, Blackstone was the nation's second nationally-designated 
Heritage Area--established in 1986, two years after the Illinois & 
Michigan National Heritage Corridor, and it's been a remarkable 
success. Last year, the Corridor Commission's Sustainability Study 
reported that ``the Commission has directly sponsored or participated 
in more than 400 projects within the Corridor.'' The Study also found 
that, ``A conservative estimate of [National Park Service] funds 
indicates a 22-to-1 match--a public-private investment in excess of 
$500 million.''
    The reauthorization legislation needs to be enacted before November 
when the Blackstone Corridor Commission expires.
    I also urge the Committee's support for Senator Dodd's bill, S. 
574, to reauthorize the Quinebaug-Shetucket Heritage Corridor, which 
includes 35 communities in Massachusetts and Connecticut.
    This Corridor, commonly known as ``The Last Green Valley,'' is 
among the few remaining areas in the Northeast with thousands of 
contiguous acres of open space, and much of it looks just as it did 
when the nation was founded. At night, its 1,000 square-mile area of 
darkness can be seen from the sky or in satellite photos of the 
northeast, surrounded by lights from the metropolitan areas of New York 
City, Worcester, and Boston.
    The Last Green Valley has had remarkable success in moving toward 
self-sufficiency. The Corridor Commission has leveraged $4.8 million 
from the Heritage Area program into more than $89 million from other 
sources--nearly 19 times the Park Service investment. Indeed, I 
understand that the Commission wishes to amend S. 574 to reduce this 
authorization from 2027 to 2015, and I support such a change. Again, 
though, I ask the Committee to do all it can to expedite the enactment 
of the bill.
    I know that some Senators have reservations about the Heritage 
Areas program and the need for reauthorization. I understand those 
concerns, particularly at a time of large annual budget deficits and 
too few resources for Park Service programs. But these are important 
investments that shouldn't be cut off.
    The nation's Heritage Areas promote and preserve national 
treasures. States and localities shouldn't have to bear the full 
burden. The Heritage Areas are effective in using Park Service funds to 
leverage private, state and local aid, and the program is fundamentally 
sound. Congress should continue to support them rather than allow them 
to expire prematurely.
    I urge the Committee to approve Senate Bills 1721, 1387, and 574 
soon, so that these Heritage Areas won't lose their leveraging power, 
and can continue to strengthen existing partnerships and build new ones 
to care for these important parts of the nation's history.
    I thank the Committee for scheduling this hearing and for the 
opportunity to testify in support of these bills, and I look forward to 
working with the Committee to enact these important bills.

[Attachment.]
           Tenth Anniversary of Essex National Heritage Area
                              June 1, 2006
    Ten years ago we began a new experiment to see if the federal 
government could partner with local organizations to bring a broad 
range of communities together--34 in all--from Lawrence to Peabody and 
from Saugus to Salisbury--to plan a stronger future by promoting our 
common heritage, preserving our history, and investing in education and 
cultural awareness. We set out to create new economic opportunities by 
promoting cultural tourism, which is now one of the principal economic 
engines of our state.
    It was a novel and relatively untried approach, and many felt it 
would be difficult to bring so many interests together. But its been a 
remarkable success here in Essex County, and you've become a model for 
other communities across the country.
    Few things are more challenging than creating a broad consensus, 
but the rewards are impressive when all that hard work pays off. And 
it's easy to see it's paying off for the North Shore.
    The ``10 years and 100 milestones `` presentation you've made 
tonight just begins to tell this story. From the transformation of the 
United Shoe Machinery site into the Cummings Center in Beverly to the 
lighthouse restoration work of the Thatcher Island Association, these 
milestones demonstrate an enduring commitment on the part of so many.
    Essex County has been blessed with a remarkable and proud legacy. 
Its history dates from the years of Nathaniel Hawthorne and the 
earliest days of our democracy, and its beautiful landscape and 
seascapes rival any in the world.
    For nearly 400 years, the story of Essex County has been the story 
of America--from the first European settlement--to the rise of the sea 
trade--to the industrial revolution--and now to the dawning of this new 
age of global communication.
    The heritage of the area is preserved in its many outstanding 
cultural and historic organizations that work in partnership with the 
Heritage Commission. I think of the Trustees of Reservations, who've 
protected some of the most historic properties in our state for future 
generations, such as Appleton Farms in Ipswich, which was established 
in 1638 and remains one of the oldest continually operating farms in 
the United States.
    I think of the Peabody-Essex Museum, which has just undergone a 
brilliant renovation that will help us tell the story of the China 
trade and the region's early economic vitality.
    In Gloucester, there's the Maritime Heritage Center, the 
Fishermen's Wives Memorial, and the historic Schooner Adventure, which 
has been restored to its early glory. Each of them help us understand 
the magnitude of the past challenges confronting our fishing families, 
and the extraordinary courage it took to master the sea.
    In Amesbury, the restored historic Lowell Boat Shop, the oldest 
continuously operating such shop in the nation, is a wonderful place to 
learn more about the skills and artistry of boat craft.
    The Saugus Ironworks National Historic Site offers visitors an 
opportunity to learn about the nation's first integrated ironworks, and 
provides fascinating information on all of the Heritage Area's 
programs.
    One of the most impressive community efforts has been the 
construction of the Friendship. I was privileged to join you all five 
years ago in Gloucester and in Salem for her commissioning ceremony. 
Building the Friendship was truly a labor of love, citizens young and 
old, business leaders and community leaders--each of whom understood 
what the Friendship would mean to the area.
    It was not a single voice but a strong chorus that came to Congress 
for federal support, and we were happy to help. I still remember 
showing Senator Bob Byrd the postcards that school children sent in and 
the beautiful painting they presented us. In the end, it was the 
heartfelt sincerity of the children that helped carry the day in 
Congress, and today the Friendship moored in the picturesque harbor 
near here is a noble flagship that all visitors to Essex County salute.
    I was proud to be a part of that effort, and proud to support the 
continuing work of the Essex National Heritage Area.
    The federal government has provided essential seed money. But it's 
the communities and towns across the county who made it happen, 
leveraging the federal aid with at least two or three and sometimes 
five dollars of private sector investment for each dollar of federal 
funds.
    Our challenge now is to take this public private partnership 
approach into the next ten years with the same sense of purpose, high 
expectations, and determination.
    The new Leonard Partnership Grants will encourage that kind of 
leadership, and I commend this year's winners--the Ford School and the 
Salem Boys and Girls Club--for their outreach programs that serve young 
people and sustain community awareness and involvement so well.
    Together, we can achieve even more in the next decade, so that a 
new generation of our citizens from Newburyport to Lynn and Haverhill 
to Salem will understand their precious heritage as residents of one of 
the nation's founding colonies and know about the successive 
generations--the ironworkers, the fishermen, the writers, authors, the 
businessmen and public officials, who've worked to leave the region 
better off than the way they've found it.
    I congratulate you on all you've accomplished--and I pledge my full 
support as you meet the new challenges of the coming decade.
                                 @_____
                                 
     Prepared Statement of Hon. Joseph I. Lieberman, U.S. Senator 
                            From Connecticut
    Thank you, Mr. Chairman. The Quinebaug and Shetucket Rivers Valley 
in northeastern Connecticut and south-central Massachusetts is ``The 
Last Green Valley'' in the midst of the urban sprawl that covers much 
of the Boston-to-Washington corridor. This National Heritage Area is 
half the size of Grand Canyon National Park and more than ten times the 
size of Acadia National Park, the largest national park in the 
northeast. This regionally and nationally important landscape provides 
wildlife habitat, recreation opportunities, and important ecosystem 
services, such as carbon sequestration, erosion control, and clean 
water.
    I have supported the efforts of my esteemed colleague from 
Connecticut, Senator Dodd, who has worked tirelessly to ensure funding 
for this important National Heritage Area, as have my friends from 
Massachusetts, Senators Kennedy and Kerry.
    Thanks to the excellent management of the nationally-recognized 
grassroots nonprofit organization, Quinebaug-Shetucket Heritage 
Corridor (QSHC), Inc., federal appropriations have been leveraged and 
matched by funds from state, local, and private sources with a 
cumulative ratio of nineteen dollars to each federal dollar. QSHC Inc. 
has developed ``The Trail to 2015, a Sustainability Plan,'' which puts 
The Last Green Valley on track to being self sufficient and sustainably 
managed by 2015.
    Today I testify in support of amending the Quinebaug and Shetucket 
Rivers Valley National Heritage Corridor Reauthorization Act of 1994 to 
extend the period of authorization through 2015--six years beyond the 
2009 current level--and to maintain the level of authorized funding at 
one million dollars per year throughout that period. That would 
represent a total authorization increase of six million dollars. This 
amendment comports with QSHC Inc.'s management plan and reflects the 
fact that QSHC will not need federal money after 2015.
    With this amendment, we can ensure that The Last Green Valley 
remains green and protected for future generations and for America's 
wildlife. Thank you, Mr. Chairman.
                                 ______
                                 
 Prepared Statement of Hon. George V. Voinovich, U.S. Senator From Ohio
    Mr. Chairman, thank you for holding this hearing today to discuss 
legislation designating and reauthorizing National Heritage Areas. As 
you know, I introduced S. 1721, the National Heritage Area Extension 
Act, on September 19, 2005. I believe this bill is vital to the ongoing 
protection and promotion of the nation's cultural, historic and 
environmental resources. Therefore, I urge the Senate Committee on 
Energy and Natural Resources to consider and pass this important 
legislation.
    Heritage areas preserve thousands of unique national resources 
without restricting land uses or interfering with private property 
rights. They do so by using federal investments to leverage local 
public and private capital. Last year, more than $100 million was 
leveraged in community investments, with nearly half coming from 
private funding, and the funds were used to improve recreational 
trails, provide educational programs, and award local heritage project 
grants.
    S. 1721 would enable this worthwhile federal support for our 
national treasures to continue. The bill authorizes $10 million per 
year through fiscal year 2027 for the National Coal Heritage Area, the 
Tennessee Civil War Heritage Area, the Augusta Canal National Heritage 
Area, the Steel Industry American Heritage Area, the Essex National 
Heritage Area, the South Carolina National Heritage Corridor, America's 
Agricultural Partnership, the Ohio & Erie Canal National Heritage 
Corridor, and the Hudson River Valley National Heritage Area. These 
nine Heritage Areas were originally authorized in the Omnibus Parks and 
Public Lands Act of 1996, but they are now near their spending caps and 
will be unable to continue leveraging federal funding without a new 
authorization.
    In addition, the bill authorizes $10 million through fiscal year 
2016 for the John H. Chafee Blackstone River Valley National Heritage 
Corridor, which was established in 1986, expands the Corridor 
Commission's membership, and orders a new Corridor Plan. The New Jersey 
Coastal Heritage Trail Route, which was established in 1988, would be 
ordered to prepare a new strategic plan focused on improving local 
public and private participation. The Mississippi River National 
Heritage Area would be established, including counties bordering the 
river, and $20 million would be authorized to implement its management 
plan of inventorying, improving, and promoting the region's resources.
    Heritage Areas are proven methods of community preservation and 
revitalization. Their success results from their public-private 
partnerships, which have evolved in two decades of working well with 
local businesses, community activists, regional officials, county-wide 
organizations, and state and federal agencies.
    Again, thank you for holding this hearing. It is my hope that we 
can act on this important legislation in the near future.

         STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Allen. Sure, thank you, Chairman Thomas, and I'm 
pleased to have the opportunity here and I know our committee 
is to hear this subject and this topic at this hearing that is 
very close to my heart. As a history buff, and in fact, as a 
student in history, I feel very, very strongly that it is 
important to preserve and celebrate and learn from the rich 
history of our country; many great things in our past, some 
things that aren't so great. And regardless, people can learn 
from them. In our Commonwealth of Virginia, we're particularly 
proud of the many historical events and people who are 
essential for the foundation and shaping of our country, and, 
in fact, in some areas it's been so essential and crucial that 
it's wonderful to see how it expanded beyond just our continent 
but also these concepts that grow around the world; the ideals 
of democracy and liberty.
    In recognition of this contribution, I've introduced this 
measure S. 2645, The Journey Through Hallowed Ground National 
Heritage Area Act of 2006. My partner and colleague from 
Virginia, Senator Warren is also a co-sponsor, an original co-
sponsor, of this and Congressman Frank Wolff who is a 
passionate, strong, good friend and colleague and leader, also 
has introduced this with many other Virginians on the House 
side.
    This effort is a means of enhancing, not just the ideas, 
but the educational awareness of this very historic ground, 
which I think, when you look at it and see the assets of what 
has happened there, is a very unique region. It is remarkable 
in this country and it was such an important formation of our 
more perfect union. This legislation is designed to maintain 
the heritage of what is Route 15 and Route 20. It's a corridor 
that starts in Albemarle County outside of Charlottesville on 
Route 20, goes north through the Piedmont of Virginia on up 
through Maryland and finally ending at Gettysburg and 
Pennsylvania. This area, Mr. Chairman, includes six 
presidential homes, 13 locations on the National Historic 
Landmark Register, two world heritage sites, 47 historic 
districts and the largest number of Civil War battle fields. 
The region contains intrinsic resources including the greatest 
concentration of rural historic districts in the United States; 
sites from colonial times, sites from the Civil War and, of 
course, there are four national parks there.
    This effort is not something that has just arisen this 
year. It's a 10 year joint public-private sector initiative. 
And I know Cate Magennis Wyatt will be testifying here this 
afternoon, for her work with the National Park Service to 
conserve and promote the historic resources within this region. 
The designation of this heritage area will consist of an 
outstanding grassroots effort which is comprised of over 150 
organizations, nearly every single governing board of 
supervisors, town council, borough council throughout the 
approximate 175 mile corridor. There are some examples of this 
in Virginia in the Shenandoah Valley where there were a lot of 
battles during the war between the States; different counties, 
cities and communities worked together to have a way of 
presenting the various battles that raged in the 1860's in the 
Shenandoah Valley.
    Now this legislation, though, is more than just the Civil 
War, this is, in fact, was even before the Revolutionary War. 
This legislation will ensure that future generations will be 
able to trace the old Iroquois and Sasequahatic Indian Trading 
routes. Also to recognize the battles and tragic bloodshed that 
transpired on many Civil War battle fields. They'll be able to 
reflect on the formation of our American Republic through the 
homes of Thomas Jefferson, James Monroe, and James Madison.
    Our young citizens will learn from journeys and when you 
have a journey it is also a great way to have families take a 
trip, and you can follow where you're going and tell stories 
and try to imagine what things were like in the 1700's or the 
1800's in these areas. And I think what young people are going 
to learn is that leadership emanates from personal choices, and 
our choices are within the control of each and every one of us, 
and so is the leadership; the people and the decisions and 
choices that people made to the challenges they faced in those 
times. So this Journey Through Hallowed Ground National 
Heritage Area, I think, is going to enhance preservation. It's 
truly going to enhance education, and moreover, heritage 
tourism, a big part of these communities, and it's going to 
help, I think, with jobs and historic preservation.
    Finally, this has come up, and it has to do with one of the 
most important rights we have in our free and just society, and 
that's private ownership of property. The preservations of our 
country's heritage is important, as are our Constitutionally 
protected rights, including private ownership of property.
    This bill does more than any other heritage bill passed by 
Congress that I've seen to date to include language clearly 
recognizing those property rights. The introduced language 
provides that nothing in this legislation, in any way, alters 
State or local land use policies or provides no new eminent 
domain powers whatsoever. So, Mr. Chairman, I look forward to 
working with my colleagues to pass this legislation during this 
Congress, it would be great to get this done before the 400 
anniversary of the founding of Jamestown. We've heard this 
before, that Captain John Smith water trail--we want to have 
all America come home to Virginia which is the cradle of 
American Liberty, and the first permanent English settlement 
and to do this I think will enhance not just Virginia, this 
will be beneficial for Maryland, for Pennsylvania, but most 
importantly, I think, for the Nation, not just for 2007, but 
for generations to come, and I thank you, again, Mr. Chairman, 
for holding this hearing and your consideration of this 
important legislation.
    Senator Thomas. Okay. Thank you very much, Senator. I 
welcome Deputy Director Don Murphy from the National Park 
Service, and our other witnesses on today's hearing. Our 
purpose is to receive testimony on five Senate bills having to 
do with national heritage: S. 574, S. 1387, S. 1721, S. 2037, 
and S. 2645.
    So now let me turn to the Senator from Colorado, and then 
we'll go to Mr. Murphy.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Thomas, for 
holding this hearing on these important bills that are before 
the committee. I appreciate your leadership not only on these 
bills but also your leadership concerning our National Park 
System. The bill S. 2037, which is the Sangre de Cristo 
National Heritage Area Act, will help protect the extraordinary 
cultural and natural resources of the San Luis Valley in 
Colorado, my native valley.
    I want to welcome today to our hearing, Ann Marie 
Velasquez, who has been the lead organizer of this project in 
Colorado, and I'd also like to welcome a number of people who 
have traveled a long ways from Colorado to be here from 
Alamosa, Costilla and other counties. Your attendance is a 
testament as to the strength of this national heritage area 
proposal.
    As a native son of the San Luis Valley, I know how hard the 
peoples of the region have fought to protect their traditions, 
their language, their art and architecture, and the stories of 
their ancestors. They have fought to protect treasured 
grasslands, the Great Sand Dunes, the waterways and the 
mountain peaks of the valley. They have fought to protect a 
rural way of life that cherishes family, faith and hard work. 
Sadly, they also paid a price for guarding their rural way of 
life. Costilla and Conjeos Counties are two of the four poorest 
counties in the United States of America. Young people often 
must leave the valley to find the jobs and opportunities that 
they seek elsewhere. What the valley lacks in financial riches, 
it more than makes up for in its natural and cultural 
treasures.
    Mr. Chairman, the land, traditions, and history of the 
valley are of the San Luis Valley are of such importance to the 
story and identity of America that they deserve national 
designation and protection.
    Since people first settled in the San Luis Valley over 
11,000 years ago, the cultures, lifestyles and the cosmologies 
of the valley settlers have converged, conflicted and coalesced 
through the centuries. The region was dubbed ``The Land of the 
Blue Sky People,'' in honor of the Utes, the oldest continuous 
residents of which is now Colorado. It is the home of Mount 
Blanca, the sacred mountain that, according to folklore, marks 
the eastern boundary of the Navajo world. Seventeenth century 
Spanish which is still spoken by about 35 percent of the 
population of the region testifies to the strong influence of 
this--of the original New Mexican settlers into the southern 
part of Colorado. And the Narrow Gauge railroads the Rio Grande 
Railroad recall America's era of westward expansion.
    The valley's natural wonders are many and the designation 
of the national heritage area would, in fact, be a significant 
statement about the importance of the heritage of this peaceful 
area.
    Mr. Chairman, I thank you for holding this hearing and for 
allowing the presentation to be made on this proposed heritage 
area. Thank you very much.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you, Mr. Chairman and Ranking Member Akaka. I appreciate you 
holding this hearing on S. 2037, the Sangre de Cristo National Heritage 
Area Act, which would help protect the extraordinary cultural and 
natural resources of the San Luis Valley in Colorado.
    I want to welcome Ann Marie Velasquez, who has been the lead 
organizer of this project in Colorado. And I would like to welcome the 
large group of county commissioners and community leaders from Conejos, 
Alamosa, and Costilla counties who have traveled so far to join us here 
today. Your attendance is a testament to the strength of this National 
Heritage Area proposal.
    As a native son of the San Luis Valley, I know how hard the peoples 
of the region have fought to protect their traditions, their language, 
their art and architecture, and the stories of their ancestors. They 
have fought to protect treasured ranchlands, sand dunes, waterways, and 
mountain peaks. And they have fought to protect a rural way of life 
that cherishes family, faith, and hard work.
    Sadly, they have also paid a price for guarding their rural way of 
life. Costilla and Conejos Counties are two of the four poorest 
counties in America. Young people often must leave the Valley to find 
the jobs and opportunities they seek.
    What the Valley lacks in financial riches it more than makes up for 
in its natural and cultural treasures. Mr. Chairman, the land, 
traditions, and history of the San Luis Valley are of such importance 
to the story and identity of America that they deserve national 
designation and protection.
    Since people first settled in the San Luis Valley over 11,000 years 
ago, the cultures, lifestyles, and cosmologies of the Valley's settlers 
have converged, conflicted, and coalesced through the centuries. The 
region was dubbed ``The Land of the Blue Sky People'' in honor of the 
Utes, the oldest continuous residents of what is now Colorado. It is 
the home of Mount Blanca, the sacred mountain that, according to 
folklore, marks the eastern boundary of the Navajo world. Seventeenth 
century Spanish, still spoken by about 35% of the population of the 
Sangre de Cristo region, testifies to the strong influence of Hispano 
settlers, while the narrow gauge rails of the Rio Grande Railroad 
recall America's era of westward expansion.
    The San Luis Valley's natural wonders attract visitors from around 
the world. The Valley is home to three National Wildlife Refuges, 
fifteen State Wildlife Refuges, a National Forest, two National Forest 
Wilderness Areas, and the Great Sand Dunes National Park and Preserve. 
Anyone who hikes the area's peaks, watches its wildlife, or rides on 
its ranches will tell you that this region is a crown jewel of the 
American landscape.
    Mr. Chairman, I believe that the concept of a National Heritage 
Area can be, in places like the San Luis Valley, an excellent way for 
the federal government to support local, consensus-based approaches to 
land management. I also agree with you that we need a coherent system 
for designating and managing these heritage areas.
    For this reason, I wrote this bill as if your bill, S. 243, which 
creates standards for National Heritage Area designations, were law. 
The Sangre de Cristo National Heritage Area Act includes strong 
protections for private property, is based on a sound study of the 
national significance of the area, gives firm guidance to the 
management entity, and provides clear direction for how the federal 
government may support the project.
    The Sangre de Cristo National Heritage Area Act also fulfills the 
criteria that the Park Service has established for determining whether 
a project is worthy of designation, and I look forward to hearing more 
about this in Mr. Murphy's testimony.
    I particularly want to note the leadership that the local community 
has shown over the past four years in building support for the project, 
studying the region's resources, and assembling a plan for protecting 
these resources demonstrates that this will be a permanent, successful, 
and self-sufficient project. The list of local governments, 
organizations, state agencies, and individuals supporting this project 
is remarkable, as Ms. Velasquez will attest.
    Mr. Chairman, for generations the peoples of the San Luis Valley 
have worked hard to be good stewards of their land and water and to 
preserve their culture and rural way of life. They are looking for our 
help now to protect a place that is central to Colorado's peoples, 
emblematic of the Western landscape, and at the core of the American 
experience.
    I hope we can honor the contributions of the San Luis Valley to our 
Nation's heritage by designating the Sangre de Cristo National Heritage 
Area.
    Thank you, Mr. Chairman.

    Senator Thomas. Thank you.
    Mr. Murphy, would you care to comment, please?

 STATEMENT OF DONALD W. MURPHY, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Murphy. Thank you, Mr. Chairman. Senator Allen, Senator 
Salazar. I'm Donald Murphy, Deputy Director of the National 
Park Service, and I would like to open my statement by saying 
my official testimony is in the record, and I hope you'll 
except my official testimony that has been placed in the 
record.
    Senator Thomas. It will be in the record.
    Mr. Murphy. A recent National Park System Advisory Board 
report, entitled ``Charting a Future for National Heritage 
Areas,'' recognized the important role of national heritage 
areas and expanding conservation, stewardship and identifying 
and preserving significant historic resources. The report also 
recognized that national heritage areas need a legislative 
foundation that frames and supports this approach. So the 
national heritage area program legislation sponsored here in 
the Senate, by Chairman Thomas, S. 243 that passed the Senate 
last year and is supported by the Department would provide that 
framework, and that's very important to the National Park 
Service for the future management of these heritage areas.
    I'll take each bill in turn and present the Department's 
positions on those bills.
    First, S. 574 that would extend the termination date for 
Federal funding to the Quinebaug and Shetucket River Valley 
National Heritage Corridor from September 2009 to September 
2027, and increase the ceiling on appropriations from $10 
million to $20 million. The Department does not support 
enactment of this bill, since extending the Federal financial 
commitment to this heritage area is not in keeping with the 
program legislation framework that I just referred to. Under 
its existing organization the area will continue to receive 
annual Federal funding for 3 more years. And we would recommend 
that the area begin to evaluate on how it will sustain its 
efforts to protect resources when Federal funding ends in 2009.
    Now, turning to the S. 1387 that would reauthorize the John 
H. Chafee Blackstone River Valley National Heritage Corridor 
Commission for a period of 10 years. It would provide an update 
of the management plan, authorize a special resource study, 
authorize additional appropriations for the corridor for 
operations and development, and increase the membership of the 
commission. The Department is not able to support the enactment 
of S. 1387 as presently drafted, but would support a 5-year 
reauthorization of the commission with an authorization of one 
million dollars per year. The Department opposes the 
authorization of $10 million in additional development funds. 
However, we do support, enthusiastically, this special resource 
study. The Department also recommends that the bill be amended 
to include an update of the management plan that would require 
identifying a successor, non-Federal management entity for the 
corridor comprised of a board with broad, regional 
representation. The updated plan should also provide the 
schedule and manner in which the transition of the management 
of the corridor will occur by the end of the five-year 
reauthorization period.
    And finally, the plan should provide information on how the 
heritage corridor will be financially self-sufficient as its 
work continues during the 5-year reauthorization period.
    Now turning to S. 1721, the National Heritage Area 
Extension Act, which has four titles. And, based on the 
complexity and the varied nature of these titles, the 
Department would like to present our position on each of the 
titles separately.
    Title I would extend the authority for nine national 
heritage areas to receive Federal funds for an additional 15 
years. It would increase the authorization ceiling from $10 
million to $20 million per area, and would make several 
amendments to the authorizing legislation for three of these 
areas.
    Although the Department supports the proposed minor 
amendments to the three heritage areas, we do not support 
reauthorizing Federal assistance to all nine heritage areas for 
an additional 15 years or increasing their authorization 
ceilings.
    In title II, it would reauthorize the New Jersey Coastal 
Heritage Trail Route, which is an affiliated area of the 
National Park System, and is not a national heritage area. It 
will eliminate the $4 million appropriation ceiling and will 
require the completion of a strategic plan by the Secretary. 
The Department supports this title, if amended to increase the 
authorization ceiling to $8 million instead of eliminating it 
altogether, to extend the reauthorization date of the trail 
route until May 2009. And to require that this strategic plan 
be done in partnership with the State.
    Title III would reauthorize the John H. Chafee Blackstone 
River Valley National Heritage Corridor Commission for a period 
of 20 years, provide an update of the management plan, 
authorize additional appropriations for operations and 
development, and increase the membership of the commission. The 
Department does not support this title as currently drafted, 
but would support reauthorizing the commission for a 5-year 
period, and updating the management plan to identify a 
successor, non-Federal management entity for the corridor, 
comprised of a board with a broad, regional representation. We 
also recommend that a new subsection be added that requires a 
special resources study to be completed. And the Department 
would oppose authorizing $10 million in development funds.
    Finally, title IV, would designate the Mississippi River 
National Heritage Area across ten States and authorize 
appropriations of $2 million a year, not to exceed $20 million 
overall. The Department isn't able to support enactment of this 
title and would recommend that the title be amended to 
authorize an updated study instead.
    Turning to S. 2037, to establish the Sangre de Cristo 
National Heritage Area of Colorado. The bill would establish 
that the Sangre de Cristo National Heritage Area to recognize 
the outstanding and nationally significant, natural, cultural 
and scenic recreational resources found within the San Luis 
Valley of Colorado.
    While a feasibility study has determined that the area is 
appropriate for designation, the Department recommends that the 
committee defer action on S. 2037 until program legislation is 
enacted, that establishes guidelines for process of designation 
with national heritage areas.
    I want to hasten to add that we thought the feasibility 
study was an excellent feasibility study, that it met all of 
the criteria and this area's clearly recognized by the National 
Park Service as being superior in nature. We simply feel that 
it's important to have the program management legislation 
implemented before establishing any new heritage areas.
    With S. 2037 we recommend that the bill be amended to 
remove paragraph 5(d)(2), which would require 100% Federal 
funding prior to completion of the management plan and to 
change the termination authority in section 10 to expire 15 
years after enactment.
    These amendments would make S. 2037 consistent with other 
similar national heritage area establishment bills.
    Now turning to S. 2645, Designation of A Journey Through 
Hallowed Ground National Heritage Area. S. 2645 would establish 
``A Journey Through Hallowed Ground National Heritage Area'' 
across 175 miles along Route 15 and part of Route 20. We 
recognize that this is an extremely significant route. I live 
not far from that route in Spotlvania County right in the 
middle of wilderness battlefield. I often travel to Almerow 
County because I teach at the Federal Executive Institute.
    My family owns property not far from there that's been in 
our family for nearly 100 years, and I'll be going there this 
weekend with my great-cousin, as a matter of fact, and have 
great affection for that area. However, in its current form the 
Department does not support enactment of this bill at this 
time. Before a national heritage area is designated by 
Congress, a comprehensive feasibility study is required that 
evaluates an area using a criteria developed by the Department 
and Congress. And although a study undertaken by ``A Journey 
Through Hallowed Ground Partnership'' is a very good beginning 
step in looking at the resources in the region, it doesn't 
fully address the required criteria for the designation of 
national heritage areas.
    I am happy to report, however, that we have been meeting on 
a regular basis with the sponsors of this legislation. Our 
National Park Service staff just recently met with Cate, again, 
this week, and we have a follow-up meeting after this hearing 
to make sure the group understands the criteria that we believe 
have not been met yet. And so they can continue to work with 
us, to make sure that the study meets the National Park Service 
criteria.
    Additionally, if the bill moves forward, the Department 
would recommend that two provisions be removed from the bill; 
one requiring the compact, and one that authorizes Federal 
funds for land acquisition. So we're fully prepared to provide 
advice to the partnership to assist in completing the 
feasibility study that meets our professional standards, and 
provides Congress with the necessary information and assessment 
upon which to base its decisions regarding the designation in 
the future.
    Mr. Chairman, that concludes my testimony. I'll be happy to 
take questions.
    [The prepared statements of Mr. Murphy follow:]
   Prepared Statement of Donald W. Murphy, Deputy Director, National 
                Park Service, Department of the Interior
                                 S. 574
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
574, a bill to amend the Quinebaug and Shetucket Rivers Valley National 
Heritage Corridor Act of 1994. The Department does not support 
enactment of this bill.
    The Quinebaug and Shetucket Rivers Valley National Heritage 
Corridor, also known as The Last Green Valley, was authorized in 1994 
and comprised 25 communities in northeastern Connecticut. It began 
receiving federal funding in 1996 and in its first four years of 
operation, it received $200,000 per year. It became the first national 
heritage area to be managed by a non-profit organization, the 
Quinebaug-Shetucket Heritage Corridor, Inc. Its first plan, Vision to 
Reality: A Management Plan, was completed in 1997.
    In 1999, the Quinebaug and Shetucket Rivers Valley National 
Heritage Corridor (QSHC) was expanded to include 10 additional 
communities in its watershed in Connecticut and Massachusetts, making 
it the second bi-state national heritage area in the country. At the 
same time, its original seven-year authorization was extended through 
2009 and a new ceiling of $10,000,000 was authorized with an annual 
amount not-to-exceed $1,000,000, in keeping with other similar national 
heritage areas. At that time, Vision 2010: A Plan for the Next Ten 
Years was completed, along with the Interpretive Initiative for the 
Quinebaug and Shetucket Rivers Valley National Heritage Corridor. With 
the additional federal investment and larger regional focus, many 
successful programs were initiated. Appropriations from FY 1996 through 
FY 2006 have totaled $5,581,000.
    S. 574 would increase the ceiling on appropriations to the QSHC 
from $10,000,000 to $20,000,000 and extend the termination date of the 
Secretary of the Interior's financial commitment from September 30, 
2009 to September 30, 2027 which is inconsistent with the national 
heritage area program legislation passed by the Senate last year and 
supported by the Administration.
    With regard to that legislation, a recent National Park System 
Advisory Board report Charting a Future for National Heritage Areas 
recognized that national heritage areas need a legislative foundation 
that frames and supports the important role of national heritage areas 
in expanding conservation stewardship and in identifying and preserving 
significant historic resources. The national heritage area program 
legislation (S. 243) that passed the Senate last year and is supported 
by the Department would provide such a framework. The program 
legislation authorizes the Secretary to provide financial assistance to 
national heritage areas for a period not to exceed 15 years after an 
area is designated by Congress. Local coordinating entities that 
prepare and implement the management plan for the national heritage 
area could receive up to $1 million per year, not to exceed $10 million 
over the 15-year period. Prior to the end of the 15-year period, an 
evaluation and report would be required on the accomplishments, 
sustainability, and recommendations for the future of each national 
heritage area. Extending the federal financial commitment to this 
heritage area is not in keeping with this framework.
    During the 12 years since designated by Congress, the QSHC has 
accomplished many partnership-oriented projects related to resource 
protection and interpretation within the watershed as outlined in the 
management plan. Under its existing authorization, the area will 
continue to receive annual federal funding for three more years. As is 
stated in the program legislation, we would recommend that the area 
begin to evaluate how it will sustain its efforts to protect resources 
when federal funding ends in 2009.
    The Green Valley Institute (GVI) is a partnership among the QSHC, 
the University of Connecticut's College of Agriculture and Natural 
Resources, and the cooperative extension system of the University of 
Massachusetts. Its programs are made possible through active 
partnerships with many additional organizations and communities, and 
the active involvement of QSHC's Natural Resources and Agriculture 
Committee. GVI programs specifically target three local audiences: 
private landowners; municipal leaders and land use commissioners; and 
contractors, realtors and others who convert open space to other uses. 
Now in its fifth year, the work of GVI has been positively recognized 
with eight state and national awards.
    GVI was created to help document, plan for and protect the 
priceless land-based resources of the region. Its goals are to improve 
the knowledge base from which land use and natural resources decisions 
are made, and to build local capacity to protect and manage natural 
resources as the region grows.
    The nearly 1,100-square miles of The Last Green Valley provide a 
challenge to cohesive and engaging regional interpretation of natural 
and historical resources. Over the past several years, QSHC has 
developed a number of interpretive strategies to educate residents and 
visitors alike, while providing an entertaining base from which to 
generate tourism. For example, Last Green Valley Ventures is a program 
that (1) circulates people and information throughout the region; (2) 
provides adequate visitor services, orientation to The Last Green 
Valley and interpretation of the many regional themes; (3) assures 
quality, consistency and hospitality; and (4) collects important 
statistical data to inform future marketing and programming. The 
program combines current assets of The Last Green Valley, the 
compendium of existing research and support brochures, the 
complimenting businesses offering unique experiences, and partners from 
public and private sectors into one cohesive product.
    Last Green Valley Ventures also dovetails with an on-line 
educational resources guide, Valley Quest, used by regional educators, 
parents and youth group leaders to educate and inspire the future 
stewards of the QSHC.
    Quinebaug-Shetucket Heritage Corridor, Inc, who manages the 
heritage corridor and implements the management plan, has distributed 
$1.6 million in historic preservation and partnership program grants to 
municipal governments and non-profits for nearly 200 projects, 
resulting in the leveraging of $7 million overall. The grants have 
built local capacity, revitalized downtown areas, supported trail 
design and enhancements, improved water quality, supported economic 
development and tourism, just to name a few.
    Local support for the QSHC is evident by the lengthy list of 
partners in their annual reports that includes entities from all 
geographic areas and mission areas. QSHC's large grassroots 
organization consistently has more than 100 people involved in active 
working committees each month. Each of the 35 towns in the region has 
signed a voluntary and nonbinding community compact in which the local 
governments accepted the goals and objectives of the Quinebaug-
Shetucket management plan and formalized the towns' commitment to 
balance conservation and growth in their collective vision for the 
watershed.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                S. 1387
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1387, a bill that would reauthorize the John H. Chafee Blackstone River 
Valley National Heritage Corridor Commission for a period of 10 years, 
provide for an update of corridor planning documents, authorize a 
Special Resource Study, authorize additional appropriations for the 
corridor for operations and development, and increase the membership of 
the commission. The Department is unable to support enactment of S. 
1387 as presently drafted, but would support a limited reauthorization 
of the commission. The Department opposes the authorization of $10 
million in additional development funds.
    The John H. Chafee Blackstone River Valley National Heritage 
Corridor, which has been in existence for 20 years, is considered among 
the leading national heritage efforts in the nation. The commission 
that has managed the corridor's programs and projects has made 
exceptional strides in the preservation and protection of a myriad of 
resources and in interpreting the rich stories of the ``Birthplace of 
the American Industrial Revolution''--the Blackstone River Valley of 
Massachusetts and Rhode Island.
    It was in the Blackstone River Valley at Pawtucket that Samuel 
Slater, a British immigrant, in concert with Moses Brown developed the 
first successful textile manufacturing mill that triggered our own 
industrial revolution, one that continues today. Indeed, the Blackstone 
River Valley itself became a major center of manufacturing in the 
United States during the 19th and 20th centuries. Today, largely due to 
the recognition of the corridor by Congress, and the important work of 
the commission, the region has seen a rebirth through intelligent and 
adaptive reuse of previous mills and manufacturing facilities. As 
residents came to fully understand the nation-changing history of their 
region, the stories of its people, and its untapped community and 
economic potential through historic preservation, pride of place and 
appreciation of shared heritage soon followed.
    National heritage areas and historic preservation efforts 
throughout the country have benefited from the leadership and best 
practices for which Blackstone is well-known. The commission has and 
continues to enjoy exceptional support among state and local 
governments, businesses, private organizations, and the general public 
of the region.
    The National Park Service (NPS) has had a unique relationship with 
the commission and its innovative and productive work since the 
corridor was established in November 1986. Consistent with section 4 of 
the authorizing legislation, the NPS has provided staff to the 
commission and conducts ranger-led interpretive programs in the 
corridor. Congress, recognizing this special relationship, has 
consistently authorized funding for projects in the corridor in the 
Line Item Construction portion of the NPS budget. The executive 
director of the commission, a NPS employee, also serves as 
Superintendent of the Roger Williams National Memorial, a small unit of 
the National Park System in Providence, Rhode Island.
    S. 1387, besides providing for reauthorization of the commission, 
authorizes the Secretary of the Interior to conduct a Special Resource 
Study to determine whether areas in the corridor meet the criteria for 
congressional designation as a unit of the National Park System. We 
believe the conduct of such a study is timely and appropriate. It would 
permit the Secretary to make recommendations to Congress including the 
future role that NPS may play in the preservation and protection of 
additional corridor resources.
    The National Park System Advisory Board in its recent report 
entitled Charting a Future for National Heritage Areas recognized the 
important role of national heritage areas in expanding conservation 
stewardship and in identifying and preserving significant historic 
resources. The report also recognized that national heritage areas need 
a legislative foundation that establishes a clear process for 
designation, administration, and evaluation. The national heritage area 
program legislation (S. 243) that passed the Senate last year and is 
supported by the Department also outlined the steps to be followed for 
success as a national heritage area. Both the Advisory Board report and 
the proposed legislative framework recommended that prior to 
consideration for reauthorization, an individual national heritage area 
should be the subject of a study to determine any future and 
appropriate level of NPS involvement including, but not limited to, 
future federal funding. Blackstone is the first heritage area to have 
followed this process. A study prepared in 2005 by the NPS Conservation 
Study Institute entitled, Reflecting on the Past, Looking to the Future 
concluded that there is a clear need to sustain an effective 
coordinating framework for the corridor and an on-going relationship 
with the NPS.
    The Department believes that S. 1387, if amended, can provide the 
basis whereby the important work of the commission may continue while 
providing an opportunity for the NPS and the commission to explore 
viable alternatives for the future management of heritage resources in 
the region. This can be accomplished while maintaining the cooperative 
working relationship that has been the hallmark of our joint efforts to 
preserve, protect, and enhance the nationally significant and important 
resources of the Blackstone River Valley.
    The Department recommends that the bill be amended in section 2(d) 
to only reauthorize the commission for a five-year period, and that the 
update of the management plan in section 2(c) include a requirement 
that the plan identify a successor non-Federal management entity for 
the corridor, comprised of a board with broad regional representation. 
The updated plan should also provide the schedule and manner in which 
the transition of the management of the corridor will occur from the 
present federal commission to a new management entity by the end of the 
five-year reauthorization period. Finally, the plan should provide 
information on how the heritage corridor will be financially self-
sufficient as its work continues beyond the five-year reauthorization 
period.
    The Department would further recommend that the Special Resource 
Study authorized in section 2(e) be submitted to the Committee on 
Resources in the House of Representatives and Committee on Energy and 
Natural Resources in the Senate no later than 90 days after it is 
completed instead of the proposed 30-day requirement in order to permit 
full consideration by the Secretary to make an informed recommendation 
to Congress. Finally, the Department would recommend that section 2(f) 
be amended to strike the authorization for $10 million in development 
funds in order to be consistent with the appropriation levels of other 
national heritage areas.
    The Department believes that these amendments will permit the John 
H. Chafee Blackstone National Heritage Corridor Commission to continue 
its significant contributions to the region while providing the 
necessary time for transition to a non-federal, locally supported 
management entity to carry on the commission's valuable work into the 
future.
    Mr. Chairman, that concludes my testimony and I am prepared to 
answer any questions that you or other members of the committee might 
have at this time.
                                S. 1721
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1721, the National Heritage Area Extension Act of 2005.
    The bill has four titles. Title I would extend the authority for 
nine national heritage areas to receive federal funds for an additional 
15 years. It would increase the authorization ceiling from $10 million 
to $20 million per area, and would make several amendments to the 
authorizing legislation for three of these areas. Title II would 
reauthorize the New Jersey Coastal Heritage Trail, eliminate the 
$4,000,000 appropriations ceiling, and require that the Secretary 
undertake a strategic plan to increase opportunities for participation 
by the public in the trail route. Title III would reauthorize the John 
H. Chafee Blackstone River Valley National Heritage Corridor Commission 
for an additional 20 years, update the management plan, provide for 
additional commission members to be appointed, authorize an additional 
$10 million for the commission, and authorize $10 million in 
development funds to the heritage corridor. Title IV would designate 
the Mississippi River National Heritage Area across 10 states.
    Based on the complexity and varied nature of each of these titles, 
the Department would like to present our position on each title 
separately.
  title i--extensions and technical corrections to omnibus parks and 
                  public lands management act of 1996
    Title I would extend the authorization for nine national heritage 
areas, authorized in the Omnibus Parks and Public Lands Management Act 
of 1996, from September 30, 2012 to September 30, 2027, and would 
increase their current appropriations ceiling of $10 million to $20 
million. It also would make several minor amendments to the authorizing 
legislation for the National Coal Heritage Area, the South Carolina 
Heritage Area, and the Ohio & Erie National Heritage Corridor. Although 
the Department supports the proposed minor amendments to the three 
heritage areas, we do not support reauthorizing federal assistance to 
all nine heritage areas for an additional 15 years or increasing their 
authorization ceilings.
    A recent National Park System Advisory Board report Charting a 
Future for National Heritage Areas recognized the important role of 
national heritage areas in expanding conservation stewardship and in 
identifying and preserving significant historic resources. The report 
also recognized that national heritage areas need a legislative 
foundation that frames and supports this approach. The national 
heritage area program legislation (S. 243) that passed the Senate last 
year and is supported by the Department would provide such a framework.
    The program legislation authorizes the Secretary to provide 
financial assistance to national heritage areas for a period not to 
exceed 15 years after an area is designated by Congress. Local 
coordinating entities that prepare and implement the management plan 
for the national heritage area could receive up to $1 million per year, 
not to exceed $10 million over the 15-year period. Prior to the end of 
the 15-year period, an evaluation and report would be required on the 
accomplishments, sustainability, and recommendations for the future of 
each national heritage area. Extending the federal financial commitment 
to the heritage areas in S. 1721 is not in keeping with this framework. 
Therefore, the Department does not support section 101(a) of S. 1721.
  title ii--reauthorization of appropriations for new jersey coastal 
                          heritage trail route
    Title II would reauthorize the New Jersey Coastal Heritage Trail 
Route, eliminate the $4,000,000 appropriations ceiling, and require the 
completion of a strategic plan by the Secretary. The Department 
supports Title II of S. 1721 with three amendments.
    In 1988, the Secretary was authorized to designate a vehicular tour 
route in coastal New Jersey and to prepare an inventory of sites along 
the route. An interpretive program was also mandated to provide for 
public appreciation, education, understanding and enjoyment of 
important fish and wildlife habitats, geologic and geographical 
landforms, cultural resources, and migration routes in coastal New 
Jersey. The Secretary was authorized to provide technical assistance, 
prepare and distribute information, and erect signs along the route. 
The trail links national wildlife refuges, national parklands, National 
Historic Landmarks, and National Register sites with important historic 
communities, state parks, natural areas, and other resources to tell 
the story of New Jersey's role in shaping U.S. history and in providing 
internationally important habitats for bird and other migrations.
    The trail, an affiliated area of the National Park System, is a 
partnership among the National Park Service; the State of New Jersey 
through its Department of Environmental Protection, Commerce and 
Economic Growth Commission, and Pinelands Commission; and many local 
government and private non-profit partners. Through interpretation of 
five themes (Maritime History, Coastal Habitats, Wildlife Migration, 
Relaxation & Inspiration, and Historic Settlements), the trail brings 
attention to important natural and cultural resources along coastal New 
Jersey. The trail demonstrates the potential of public/private 
partnerships that allow the National Park Service to meet its core 
mission of natural and cultural resource preservation along with 
interpretation and public education in a cost-efficient manner through 
technical assistance while reducing operational responsibilities.
    Reauthorization of the trail would enable the National Park Service 
to complete implementation of the trail plan, as supported by the 
public and our partners. Without additional time and funding, the New 
Jersey Coastal Heritage Trail Route will be left incomplete. 
Implementation of the plan is also critical in building a base of 
sustainable partners and developing a strategy for the long-term 
management of the trail. Additionally, commitments to trail partners 
would go unfulfilled, and many additional natural and cultural 
resources would not receive the partnership assistance leveraged by the 
trail.
    The strategic plan authorized in S. 1721 would be an important tool 
to help the trail develop a long-term management strategy that includes 
creating a self-sustaining funding mechanism that does not depend 
indefinitely on operational funding from the National Park Service. To 
this end, we would recommend that the title be amended to increase the 
authorization ceiling by an additional $4 million only instead of 
eliminating the ceiling altogether. We also would recommend an 
amendment to require this strategic plan to be done in partnership with 
the State. Also, because the reauthorization extension proposed in 
section 201 of S. 1721 has already passed (May 2006), we would 
recommend that section 6(c) of Public Law 100-515 be amended to change 
``12'' to ``15'' thus extending the reauthorization date until May 
2009.
  title iii--john h. chafee blackstone river valley national heritage 
                                corridor
    Title III would reauthorize the John H. Chafee Blackstone River 
Valley National Heritage Corridor Commission for an additional 20 
years, authorize an additional $10 million over 20 years to support the 
commission, expand the commission from 19 to 25 members, require an 
update of the Cultural Heritage and Land Management Plan, and authorize 
$10 million over 10 years in development funds for the heritage 
corridor. The Department does not support Title III of S. 1721 as 
currently drafted, which is not in keeping with the framework of the 
heritage area program legislation supported by the Department.
    Designated 20 years ago as only the second national heritage area 
in the country, the John H. Chafee Blackstone River Valley National 
Heritage Corridor celebrates the ``Birthplace of the American 
Industrial Revolution''--the Blackstone River Valley of Massachusetts 
and Rhode Island. The commission that has managed the corridor's 
programs and projects has made exceptional strides in the preservation 
and protection of a myriad of resources and in interpreting the rich 
stories of the Industrial Revolution in our nation.
    It was in the Blackstone River Valley at Pawtucket that Samuel 
Slater, a British immigrant, in concert with Moses Brown developed the 
first successful textile manufacturing mill that triggered our own 
industrial revolution, one that continues today. Indeed, the Blackstone 
River Valley itself became a major center of manufacturing in the 
United States during the 19th and 20th centuries. Today, largely due to 
the recognition of the corridor by Congress, and the important work of 
the commission, the region has seen a rebirth through intelligent and 
adaptive reuse of previous mills and manufacturing facilities. As 
residents came to fully understand the nation-changing history of their 
region, the stories of its people, and its untapped community and 
economic potential through historic preservation, pride of place and 
appreciation of shared heritage soon followed.
    The Department would recommend that Title III, section 303 be 
amended to only reauthorize the commission for a five-year period, and 
that the update of the management plan in section 302 include a 
requirement that the plan identify a successor non-Federal management 
entity for the corridor, comprised of a board with broad regional 
representation. The updated plan should also provide the schedule and 
manner in which the transition of the management of the corridor will 
occur from the present federal commission to a new management entity by 
the end of the five-year reauthorization period. Finally, the plan 
should provide information on how the heritage corridor will be 
financially self-sufficient as its work continues beyond the five-year 
reauthorization period.
    The Department would also recommend that a new subsection be added 
that requires a Special Resources Study to be completed to determine 
whether any areas within the corridor meet the criteria for 
congressional designation as a unit of the National Park System. We 
believe the conduct of such a study is timely and appropriate. It would 
permit the Secretary to make recommendations to Congress including the 
future role that National Park Service may play in the preservation and 
protection of corridor resources. And finally, the Department would 
recommend that section 304 be amended to strike the authorization for 
$10 million in development funds in order to be consistent with the 
appropriations levels of other national heritage areas.
           title iv--mississippi river national heritage area
    Title IV would designate the Mississippi River National Heritage 
Area consisting of all counties and parishes that border the 
Mississippi River, it would designate a non-profit organization, the 
National Mississippi River Museum and Aquarium, as the management 
entity, it would require the development of a management plan for the 
heritage area, and authorize appropriations of $2 million a year not to 
exceed $20 million overall. The Department does not support enactment 
of this title, and would recommend that the title be amended to 
authorize an updated study instead.
    The Mississippi River Corridor Study Commission was established by 
Congress in 1990 to study and determine the feasibility of designating 
the river corridor as a national heritage area. The study was completed 
in 1995 and recommended a national heritage area designation although a 
number of private residents were vocally against this effort based on 
concerns of federal control in local issues. Because this study was 
completed over 10 years ago before the criteria contained in our 
heritage area program legislation was developed, there are several key 
criteria that have not been evaluated including the extent of 
grassroots civic engagement, a boundary map for the heritage area, 
environmental compliance, a business plan, and financial commitments 
from partners. In addition, the management entity designated in this 
title was not one of the three groups evaluated in the 1995 study. 
Also, this title would authorize the heritage area to receive double 
the normal amount of appropriations for other current national heritage 
areas and there is no sunset provision for this funding.
    The Mississippi River story is one that spans many centuries, 
cultures, lifeways and economies. It continues to draw people to its 
banks, waterways and communities. A National Park Service unit now 
exists in the Minnesota region of the Mississippi River, offering a 
knowledgeable perspective based on their experience within a small 
section of the river as an active partner. We recommend the Mississippi 
River feasibility study now in existence be updated to address current 
public, compliance, and management needs based on the current heritage 
area criteria and guidelines.
                               conclusion
    Over the past 20 years, the process for designating national 
heritage areas has evolved from its early stages where Congress was 
establishing these on an area-by-area basis with no standardized 
criteria, study requirements or guidelines, to a much more uniform 
process that still ensures each area retains its unique 
characteristics, resources, themes, and partnership structure. The 
National Park System Advisory Board's report and the national heritage 
area program legislation (S. 243) that passed the Senate last year and 
is supported by the Department, would provide a framework that 
establishes a national heritage area system, and sets criteria and 
guidelines for studies and designations to enable all parties to do a 
better job of evaluating and designating the national heritage areas of 
the future. Reauthorizing existing heritage areas for 15 or more years 
without the benefit of an assessment of the accomplishments and needs 
for sustainability, or supporting new designations that are not based 
upon the completion of comprehensive feasibility studies that 
adequately address our criteria, does not help the national heritage 
area program to succeed and thrive.
    According to the Advisory Board report, national heritage areas are 
an important direction in conservation and historic preservation and 
are founded on consensus-based planning, local commitments, and a 
network of long-term partnerships. As the individual areas approach the 
termination of their funding authorization, they need to plan for 
future options to sustain the partnerships and program beyond 
reauthorizing the area for an additional fifteen years of funding. 
Through advance planning, new partnerships can be forged that sustain 
the heritage area approach and honor the legislative commitment of 
financial support.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                S. 2037
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2037, a bill to establish the Sangre de Cristo 
National Heritage Area in the State of Colorado.
    While a feasibility study has determined that the area is 
appropriate for designation, we recommend that the Committee defer 
action on S. 2037 until program legislation is enacted that establishes 
guidelines and a process for designation of national heritage areas. 
The National Park System Advisory Board in its recent report entitled, 
Charting a Future for Heritage Areas recognized the important role of 
National Heritage Areas in expanding conservation stewardship and in 
identifying and preserving significant historic resources. The report 
also recognized that National Heritage Areas need a legislative 
foundation that establishes a clear process for designation, 
administration, and evaluation. Last year, the Senate passed national 
heritage area program legislation that is supported by the Department. 
The Administration is working on a similar legislative proposal this 
year, and we look forward to continuing to work with Congress on this 
very important issue.
    S. 2037 would establish the Sangre de Cristo National Heritage Area 
(NHA) to recognize the outstanding and nationally significant natural, 
cultural, scenic and recreational resources found within the San Luis 
Valley of Colorado.
    S. 2037 contains safeguards to protect private property, including 
a prohibition on the use of federal funds to acquire real property. The 
bill proposes no new restrictions with regard to public use and access 
to private property.
    S. 2037 designates the Sangre de Cristo National Heritage Area 
Board of Directors as the management entity and outlines their duties. 
The Board represents a broad spectrum of the valley's residents, 
organizations, and agencies that were involved in the planning for the 
NHA. The bill also authorizes the development of a management plan 
within three years of enactment and authorizes the use of federal funds 
to develop and implement that plan. If the plan is not submitted within 
three years of enactment of this Act, the Heritage Area becomes 
ineligible for federal funding until a plan is submitted to the 
Secretary. Additionally, the Secretary may, at the request of the 
management entity, provide technical assistance and enter into 
cooperative agreements with other public and private entities.
    Exceeding 7,700 feet in elevation, the San Luis Valley is flanked 
by the Sangre de Cristo and San Juan Mountains and the geology and 
climatology within the valley have contributed to the formation of 
America's tallest Sand Dunes, part of Great Sand Dunes National Park 
and Preserve.
    The Rio Grande, the second largest river in North America, has its 
headwaters within the proposed NHA and twists its way through the San 
Luis Valley on a 1,900-mile journey, offering outstanding scenic and 
recreational opportunities, including trout fishing, rafting, and 
tubing. The availability of water in this largely arid and alpine 
environment tends to concentrate the abundant wildlife in highly 
visible and public preserves creating exceptional wildlife and bird 
watching opportunities.
    The area's rich natural resources include one National Park, three 
National Wildlife Refuges, one National Forest, two National Forest 
Wilderness Areas, six Areas of Critical Environmental Concern 
administered by the Bureau of Land Management, and 15 State Wildlife 
Areas. The cultural resources associated with the proposed national 
heritage are equally impressive. The abundant natural resources of the 
San Luis Valley may have been inhabited by native peoples including the 
Ute, Navajo, Apache, Tiwa, Tewa, Comanche, Kiowa, and Arapaho for more 
than 12,000 years.
    More recently, the San Luis Valley served as a crossroads for 
European exploration and settlement. Spanish explorers and Franciscan 
priests first entered the valley in 1776 in an attempt to strengthen 
Spain's weak hold on her remote empire. Captain Zebulon Montgomery Pike 
camped in the shadows of the Sangre de Cristo Range along the banks of 
the Conejos River and was captured by Spanish soldiers, arrested for 
trespassing on Spanish soil, and escorted to Mexico for questioning. 
His campsite is commemorated as a National Historic Landmark along with 
22 other properties that are listed on the National Register of 
Historic Places.
    Extensive Mexican land grants triggered the initial settlement of 
the area as families from northern New Mexico found enough water to 
support their sheep and water their crops. The proposed NHA contains 
the oldest continuously occupied town in Colorado, (San Luis), the 
oldest parish (Our Lady of Guadalupe), the oldest church (San Acacio), 
and the first water right (San Luis People's Ditch).
    The Hispanic cultural traditions associated with this first wave of 
European settlement can still be found in this isolated and 
predominately agricultural region of Colorado where a version of 17th 
century Spanish is still spoken by about 35% of the population.
    The feasibility of recognizing the area's impressive cultural and 
natural resources as a national heritage area was the subject of a 
study produced in 2005 by two grassroots organizations, the Los Amigos 
Caminos Antiguos Scenic and Historic Byway, in conjunction with the 
Sangre de Cristo NHA Steering Committee.
    The feasibility study was largely based upon the results of a 
symposium held in the fall of 2002 where scientists, historians, and 
anthropologists from interested colleges as well as local ranchers, 
community leaders, and tribal elders presented papers on the history, 
natural resources and local culture of the San Luis Valley. The 
feasibility study identified four interpretive themes for the NHA and 
addressed the ten interim criteria that the National Park Service has 
developed for designation of national heritage areas. The study 
concluded that the area's cultural and natural resources met those 
criteria.
    All local governments within the proposed area have passed 
resolutions in support of the establishment of the proposed NHA. 
Moreover, State and federal land managers within the proposed NHA have 
expressed a willingness to work with the management entity in 
accomplishing their congressionally authorized conservation and 
education responsibilities.
    At such time as S. 2037 moves forward, we recommend that the bill 
be amended to remove paragraph 5(d)(2) which would require 100 percent 
federal funding prior to completion of the management plan and to 
change the termination authority in Section 10 to expire 15 years after 
enactment. In addition, we would like to work with the Subcommittee to 
ensure that the management planning process is coordinated with the 
affected federal land management entities. These amendments would make 
S. 2037 consistent with other, similar, national heritage area 
establishment bills.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                S. 2645
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2645, a bill to establish the Journey Through Hallowed Ground National 
Heritage Area. The Department does not support enactment of this bill 
at this time.
    Before a national heritage area is designated by Congress, a 
comprehensive feasibility study should be completed that evaluates an 
area using criteria developed by the Department and Congress. Although 
the study undertaken by the Journey Though Hallowed Ground Partnership 
is a good beginning step in looking at the resources in the region, it 
does not fully address the required criteria for designation of 
national heritage areas. We believe the bill should not be enacted 
until an adequate feasibility study is completed that yields the 
necessary information to demonstrate that the proposed national 
heritage area meets the criteria for designation. We also believe that 
individual bills proposing to designate new national heritage areas 
should be deferred until program legislation is enacted by Congress.
    The proposed Journey Through Hallowed Ground National Heritage Area 
would span a region of approximately 175 miles along Route 15 and part 
of Route 20, from Gettysburg, Pennsylvania through Maryland and West 
Virginia to Charlottesville, Virginia. The region is rich in historic 
and natural resources including the homes of Presidents Thomas 
Jefferson, James Madison, James Monroe, and Dwight David Eisenhower, 
and includes significant Revolutionary and Civil War sites. 
Revolutionary War sites include Willow Grove, the temporary 
headquarters of Generals Wayne and Muhlenberg, Point of Fork Arsenal, 
Castle Hill, home of colonial leader Dr. Thomas Walker, and the Hessian 
Barracks, used as a prison for British soldiers. Civil War sites 
include the battlefields of Gettysburg, Monocacy, Antietam, Brandy 
Station, and Manassas, among others. The region is also crossed by 
numerous historic trails and byways relating to the Civil War and other 
scenic resources. All told, there are an estimated 7,000 buildings in 
the area listed on the National Register of Historic Places, 13 
National Historic Landmarks, and 2 World Heritage Sites.
    S. 2645 would establish the Journey Through Hallowed Ground 
National Heritage Area and designate the Journey Through Hallowed 
Ground Partnership (Partnership) as the local management entity. The 
Partnership is a nonprofit corporation that has conducted a significant 
number of public meetings, an important requirement for evaluating 
local support for the designation of a national heritage area. The bill 
prescribes the duties of the management entity, provides for the 
Secretary and the Partnership to enter into a compact, requires the 
development of a management plan by the Partnership to be approved by 
the Secretary, and includes a 15-year authorization for up to $1 
million dollars per year not to exceed a total of $10 million.
    Both Congress and the Department have long agreed that a national 
heritage area designation should be predicated on the completion of a 
feasibility study that adequately addresses criteria to determine that 
a proposed national heritage area will enjoy not only public support, 
but other equally important factors that are necessary for the future 
success of the area, such as the financial capability to carry out the 
management plan.
    The Department has had the opportunity to review a feasibility 
study undertaken by the Partnership. We find that the study, while a 
good first step, fails to address many of the criteria and does not 
permit an informed decision regarding the feasibility of designating 
this proposed national heritage area. The report does not adequately 
address proposed heritage area themes, does not contain any information 
regarding integrity of resources, nor does it provide an in-depth 
analysis of management alternatives for the region's resources. The 
study does not provide any information regarding financial planning and 
capability, potential sources of matching funds, or specific local 
commitments to ensure the viability of the programs and activities 
normally associated with heritage areas. Of concern, too, is the 
absence of any defined boundary within which federal funding would be 
targeted.
    In addition, the Department has several concerns with some of the 
language contained in S. 2645. First, section 4 of the bill calls for 
the Secretary and the Partnership to enter into a compact to delineate 
the boundaries of the heritage area, discuss heritage area goals and 
objectives, and explain the proposed approach to conservation and 
interpretation. Although compacts were found in many of the older 
national heritage areas designated, over the past 10 years they have 
been replaced by a requirement to complete a feasibility study that 
includes this information. We strongly believe that these tasks are key 
components of a feasibility study and must precede designation.
    Second, we note that section 5(a)(2)(D) provides that funds 
authorized under the legislation to the management entity may be used 
to acquire lands and interests in land, while section 5(e) prohibits 
the use of such funds for acquisition of real property or any interest 
therein. We recommend that section 5(a)(2)(D) be removed from the bill, 
since it is inconsistent with past heritage area statutes, which 
prohibit the use of federal funds authorized for heritage areas to be 
used for land acquisition.
    The Department has consistently taken the position that proposed 
national heritage areas follow the proven path of those achieving 
designation in recent years. A recent National Park System Advisory 
Board report Charting a Future for National Heritage Areas recognized 
the important role of national heritage areas in expanding conservation 
stewardship and in identifying and preserving significant historic 
resources. The report also recognized that national heritage areas need 
a legislative foundation that sets specific criteria for designation 
demonstrated by the completion of an adequate feasibility study. The 
national heritage area program legislation (S. 243) that passed the 
Senate last year and is supported by the Department outlined the steps 
followed for success as a national heritage area. That path is always 
charted by the completion of a comprehensive feasibility study that 
provides the Department and Congress with an evaluation of the 
financial, programmatic, and tangible community support and commitment 
capabilities of the local management entity. Without information 
regarding those key ingredients, we are unable to support this bill. We 
are, however, fully prepared to provide advice to the Partnership to 
assist it in completing a national heritage area feasibility study that 
meets our professional standards and provides Congress with the 
necessary information and assessment upon which to base its decision 
regarding designation in the future.
    Mr. Chairman, that concludes my testimony and I am prepared to 
answer any questions that you or other members of the committee might 
have at this time.

    Senator Thomas. Thank you very much. Since you gentlemen 
have bills here of particular interests, if you have questions, 
you can go first, and if we could make it rather short, I'd 
appreciate it.
    Senator Allen : Thank you, Mr. Chairman. Mr. Murphy, you 
have an enviable job, I admire the fact that you have to come 
here and testify against every single bill on the docket. 
That's okay. It's getting closer than, of course, the last one. 
I think the one in Colorado will pass the most muster, but ours 
seem to do alright.
    I actually appreciate the work you're doing. It's not an 
easy job that you have, you have to stick to standards and 
principles, and I think that some of the recommendations that 
you have made in the scrutiny of our legislation are very good. 
There may be some inconsistencies, and I appreciate that. 
Everything can be improved, that's been the nature of our 
country and certainly with legislation here.
    I'm also pleased to hear that you recognize the important 
work that's been done by the private sector, this partnership, 
because not every one of these studies needs to be a 
congressional study, we ought to encourage, I think, as a 
government, the private sector to take initiative on their own, 
rather than waiting around for the Government or Congress to 
command agencies to do the work. I'm also encouraged to hear 
that you are working with Cate Magennus Wyatt and others 
involved in this effort.
    Do you, in your opinion, and I do want to make this quite 
clear, I don't want to have a bill bypassing something that 
would not meet the criteria. But, in your opinion, your 
professional opinion, if amendments are made, which are 
reasonable, others and certain things better defined, do you 
believe that this area would qualify for a national heritage 
area?
    Mr. Murphy. Yes. I did take the time to read all of the 
material and the documentation in as much of the report as I 
could for this meeting, and in my, you know, professional 
judgment, and based upon other heritage areas that I've seen, 
it certainly would qualify once it's gone through the proper 
processes and we've seen a feasibility study that meets the 
criteria. But on the face of it, on the surface, with, of 
course, not having the benefit of having it completed, a 
completed feasibility study, it certainly appears that it does.
    Senator Allen. Now, would you contemplate that this could 
be resolved say, in a matter of months, or would you think some 
of the criteria that need to be met are going to take a longer 
period of time to satisfy the criteria of your service?
    Mr. Murphy. A lot of the timing, you know, depends upon not 
only the kind of criteria that still has to be met, it's also 
getting a consultant on board, and when they can start work and 
that sort of thing. Some of those variables we don't have 
control over, of course. But we will be meeting subsequent to 
this hearing with the sponsors, and with Cate, to determine 
exactly what the timing will be. I don't expect that it'll be 
more within months. I certainly don't expect it to take longer 
than that.
    Senator Allen. Thank you, Mr. Murphy, and I thank you for 
your service, your diligence, adherence to the law and also 
willingness to work with all of us to achieve this goal, and I 
thank you, Mr. Chairman.
    Senator Thomas. Mr. Salazar.
    Senator Salazar. Thank you, Mr. Chairman.
    This doesn't happen to me very often, here in the U.S. 
Senate, Mr. Chairman, but there is a wonderful Republican in 
the audience who's a county commissioner in my native county of 
the San Luis Valley, who's family and my family have shared the 
same water and the same water rights out of a ditch that has an 
appropriation date of May 15, 1857. His name is Commissioner 
Bagwell and his family and my family go back for several 
generations, and I would just like to point out that he is in 
Washington today testifying on behalf of this bill.
    Senator Thomas. Welcome. He's a Republican you say?
    Senator Salazar. We have some wonderful Republicans in the 
valley.
    Senator Thomas. You're welcome. Glad to have you here.
    Mr. Bagwell. Same water; we've known each other after all 
these years enough to give each other diseases.
    Senator Thomas. We ought to have more of that here in 
Washington.
    Senator Salazar. And just a comment, Mr. Murphy, and that 
is I very much appreciate the Park Service and your description 
of the proposal of the Sangre de Cristo Heritage Area. And I 
appreciate the fact that you have found the proposal to be 
superior and that it does, in fact, meet the criteria that you 
have for the designation for these areas. Sir, it is my hope 
that we will work to make sure that the proposal does in fact, 
match-up the requirements of S. 243 sponsored by Senator Thomas 
so that we can move forward with that designation national 
heritage area. I appreciate your testimony.
    Senator Thomas. Thank you, I have some questions. I almost 
left myself out here. Very briefly, because we want to get on 
with our other folks, but since designating these, I think it 
was in 1985, how many have evolved to the point where they no 
longer need Federal funds to operate?
    Mr. Murphy. Well, only one national heritage area, the 
Illinois and Michigan Canal Corridor, has passed its 
authorization for Federal funding. It is now managed by a local 
non-profit organization. However, a bill has been submitted to 
authorize additional funding for this area, It's H.R. 938 and 
it has passed the House and a similar bill which is S. 203 has 
passed the Senate during the 109th Congress. In addition, the 
caush la puldra River Corridor's Authority to receive Federal 
funding has expired even though they have not reached their 
authorization ceiling. So that's the current status but none 
has really gotten to the----
    Senator Thomas. How many are there? How many heritage 
areas, do you remember offhand?
    Mr. Murphy. There are 27.
    Senator Thomas. Twenty-seven?
    Mr. Murphy. Twenty-seven.
    Senator Thomas. Okay. And I don't want anyone to 
misunderstand, all of us are for heritage areas, but they were 
not designed to be a part of the Park Service, to be sustained 
and managed and funded by it. The Park Service helps them get 
initiated until they became self-sustaining and that's what 
we're kind of talking about. Was it originally the notion that 
they would be perpetually funded do you believe?
    Mr. Murphy. Well, in the mid 1980's, when they were forced 
to establish, the National Parks really had no model to look at 
for their management so to kind of give a comprehensive answer 
to Illinois, Michigan, the Blackstone River Valley and the 
Delaware, Lehigh, canal corridor were all authorized for only a 
5-year period with legislative provisions for 5-year 
extensions. As a 10 year exploration neared, the National Park 
Service then recognized that more time was needed to complete 
the management plans of the corridors and supported an 
additional 10-year reauthorization. But more recently, the 
national heritage areas were authorized using a standard 
funding framework, as you know, from the $10 million for 15 
years. So the answer is, you know, is really no, we really 
didn't anticipate that these would go on forever, and the 
National Park Service would support that in perpetuity.
    Senator Thomas. You mentioned the Blackstone River areas, I 
understand there's 14 or 15 Federal employees there now. How 
many positions are funded by the Park Service?
    Mr. Murphy. All 14 are funded by the National Park Service. 
That was what the original authorization was for that area was 
for. So when that particular heritage area was authorized, it 
authorized the National Park Service to manage that in the 14 
positions authorized.
    Senator Thomas. Appears to be funded and managed pretty 
much by the Park Service. Do you think it can become a unit of 
the Park Service?
    Mr. Murphy. Well, as I said in my testimony I think there 
may be areas that are within the heritage area that could 
qualify for designation as national parks, but that would come 
out as a result of the feasibility study.
    Senator Thomas. I understand. Well, I thank you very much 
and I appreciate your work, and as I said I don't want anyone 
to think for a moment that we don't all think national heritage 
areas are not very important and they are. But they are 
basically to be developed and operated more locally so one 
would hope that might be the case.
    Well, thank you, sir.
    Mr. Murphy. Thank you, Mr. Chairman.
    Senator Thomas. We'll ask the other folks to come forward, 
please, for our second panel.
    On the second panel we have Dr. Michael Sullivan, director 
of the Rhode Island Department of Environment Management, Ms. 
Ann Marie Velasquez, chairman of the Sangre de Cristo National 
Heritage Area in Colorado: and Cate Wyatt, president of Journey 
Through Hallowed Grounds, in Virginia; Mr. Dan Rice, president 
and chief executive officer of the Ohio & Erie Area Canalway 
Coalition, and Charlene Cutler executive director, and chief 
executive officer of the Quinebaug-Shetucket area in 
Connecticut.
    Why don't we take them in the order that they were called 
on. So Dr. Sullivan, if would you begin, sir? By the way, if 
you could hold your statements down to the 5 minutes, and, if 
you have further things, they will be put in the record with 
your statement.

 STATEMENT OF DR. W. MICHAEL SULLIVAN, DIRECTOR, RHODE ISLAND 
             DEPARTMENT OF ENVIRONMENTAL MANAGEMENT

    Dr. Sullivan. Thank you, Mr. Chairman and members. It's a 
pleasure and honor to be here and offer not only my support but 
the support of Donald Carcieri, Governor of the State of Rhode 
Island. The bill would reauthorize the John H. Chafee 
Blackstone River Valley National Heritage Corridor Commission 
for an additional 10 years, but also authorizes, as you know, 
the appropriations of operationally development funding for the 
corridor and for a special resource for the study to examine 
the potential long term responsibilities of the service, and 
the preservation, interpretation and immigration so that the 
commission can ultimately, I think, achieve what the chair has 
referred to.
    While, we would respectively disagree with the Service's 
recommendations to change the legislation, the Blackstone is 
the only heritage area to have been evaluated against and fully 
meet the same criteria for national significance that the Park 
Service now applies to units of the Park System.
    The Blackstone is widely recognized as the birthplace of 
the American Industrial Revolution. This is where Samuel Slater 
in 1793 harnessed the river and caused it to become known as 
the hardest working river in America. It changed the human 
ecology and the natural ecology of the region bringing 
thousands of people from farms; brought two segments of my 
family to the region, and has created a living legacy for all 
of us. This 46-mile river, which starts in western 
Massachusetts and comes all the way to Providence, fed the 
world and had impact on the world. The valley became a model 
for the industrialization of New England, and beyond. It shaped 
the history of the American free enterprise, labor, 
immigration, and environment. It has worked hard, and it 
deserves the recognition.
    There is no better place, Mr. Chairman, to learn about this 
critical part of American history, than the Blackstone River 
Valley in Massachusetts and Rhode Island.
    The commission and the Park Service has been doing an 
exemplary job in forming and working through dozens of 
partnerships that tell thousands of visitors and valley 
residents the history. They have helped the people of a once-
vibrant region, achieve once again a sense of place and a sense 
of pride in the past, and have taught thousands of other 
Americans and visitors about this region. Historic mills and 
mill worker's houses have been rehabilitated and preserved. The 
natural landscape has been preserved. My department has had 
significant and extensive involvement in farms, fields, and 
once polluted areas are becoming recreational assets again. 
Migratory fish are returning to the basins and dams that 
retarded flow to drive this engine.
    Against this background, the environmental education, the 
heritage, and tourism programs are flourishing. All 24 cities 
and towns of two States have endorsed this program and have 
been designated by the White House as Preserve America 
communities.
    We are grateful for the significant Federal contribution to 
this success story. And let me suggest, the partners have been 
working hard since 1986 and the Federal investment has been 
matched 22 times over, to the extent of well over $500 million 
to date.
    The corridor has partnered with 75 different organizations 
and an array of individuals to accomplish 365 different 
projects, and the great work of the commission along with the 
Park Service has been more than matched by the growing legions 
of volunteers. In this past year alone, there were in excess of 
30,000 hours donated to the commission. We think the Blackstone 
has been a leader and a model for national heritage areas. It 
is important, I think, to underscore that a unique aggregation 
of mostly significant historical and natural resources being 
preserved in this region.
    Mr. Chairman, so successful have been these efforts, and 
the commission's activities have been endorsed, again, by both 
Governor Carcieri and by 24 different municipalities and 
thousands of individuals.
    I have with us today, and we will leave them with you for 
the record, you know, voluminous documents from citizens, from 
communities and others showing the high regard for the 
commission and its work.
    An obvious question is, why would this record of progress 
in 20 years of commitment, should we have another 10 year 
authorization of the commission? Well, first, is the 
commission. And the first reason I would offer for this is the 
work is not yet done. If the commission were to cease to exist 
and disappear, there's no existing management entity across 
these two States in 24 regions that would serve so well in 
motivating all the communities. The sustainability of this 
noble experiment, I feel, would come at an end at a critical 
time where the natural resources are truly beginning to move 
and continue to eco-develop.
    And the second reason goes to the heart of the mission, 
that John H. Chafee defined here. His vision set ambitious 
goals for the corridor. I had the good fortune of being on the 
river on several occasions with him. Few appreciated the 
magnitude of the challenges, but I think he did. In retrospect, 
it should not be surprising that it's taken just 20 years to 
undo much of what took 200 years to achieve.
    The agenda for the next decade is detailed in the 
management plan called for in this bill defines, what I would 
call, legacy tasks. The first of these would be to develop 
the----
    Senator Thomas. Can you wind up, please sir, we're going to 
have to move along.
    Dr. Sullivan. Yes, yes. The fourth of the major tourism 
areas, the second would be the completion of the Blackstone 
Valley Bikeway. In the fourth, really, is the major clean-up, 
the river. Governor Carcieri will talk about this being 
fishable, swimmable and playable in 2015.
    This special resource study is also going to provide and 
meet all of the actions of S. 243, and I would submit that. It 
would meet all the goals, and it would empower you with 
information you need. That concludes my testimony and when 
appropriate, Mr. Chairman, I'd be happy to entertain any 
questions.
    [The prepared statement of Dr. Sullivan follows:]
 Prepared Statement of Dr. W. Michael Sullivan, Director, Rhode Island 
                 Department of Environmental Management
    Mr. Chairman, thank you for the opportunity to appear before this 
committee to offer my strong support for S. 1387. This bill would 
reauthorize the John H. Chafee Blackstone River Valley National 
Heritage Corridor Commission for an additional ten years.
    It would also authorize appropriations of operational and 
development funding for the Corridor, and enable us to carry out a 
Special Resource Study to examine the potential of long-term 
responsibilities by NPS in the preservation, interpretation and 
integration of some of the Blackstone Valley's nationally significant 
resources, such as the Slater Mill Historic Site.
    Blackstone is the only heritage area to have been evaluated against 
and fully meet the same criteria for national significance that the NPS 
applies to units of the National Park System.
    Blackstone is widely recognized as the Birthplace of the American 
Industrial Revolution. It was in the Blackstone Valley for the first 
time in America that the power of water was successfully harnessed for 
the industrial production of cotton yarn by Samuel Slater in 1793. Soon 
the Blackstone became known as the ``hardest working river'' on the 
continent. Dozens of mill villages sprouted along its banks, drawing 
thousands of workers from the surrounding New England countryside, 
Canada, and soon from distant lands as well. This 46-mile river, and 
the Blackstone Canal which paralleled it, connected Worcester, MA to 
Providence, RI, carrying agricultural produce, raw materials, and 
finished goods to the world. The Blackstone Valley became the model for 
the industrialization of New England and beyond. Its influence shaped 
the history of American free enterprise, labor, immigration and 
ethnicity, and management of the environment. It has worked hard and 
created a connectedness and linkage for the region.
    Mr. Chairman, there is no better place to learn about this critical 
part of America's history than the Blackstone River Valley of 
Massachusetts and Rhode Island. And for nearly twenty years the 
Blackstone Corridor Commission and the National Park Service have been 
doing an exemplary job, working through dozens of partnerships to tell 
thousands of visitors and valley residents about that history. They 
have helped the people of a once-vibrant region that sunk into 
depression regain their self-confidence and a sense of pride in their 
past. The rapid decline allowed things to be somewhat frozen in time. 
Historic mills and mill workers' houses have been preserved and 
rehabilitated for new residences and businesses. Farmscapes, wetlands, 
forest habitat and open spaces have been protected or restored. 
Brownfields and once-polluted waterways are becoming recreational 
assets. Migratory fish are again finding their way upstream to their 
ancient spawning areas. Against this background, environmental 
education and heritage tourism programs are flourishing. Uniquely among 
heritage areas, all 24 cities and towns in the Blackstone Corridor have 
been designated by the White House as Preserve America communities.
    While we are grateful for the significant federal contribution to 
this success story, Mr. Chairman, let me suggest that Blackstone's 
partners have more than done their job as well. Since 1986, the federal 
investment has been matched some 22 times over by state, local, and 
private dollars--well over $500 million to date. The Corridor has 
partnered with more than 75 governmental agencies, not-for-profits, 
chambers of commerce, volunteer organizations, and individuals to 
accomplish some 365 projects within the Corridor. And the great work of 
the Corridor Commission's staff of NPS professionals has been more than 
matched by growing legions of volunteers. In 2005 alone, these 
volunteers contributed over 30,000 hours to Corridor projects and 
programs! No wonder the NPS has long considered Blackstone to be the 
leader and model for national heritage areas nationwide.
    It is important to underscore, too, that a unique aggregation of 
nationally significant historical and natural resources are being 
preserved and interpreted for the benefit of the American people 
without the costs of federal ownership and direct management, and 
without threats to private property rights or state and local 
regulatory powers.
    Mr. Chairman, so successful have the corridor commission's 
activities been that its reauthorization is enthusiastically endorsed 
by the governors of its two states, the governing bodies of all 24 of 
its cities and towns, and by hundreds of its citizens. I offer for the 
committee's review this volumeous documents containing resolutions and 
letters of support testifying to the high regard in which the 
commission and NPS are held by Valley residents.
    I want now to address the obvious question: Why, with this record 
of progress and achievement for nearly twenty years--why should 
Congress reauthorize the commission for another ten years? Mr. 
Chairman, there are two reasons why this should happen. First, the 
commission has served as an extremely effective management entity for a 
region composed of twenty-four cities and towns in two states. Though 
there may be other management models, I do not believe any could have 
served so well to create an effective forum for bringing so many 
disparate entities together around a shared agenda.
    Were the commission cease to exist and disappear in November, there 
is no existing management entity in the Valley, across the States, and 
municipalities with the stature, breadth, and depth to take its place. 
The sustainability of this noble experiment would thus be seriously 
threatened without the continuation of the federal role in this 
partnership.
    The second reason for extending the commission goes to the heart of 
the Corridor's mission, and our commitment to realize the vision of its 
namesake and founding father, the late Senator John H. Chafee.
    That vision set ambitious goals for the Corridor. As we come to the 
end of our second ten-year management plan, we must conclude that, 
despite enormous successes, we have not finished the job.
    Few appreciated the magnitude of the challenges faced when the 
commission started its work in 1988. Yet in retrospect it should not be 
surprising that it has taken only two decades to significantly reverse 
two hundred years of attitudes and activities that lead to the 
ecological degradation and a half century of economic decline.
    An action agenda for the next decade will be defined in detail in 
the management plan called for in this bill. But we can clearly see at 
least three major ``legacy'' tasks ahead of us:
    The first of these tasks is in the area of heritage education and 
tourism development. With federal seed money and technical assistance, 
the commission's partners have built and now operate three of four 
planned ``gateway'' visitor centers to the Blackstone Valley, but we 
must see the last and most ambitious of these completed: the Northern 
Gateway Visitor Center in Worcester. In this project the commission has 
played and must continue to play the critical role of conceptual 
planner, convenor, and negotiator to assure coordination among multiple 
federal, state, local, and non-profit partners.
    The second major task is the completion of the 46-mile Blackstone 
Bikeway, perhaps the most significant joint recreational amenity in the 
states of Massachusetts and Rhode Island. The Rhode Island segment in 
nearing completion. Much has been done, but the magnitude of this 
project will require a continued federal-state partnership effort for 
the better part of the next decade.
    The third major task is to complete the cleanup of the Blackstone 
River and protect its watershed. The commission and its partners have 
launched the ``Fishable-Swimmable Blackstone by 2015'' campaign. 
Governor Carcareri and I will continue to speak about FISHABLE, 
SWIMABLE, PLAYABLE and SUSTAINABLE. . . . Narragansett Bay but as the 
names suggests, no one is underestimating the scope and scale of the 
challenge we face.
    Mr. Chairman, I would like to add a special word in support of this 
bill's provision for a Special Resource Study. No other heritage area 
has enjoyed the benefits of such an extensive relationship with NPS as 
has the Blackstone. From the start, NPS has provided critical staff to 
the commission. The commission's Executive Director also serves as 
Superintendent of Roger Williams National Memorial, an NPS unit in 
Providence. NPS rangers have led interpretive programs and trained 
volunteers and docents throughout the Corridor. They have been the 
seeding agent of interest by local communities. The Special Resource 
Study would examine this unique relationship and permit the Secretary 
of the Interior to make recommendation to Congress about the future 
role NPS might play in preserving and interpreting Corridor resources.
    I do not come before this committee without having done our 
homework. Prior to seeking reauthorization, the commission asked the 
NPS's Conservation Study Institute to conduct an independent evaluation 
of the commission's record and look at options for sustaining the 
Corridor's future. Such a study would be required by the national 
heritage area program legislation, S. 243, that passed the Senate last 
year. It is also called for by the National Park System Advisory Board 
in its recently adopted report entitled Charting a Future for National 
Heritage Areas. I are proud to say that Blackstone is the first 
heritage area to follow this process. I would like to submit for the 
committee's review copies of the Blackstone study, entitled Reflecting 
on the Past, Looking to the Future. I believe that S. 1387, if enacted, 
would secure that future for the Blackstone Valley and its people.
    Mr. Chairman, that concludes my testimony, and I am prepared to 
answer any questions that you or other members of the committee may 
have at this time.

    Senator Thomas. All right. Thank you very much.
    Ms. Velasquez.

  STATEMENT OF ANN MARIE VELASQUEZ, SANGRE DE CRISTO NATIONAL 
                         HERITAGE AREA

    Ms. Velasquez. Mr. Chairman and members of the committee, 
I'm Ann Marie Velasquez, and I'm here to testify in support of 
the Sangre de Cristo National Heritage Area. I am the chairman 
for the emerging board of directors and management entity named 
in S. 2037. I'd like to thank you for asking me to testify at 
this hearing. The bill to designate the Sangre de Cristo 
National Heritage Area is of high importance to this three-
county region that lies within the great San Luis Valley of 
Colorado.
    This is evidenced by the number of people who have traveled 
with me to Washington just to be present at this hearing. The 
emphasis that I'd like to place on my testimony today, is that 
of local and regional support for designation of the area as a 
national heritage area.
    Since the beginning, we have sought the support of the 
residents, organizations, and governments, starting with a 
public meeting in each county in 2002 for the process of 
building a steering committee. Today's several of the original 
steering committee members are still actively involved and have 
traveled to Washington to be present at this hearing. The 
steering committee has been responsible for most of the work 
that has been done so far on the national heritage area 
designation effort, and in the creation of the feasibility 
study.
    For the past 5\1/2\ years, we and others, have had numerous 
public meetings and have encouraged individuals to become 
involved on the committee or in other ways.
    Individuals from our committee have presented at various 
meetings and of other non-profits, special interest groups, 
civic groups, local governments and tourism boards. Resolutions 
have been received supporting the national heritage area from 
the counties and communities lying within the proposed region. 
Numerous letters of support have been obtained from businesses, 
nonprofit organizations, regional economic development entities 
and individuals.
    Our State Senator and State Representative have also shown 
their support for the project throughout our efforts. The 
greatest contributions that have impacted our goal of 
designation have been the overwhelming personal work effort of 
professional volunteers.
    As I mentioned, countless hours of research have been 
contributed. That research had its roots in a collaborative 
scholarly symposium that our steering committee presented in 
November 2002.
    Partnerships with Adam's State College and others were 
formed to present the full day of multi-venue symposium on 
history, heritage, culture and natural resources that make up 
the proposed region. Over 30 percent is donated to research to 
the national heritage area effort. The final feasibility study 
was researched and authored almost entirely by local 
historians, authors, scholars, business people and residents of 
the proposed region.
    This once again shows the overwhelming support for this 
designation from multitude of people within the valley and 
around the State of Colorado.
    Within the planning process, friendships with our local 
public land agencies and organizations have been our main 
focus. And a close working relationship has been established 
with the Nation's newest national park, the Great Sands 
National Park and Preserve.
    The recognition of the Sangre de Cristo National Heritage 
Area's three-county region as an important component in 
America's history is long overdue.
    From the cultural treasure chest of living history to the 
abundance of unique natural resources and recreational 
experiences, this region sits is a diamond among gems.
    In conclusion, the Sangre de Cristo National Heritage Area 
is worthy of national designation. This may be one of the few 
remaining places in our great country with the integrity worthy 
of national acclaim. But the forces of change which diminish 
these qualities in other parts of Colorado and the Nation are 
quickly--are rapidly approaching here as well.
    I urge you to act quickly to stem the flow of irreparable 
change and enact legislation establishing the Sangre de Cristo 
National Heritage Area. Thank you, and I would entertain any 
questions that you may have.
    [The prepared statement of Ms. Velasquez follows:]
      Prepared Statement of Ann Marie Velasquez, Sangre de Cristo 
                         National Heritage Area
    Mr. Chairman and members of the Committee, I am Ann Marie Velasquez 
and I am testifying in support of the Sangre de Cristo National 
Heritage Area (SDCNHA). I am interim Chairman for the emerging Board of 
Directors of the proposed National Heritage Area, the management entity 
named in bill S. 2037. I am also the Executive Director for Los Caminos 
Antiguos Scenic and Historic Byway, Secretary/Treasurer for the Conejos 
County Tourism Board and former Secretary/Treasurer of the Sangre de 
Cristo National Heritage Area Steering Committee. I hold advisory 
committee positions at the State level for several heritage tourism 
projects including the Colorado Tourism Office's Heritage Tourism 
Strategic Plan.
    I'd like to thank you for asking me to testify at this hearing. The 
bill to designate the Sangre de Cristo National Heritage Area is one of 
high importance to the three county region which lies within the great 
San Luis Valley of Colorado. This is evidenced by the number of people 
who have traveled with me to Washington just to be present for this 
hearing.
    The San Luis Valley is located in the south-central region of the 
State of Colorado surrounded by the Sangre de Cristo Range and northern 
Culebra Range of the Rocky Mountains to the East and the San Juan 
Range, which forms the Continental Divide, to the West. At 122 miles 
long and 74 miles wide, the San Luis Valley is Colorado's largest 
mountain park and has been labeled ``the highest, largest, mountain 
desert in North America''. The proposed designation area is comprised 
of Costilla, Conejos and Alamosa counties in addition to the Great Sand 
Dunes National Park and Preserve, Baca National Wildlife Refuge and 
Monte Vista National Wildlife Refuge; all lying within the southeastern 
part of the San Luis Valley.
    With 11,000 years of documented human habitation, the Sangre de 
Cristo National Heritage Area is a crossroads of the centuries. Here a 
unique blend of Native American, Hispano and Anglo settlement is 
reflected in the diversity of the people, art and traditions. The 
geographic isolation of the alpine valley and the people's enduring tie 
to the land have given rise to a rich cultural heritage and ensured its 
preservation. The area's fertile cultural landscape is complemented by 
remarkable natural resources, including the mighty Rio Grande, majestic 
Rocky Mountain peaks, Great Sand Dunes National Park, National Wildlife 
Refuges, and the high mountain desert, all of which lend the Sangre de 
Cristo National Area an unparalleled beauty that offers a sense of 
retreat and a powerful source of inspiration for visitors.
    For a century and a half the region has cultivated a rich heritage 
that is a living testament to the generations gone before us. Everyday 
life is endowed with traditions, both conscious and subconscious, that 
have been passed from father to son, mother to daughter and neighbor to 
neighbor. New neighbors learn traditional ways and over time, find 
themselves embracing these traditions either out of need or out of 
respect. This is a land that is essentially true to its roots.
    The history of the proposed area is marked by the dynamic encounter 
of three major cultures during a time when the nation's boundaries and 
flags were in a state of constant change. First Nations, or Native 
Americans, Indo-Hispanos and Anglo-European vied for the land. They 
held divergent views of the land and its resources. The Utes, who claim 
11,000 years of ancestry and occupation, like other First Nations had a 
unique and spiritual relationship with the land. They could never think 
in terms of owning it. That would have gone against all that they 
believed. The land was a friend, a provider, and a partner to all of 
nature. It fed and sheltered. It cared for the people and gave them 
everything they ever needed.
    Hispanos claimed territory for the motherland and God. Theirs was a 
communal self-sustaining system, which required the cooperation of 
everyone. Villages were born with extended families, building adobe: 
structures which were connected and surrounding a town square called a 
plaza. Farming and ranching depended on the acequia system of 
irrigation which functions well only when everyone is a participant. 
Land ownership was for the good of the family, the community and the 
Church.
    When Anglo/Europeans began to populate the land, they brought with 
them a system of deeds, surveys, titles, taxation and barbed wire to 
delineate and define. Mining, building railroads and big ranching were 
the goals. For the Anglo/Europeans, the land was not so much perceived 
as a place of sustenance, but seen more as a source of resources to be 
used and extracted.
    The U.S. military presence came in 1852 just one year after the 
first Hispano settlement in the region. Fort Massachusetts, built then, 
proved to be inadequate so the army replaced it with Fort Garland in 
1858. Fort Garland remained as a fort for 25 years. Its mission was to 
protect settlers against hostile Indians. Hostilities were present 
among the three groups, but major battles never occurred.
    The distinguishing elements that set this region apart from others 
are the multitude of natural resources and incredible recreational 
choices that integrate with the distinctive cultural landscape. Early 
settlers found precious water in abundance and fertile soil in which to 
raise crops and graze livestock. Vast forests provided wildlife for 
food, wood for lumber, plants for medicines and forage for livestock.
    The designation area contains habitats and wildlife that are 
characteristic of the San Luis Valley, yet unique to Colorado and the 
West. A natural marvel, the Great Sand Dunes National Park and 
Preserve, lies to the north end of the designation area. The dunes, the 
tallest in North America, developed as a result of winds blowing across 
the valley.
    Despite the title of ``desert'', the San Luis Valley boasts one of 
the West's most prized natural resources--WATER. Two separate aquifers 
underlie the valley and both contain large quantities of water. Water 
from mountain drainages and ground water moving toward the valley 
filtrates down and recharges the aquifer. The range of wetland types in 
the designation area, each with varying degrees of water permanence, 
supports a diversity of plant and animal species, some of which are 
very rare such as the slender spiderflower. The SDCNHA provides a 
comprehensive sampling of the valley's intricate system of wetlands 
that is fed by watershed runoff, creeks, ditches, ground water and 
artesian wells.
    The amount of federally protected land within the proposed National 
Heritage Area attests to the natural resources within the southern 
portion of the San Luis Valley. The State of Colorado and the Nature 
Conservancy also protect substantial land holdings in the proposed 
area. These protected lands include a National Park and Preserve, three 
National Wildlife Refuges, a National Forest, two National Wilderness 
Areas, a proposed National Natural Landmark (Rio Grande), Bureau of 
Land Management lands, 15 State Wildlife Areas, a State Park and the 
97,000 acre Nature Conservancy Medano-Zapata Ranch.
    Plant species, wildlife and birds are abundant throughout the 
SDCNHA. A number of plant communities and bird and animal species found 
in this area have been recognized by the Colorado Natural Heritage 
Program as globally significant. Rankings of these particular plants, 
birds and animals put them in the category of vulnerable to extinction. 
For this reason, protected lands serve as last bastions in preserving 
species.
    Other wildlife in the area boasts large populations such as deer, 
elk, Rocky Mountain sheep, and pronghorn. More common forbearers such 
as beaver are found throughout the region.
    Exceptional recreational opportunities abound in the Sangre de 
Cristo area. There are hundreds of square miles of public lands, 
thousands of acres of wildlife rich wetlands, marshes, and water bodies 
and two designated wildernesses that provide for highly diverse 
recreation experiences. While experiencing this unparalleled scenic 
beauty one can find solitude, absorb clean crisp air, gaze upon some of 
the clearest of night skies and bask in a climate that is dominated by 
sunlight.
    Nature based tourism includes recreational pursuits such as dune 
skiing, snowshoeing, snowmobiling, camping, biking, bird watching/
wildlife viewing, cross-country skiing, hiking, mountaineering, star 
gazing, fishing and hunting. Both the Sangre de Cristo Wilderness and 
the San Juan, Wilderness areas provide excellent recreation 
opportunities for visitors seeking more remote backcountry hiking, 
camping, and mountain and ice climbing experiences.
    The Rio Grande and the diversity of ecosystems and life zones and 
the intricate system of wetlands that span the area, make wildlife 
viewing phenomenal. The valley is situated on a major flyway and sees a 
large number of species as great waves of birds pass through on annual 
migration. With further enhanced partnerships and interpretive tourist 
information, several of these areas could be organized into wildlife 
driving tours. Bird watching guides and tours have the potential to 
increase visitor traffic tremendously throughout the area.
    Cultural based tourism can be experienced through the architecture, 
development patterns, art, food, lodging and cultural events. Los 
Caminos Antiguos, the Ancient Roads, is a 129 mile stretch of Colorado 
highway that links many of the key resources in the proposed SDCNHA. 
The Byway provides visitors with panoramic views, a strong sense of the 
past and opportunities to experience the rich culture and traditions of 
the local people. Along this route one can see and feel the 
authenticity of the cultural landscape. Visitors can experience 
numerous historic Hispano communities such as San Luis, the oldest town 
in Colorado, listed as a National Historic District, with its plaza, 
vega, adobe structures, mission churches, local artifacts, authentic 
restaurants, cultural museum and B&Bs. On the same trip, visitors can 
see historic Mormon villages that illustrate the tightly gridded 
streets and clustered homes of the early settlers and pass through the 
numerous railroad towns that sprung up during the late 1800s. One of 
the larger railroad towns is Antonito where the Cumbres and Toltec 
Scenic Railroad, listed on the National Register of Historic Places, is 
located. This historic railroad has vintage steam-powered locomotives 
and wooden passenger cars that wind through spectacular scenery as it 
travels through the San Juan Mountains on route to Chama, New Mexico. 
Fort Garland, the once stronghold of protection for the settlers of the 
region, is now a fine museum offering interpretation of everyday life. 
Its one time commander, Kit Carson, and the regiment of buffalo 
soldiers who served at the fort are highlighted with interpretation, 
artifacts and special displays. Reenactment camps and living history 
events bring bygone times back to life. Many more recreation 
opportunities exist but are far too many for this testimony to list.
    Isolation within these valley walls has been the impetus that has 
kept the culture intact and the natural resources from being completely 
exploited. An archaic dialect of 17th Century Spanish is still spoken 
by about 35% of the population, showing remnants of centuries past.
    In this high mountain valley, isolation has worked to our advantage 
and to our disadvantage. Although our heritage and culture have been 
well preserved, the population has remained relatively low. The exodus 
of our youth to more prosperous areas has left its mark on the ability 
of families to keep generations-held land. Our financial resources and 
tax base has not kept pace with urban areas or even with other rural 
communities. The counties of Conejos and Costilla are two of the 
poorest in the country. The struggling economies of these counties, as 
well as their sister county, Alamosa, are in desperate need of economic 
enhancement. Unemployment averages within these counties is high and 
per capita income, when compared to the Colorado State average, is low 
at 45-65%. As we search for ways to sustain our agrarian lifestyle, a 
National Heritage Area designation would compliment existing efforts of 
attracting heritage travelers through tourism. Heritage tourism and 
historic preservation are proven economic stimulators and a perfect fit 
for rural communities. Along with tourism, heritage education to 
include the traditional arts, language and local history would benefit 
tremendously from the national designation.
    I would like to include in this testimony the process of bringing 
this dream of National Heritage Area designation from beginning to 
present day and of the overwhelming support that exists for the 
designation.
    Los Caminos Antiguos Scenic and Historic Byway is one of the 24 
Colorado scenic byways and traverses three of the southernmost counties 
of the San Luis Valley and is a 501(c)(3) not for profit organization. 
During the research the Byway conducted while preparing interpretive 
material for publication, the board of directors realized that there 
was a significant, important, and integrated story within the region 
that had not been told, nor had it been celebrated. The Byway holds a 
stake in the cultural and historical preservation of the area. It's not 
unusual for a byway, either a State Scenic Byway or National Scenic 
Byway, to lie within a National Heritage Area.
    A consensus of the Board of Directors instructed byway planners to 
include the formation of a National Heritage Area in the Strategic Plan 
for the Byway. Beginning with three public meetings, one in each of 
Alamosa, Conejos and Costilla counties, the Byway assessed interest, 
attendance and the willingness of individuals to help move the project 
forward.
    Attendance and interest from these meetings encouraged us to 
organize interested parties to work on the designation. A volunteer 
steering committee was nominated and formed. Today, several of the 
original steering committee members from 2002 are still actively 
involved and have traveled to Washington to be present at this hearing. 
The steering committee has been responsible for the majority of the 
work that has been done thus far on the Heritage Area designation 
effort and in the creation of the feasibility study.
    From those first meetings, we've met regularly over the past five 
and a half years to plan, organize and take forward the concept. We've 
held several other public meetings and have encouraged individuals to 
become involved either on the committee or in other ways. Individuals 
from our committee have presented at various monthly and quarterly 
meetings of other non-profits, special interest groups, civic groups, 
local governments and tourism boards. We have met with the County 
Commissioners of all three counties periodically to update them on the 
progress of the designation process. Countless hours have been spent in 
research and building public support for the project.
    Resolutions supporting the National Heritage Area designation from 
all three Boards of County Commissioners have been received, as well as 
supportive resolutions from communities lying within the proposed 
region. Numerous letters of support have been obtained from local and 
regional governments, businesses, non-profit organizations, regional 
economic development entities and individuals. Our State Senator, Lewis 
Entz, and our State Representative, Rafael Gallegos have also shown 
their support for the project throughout our efforts and have given 
letters committing their support.
    Financially, Los Caminos Antiguos has supported the efforts, and 
through their non-profit status, individuals have been able to make 
cash contributions. The greatest contributions that have impacted our 
goal of designation have been the overwhelming personal work of our 
professional volunteers. As I mentioned, countless hours of research 
have been contributed. That research had its roots in a collaborative 
scholarly symposium that our steering committee presented in November 
of 2002. Partnerships with Adams State College, Trinidad State Junior 
College, Adams State College Title V Office, Jalisco Inc. (a private 
business) and Los Caminos Antiguos were formed to present the full day, 
multi-venue symposium on the history, heritage, culture and natural 
resources that make up the proposed region. Over 31 presenters donated 
their time, travel costs and research to the National Heritage Area 
effort. Scholarly papers were presented at the symposium and then given 
to the steering committee to be used in the authoring of the 
feasibility study. Cultural groups donated performances during the 
lunch that was provided with funding from our partners. People from the 
San Luis Valley and other regions of Colorado and the state of New 
Mexico came to hear the presentations that were made in lectures and on 
panels.
    The feasibility study was researched and authored almost entirely 
by local historians, authors, scholars, business people and residents 
of the proposed region. This once again shows the overwhelming support 
for this designation from a multitude of people within the valley and 
around the state of Colorado. A well known landscape architecture firm 
Shapins Associates, specializing in heritage planning and research, 
contributed significantly to the completion and production of the final 
study.
    Within the planning process, partnerships with our local public 
land agencies and organizations have been a main focus. Our partners 
include the Rio Grande National Forest, the Bureau of Land Management 
and the U.S. Fish and Wildlife Service through the three National 
Wildlife Refuges within the NHA boundaries. All of these agencies have 
been contributors to the research and writing of the feasibility study. 
A close working relationship has been established with the nation's 
newest National Park, the Great Sand Dunes. State agencies such as the 
Division of Wildlife and Colorado State Parks have all offered 
technical assistance along the way.
    Since the completion of the feasibility study, the group has sought 
to further Heritage Tourism by participating with other organizations 
to advance visitor readiness and increase the profile of the region. 
Preservation projects to protect some historic treasures include 
placing the original circa 1880s Antonito Train Depot on both the State 
and National Registers of Historic Places. Restoration work on the 
depot is being planned with a new coalition of partners and an 
interpretive center is under consideration.
    The recognition of the Sangre de Cristo National Heritage Area's 
three county region as an important component in America's history is 
long overdue. From the cultural treasure chest of living history to the 
abundance of unique natural resources and recreational experiences, 
this region sits as a diamond among gems.
    In conclusion, the Sangre de Cristo National Heritage Area is 
worthy of national designation and has met the criteria of the National 
Park Service. This may be one of the few remaining places in our great 
country with the integrity worthy of national acclaim, but the forces 
of change which diminished these qualities in other parts of Colorado 
and the nation are rapidly approaching here as well. I urge you to act 
quickly to stem the flow of irreparable change and enact legislation 
establishing the Sangre de Cristo National Heritage Area. Thank you for 
the opportunity to address the committee and I would be happy to answer 
any questions you may have.

    Senator Thomas. Thank you very much.
    Ms. Wyatt.

   STATEMENT OF CATE MAGENNIS WYATT, PRESIDENT, THE JOURNEY 
              THROUGH HALLOWED GROUND PARTNERSHIP

    Ms. Wyatt. Thank you very much, Mr. Chairman, Senator and 
with great appreciation to Senator Allen for his support of 
this very important legislation and his wonderful opening 
remarks. My name is Cate Megennis Wyatt, and I am president of 
The Journey Through Hallowed Ground Partnership, which is an 
initiative that began in 1996 and has worked over the last 10 
years closely with the National Park Service, building a very 
strong coalition of now over 150 partners.
    This region from Gettysburg, as so eloquently described by 
Senator Allen, following the old Carolina Road, down to 
Monticello, hold more American history than any other swath of 
land in the country. It has been described by renowned Yale 
University historian, Stephen Woodward, as--and I quote, ``This 
part of the country has soaked up more blood, sweat and tears 
of American history than any other part of the country. It has 
bred more founding fathers, it has inspired more hopes and 
ideals, and witnessed more triumphs, failures, victories, and 
lost causes than any other place in the country.''
    The history of the heritage sites is long, it is included 
in the written testimony, and it includes over a million acres 
of land already on the National Register of Historical Places. 
Fourteen National Historical Landmarks, eight presidential 
homes, but much, much more important than the bricks and the 
mortar, are the men and the women, who contributed through 
individual acts of leadership and combined acts of courage to 
create these United States.
    In June 1755, on the onset of the French and Indian War, 
Major General Edward Braddock led troops across this region of 
Virginia to attack a French Fort in what is now Cumberland, 
Maryland. Had those battles gone differently and had not those 
young soldiers gave their lives, we might very well be speaking 
French at the moment.
    Twenty years later a collection of British citizens by the 
names of Jefferson, Madison and Monroe, risked their lives and 
their livelihoods to wage war against their own sovereign 
nation, and now in retrospect, we recognize audaciously sought 
to create a grand dream called democracy.
    In 1859, it was John Brown who led his men across the very 
same region as he planned and executed his attack on Harper's 
Ferry in the name of Freedom for All.
    And a mere 80 years after the revolution, this very land 
absorbed more loss of blood, dreams and lives, with more Civil 
War battles were fought on it than any other region in the 
country. More lives were lost on this land than in the history 
of the country as young men laid everything they had on the 
line. And brave women like Clara Barton, administered as best 
they could. Among others who risked everything were the slaves 
who ran in hopes of finding freedom and the Quaker towns and 
abolitionists who honored and harbored them while they were on 
their way.
    I could go on and on, and if this sounds like a history 
lesson, it is, and it's a lesson we want to bring to every 
American and every visitor. We ask that you support this 
legislation as we intend to bring alive the history of our 
Nation, so that we may honor those who made it their home; 
others their grave, and by each deliberate contribution 
contributed towards creating these United States.
    We would offer that on the merits of history alone the 
national heritage area designation is appropriate, but on the 
merits of the strength of the partnership, it is equally on 
solid footing. This is an amazingly strong grassroots 
operation, as Senator Allen indicated, with over 150 partners. 
These partners have allowed us to raise over $1.7 million in 
private funds, which are already sustaining and supporting this 
initiative as well as the cost of the feasibility study, which 
we understand is of a different model perhaps than the National 
Park Service would prefer. We are thrilled with the partnership 
we have with the National Park Service the efforts that have 
already been undertaken in this cooperative effort to ensure 
that our feasibility study, indeed, is as good as it possibly 
can be.
    We have already hired our consultant to begin this work and 
have had two meetings and will be moving immediately following 
this testimony to our third meeting with the Park Service so we 
will ensure that we will make every effort to meet the criteria 
set by the Park Service to ensure that this legislation meets 
their standards.
    We also recognize as important as our heritage is so, too, 
is the constitutionally-protected private property rights, and 
S. 2645 is among the most stringent when it comes to protecting 
citizens' private property. We believe the Virginia hallowed 
ground is most qualified and worthy of national heritage area 
designation.
    Once again, Mr. Chairman, I thank you for the opportunity 
to testify, and we certainly welcome any questions you may 
have.
    [The prepared statement of Ms. Wyatt follows:]
   Prepared Statement of Cate Magennis Wyatt, President, The Journey 
                  Through Hallowed Ground Partnership
    Mr. Chairman, Ranking Member Akaka, and Members of the 
Subcommittee, my name is Cate Magennis Wyatt. I am the President of The 
Journey Through Hallowed Ground Partnership and I appreciate the 
invitation to present testimony on behalf of Senate Bill 2645, the 
``Journey Through Hallowed Ground National Heritage Area Act of 2006.'' 
I have served in government, as the Secretary of Commerce and Trade for 
the Commonwealth of Virginia, in the private sector as a developer and 
in the non-profit sector as a trustee on numerous Boards.
    The Journey Through Hallowed Ground Partnership is a 10 year old 
grassroots organization with over 150 Partners, which has worked with 
the National Park Service over this period to raise national awareness 
of, interpretive educational programs for, and civic engagement in, the 
unparalleled history within the region that generally follows the Old 
Carolina Road (Rt. 15/231) from Gettysburg, Pennsylvania through 
Frederick, Maryland, ending at Monticello in Albemarle County in 
Virginia. This area includes land in ten counties and four states.\1\
---------------------------------------------------------------------------
    \1\ Attachment A (retained in subcommittee files) is a map of the 
Heritage Area. This area includes: Adams County (PA); Frederick County 
(MD); Jefferson County (WV); Loudoun County (VA); Prince William County 
(VA); Fauquier County (VA); Culpeper County (VA); Orange County (VA); 
Madison County (VA); Louisa County (VA); Charlottesville/Albemarle 
County (VA) and Fluvanna County (VA).
---------------------------------------------------------------------------
                          i. senate bill 2645
    Senate Bill 2645 would establish the area within the proposed 
boundary as the Journey Through Hallowed Ground National Heritage Area 
(hereinafter, ``Heritage Area''). This region has been described by 
renowned Yale University historian C. Vann Woodard as follows:

          ``This part of the country has soaked up more of the blood, 
        sweat, and tears of American history than any other part of the 
        country. It has bred more founding fathers, inspired more 
        soaring hopes and ideals and witnessed more triumphs, failures, 
        victories, and lost causes than any other place in the 
        country.''

    And, by author and noted Revolutionary War authority Richard 
Ketchum, as:

          ``If any land in America deserves to be called Hallowed 
        Ground, it is this red clay soil on which so much of this 
        nation's past is preserved.''

    Inhabited hundreds of years ago by the Iroquois and Susquehanna 
Native Americans, this region was traveled by European trappers and 
frontiersmen who ventured to the wilderness to find a means to create a 
living. Young surveyor George Washington laid the plans for the town of 
Culpeper, never envisioning that it would later be engulfed by the 
largest Calvary battle of the Civil War, the battle of Brandy Station.
    In June 1755, the onset of the French and Indian War, Major General 
Edward Braddock led troops from Virginia across this region to attack 
the French fort in what is now Cumberland, Maryland. Had those battles 
gone differently, had not the young soldiers gave of their lives, we 
very well might be speaking French.
    Twenty years later, a collection of British citizens, by the names 
of Jefferson, Madison, and Monroe, risked their lives and their 
livelihoods to wage a war against their own sovereign nation and, in 
retrospect, audaciously sought to create a grand dream called 
democracy. As we read through their journals and have the benefit of 
their thoughts, they did not always agree on how to create this 
country, nor on what this notion, ``Democracy'', should look like in 
law. As they traveled between their homes and to Philadelphia, the 
natural resources along the Journey served to inspire them. Jefferson 
wrote in his journal, as he observed the confluence of the Potomac, 
that it invites you ``as it were, from the riot and tumult roaring 
around, to pass through the breach and participate in the calm below'' 
(Thomas Jefferson, Notes of the State of Virginia).
    During the Revolutionary War, this corridor served as headquarters 
to Generals Wayne, Lafayette, and Muhlenberg, each of whom exhibited 
bravery and leadership in the face of daunting odds. In 1859, John 
Brown led his men through the region as he planned and executed his 
attack on Harper's Ferry in the name of freedom for all.
    A mere 80 years after the Revolution, this very land absorbed the 
loss of blood, dreams and lives with more Civil War battles waged on it 
than any other region in the country. There were more lives lost on 
this land than in the history of this country as young men laid 
everything they had on the line and brave women like Clara Barton 
administered as best they could. Among others who risked everything, 
were the slaves who ran in the hopes of finding freedom and the Quaker 
towns and abolitionist who harbored them along their way.
    During the War of 1812, as Washington was burning, Dolly Madison 
sent a fearless team to secretly steal away the documents of democracy 
to private homes in this region for safe keeping.
    This is the land that gave respite to Presidents Theodore and 
Franklin Roosevelt, Kennedy and Eisenhower and where General George 
Marshall found solace in the only home he ever owned, as he said, 
``after 41 years of wandering''--a home where he could pen The Marshall 
Plan, which exported the ideals of Democracy to Europe. A listing of 
the great variety of historic resources within the proposed Journey 
Through Hallowed Ground National Heritage Area is attached to this 
testimony.\2\
---------------------------------------------------------------------------
    \2\ Attachment B (retained in subcommittee files) is an inventory 
of historic resources within the proposed Journey Through Hallowed 
Ground National Heritage Area.
---------------------------------------------------------------------------
    It was through these hills and along this corridor that they all 
led by example and left their indelible mark on the creation of 
America. Some made it their home, others their grave, and by each 
deliberate contribution, they created these United States.
    In his Gettysburg Address on November 19, 1863, Lincoln spoke to 
the nation when he said:

          ``We have come to dedicate a portion of that field, as a 
        final resting place for those who here gave their lives that 
        (this) nation might live.
          But, in a larger sense, we can not dedicate--we can not 
        consecrate--we can not hallow--this ground The brave men, 
        living and dead, who struggled here, have consecrated it, far 
        above our poor power to add or detract.''

    Senators, the Journey Through Hallowed Ground Partnership is here 
today to ensure that not only do we not detract, but that we work 
diligently to extract the lessons in leadership and celebrate the 
landscape that has inspired generations to fight for the evocative 
ideals of democracy.
    National designation for the Heritage Area, as further explained 
below, will bring numerous benefits to the region and help ensure that 
our children and grandchildren are able to walk in the footprints of 
those who gave their lives to give us this nation.
B. The Role of the Partnership as Management Entity within the Heritage 
        Area
    S. 2645 designates the Journey Through Hallowed Ground Partnership, 
an organization based in Waterford, Virginia, as the management entity 
for the Heritage Area and outlines the Partnership's duties and 
authorities in Section 5 of the bill. The Partnership is bi-partisan, 
public-private initiative that works collaboratively with heritage 
sites, elected officials, business leaders, educators, landowners, 
preservationists, and destination marketing organizations to celebrate 
the cultural heritage in this region.
    Considerable thought was given to the creation of this Partnership. 
First, an Advisory Council was created which includes: the Presidents 
of Monticello, the Civil War Preservation Trust, the Eisenhower 
Institute, the National Trust for Historic Preservation, and Protect 
Historic America, among others. Early counsel was sought from the 
National Heritage Area Program Director and the President of the 
Alliance of National Heritage Areas.\3\
---------------------------------------------------------------------------
    \3\ Attachment C (retained in subcommittee files) lists the 
Advisory Council members for the Journey Through Hallowed Ground 
Partnership.
---------------------------------------------------------------------------
    Next, a Board of Trustees was convened and includes professionals 
in the fields of heritage conservation, interpretation, tourism, and 
representatives from the business sector. This Board takes seriously 
its responsibilities. It has raised significant private funds to 
execute its 2005-2007 management plan with time-specific performance 
schedules and cost benefit analysis for funds expended.\4\
---------------------------------------------------------------------------
    \4\ Attachment C lists the Board of Trustees for the Journey 
Through Hallowed Ground Partnership.
---------------------------------------------------------------------------
    Section 5(b) of the bill authorizes the development of a Heritage 
Area management plan by the Partnership and authorizes the use of 
federal funds to develop and implement that plan within the Heritage 
Area. It is with assurance that I commend to you the current management 
entity which has demonstrated fiscal responsibility and best management 
practices. The Partnership is well-equipped to serve as the managing 
entity for the Heritage Area and to oversee the implementation of the 
management plan. The Partnership has been working with the National 
Park Service for nearly ten years to advance the Heritage Area concept 
for this region, as demonstrated by the National Register of Historic 
Places Travel Itinerary which was placed online by the National Park 
Service in 2000.\5\
---------------------------------------------------------------------------
    \5\ See www.cr.nps.gov/nr/travel/journey.
---------------------------------------------------------------------------
    Over the past ten years, the Partnership has worked diligently to 
build a strong network of local, regional and national partners to 
develop a common vision for the conservation and enhancement of the 
scenic, historic, recreational, cultural, and natural characteristics 
of the region. Over 100 community briefings have been given, in 
addition to twenty full-day or two-day workshops held within the four 
(4) states each of which convened stakeholders from the community. A 
list of numerous Community Workshops and Partners meetings held to date 
is attached to this testimony.\6\ In addition, a list of the Partners 
and affiliated supporters of the Heritage Area effort is attached to 
this testimony.\7\
---------------------------------------------------------------------------
    \6\ See Attachment D (retained in subcommittee files) is a list of 
Community Workshops and Partners meetings held to date.
    \7\ See Attachment E (retained in subcommittee files).
---------------------------------------------------------------------------
    The Partnership has developed a committee structure with the 
establishment of the several standing committees, including Economic 
Development and Education Subcommittees. As a result, the Partnership 
has created a highly successful education outreach program to reach 
students and teachers within the region as well as across the nation, 
and is creating a heritage tourism program that will provide economic 
development opportunities, through regional branding and cooperative 
marketing, in communities throughout the Heritage Area. Finally, the 
Partnership has been working with local, state and national officials 
to create a National Scenic Byway to supplement the Heritage Area 
designation that will help sustain and strengthen the economy, heritage 
and quality of life in the region. Heritage area designation will 
ensure that the Partnership and its collective members can continue 
their active work as the official management entity for the Heritage 
Area.
C. Specific Benefits of Heritage Area Designation for the Region
    The Partnership and its members are seeking designation of the 
Journey Through Hallowed Ground as a national heritage area because it 
will provide operational funding and National Park Service support for 
the Partnership and its members to work collaboratively with business 
leaders, heritage sites, elected officials, preservationists, 
destination marketing organizations, citizens, and a variety of 
community-based organizations to create interpretation programs and to 
promote the history and tourism opportunities within the Heritage Area. 
To date, all operational funds for The Journey Through Hallowed Ground 
Partnership have been provided through private philanthropic donations, 
which will continue as the initiative moves forward.
    Importantly, the region will also benefit from national recognition 
due to the association it confers with the National Park Service 
through the use of the NPS arrowhead symbol as a branding strategy, a 
symbol so familiar to most travelers. Local economies benefit by the 
increased heritage tourism, and the Heritage Area has the support of 15 
Main Street Communities and historic downtowns in four states.
    Although tourism is the first, second or third largest industry in 
each region within The Journey Through Hallowed Ground, the 
Partnership's research found that visitation to heritage sites has been 
dramatically declining over the past five years. Further research 
identified perhaps the root cause of this decline--the heritage tourist 
demographic profile is that of a highly educated, two-income earning 
family with little time to plan itineraries. Accordingly, the 
Partnership has designed and launched the Where America 
Happened<SUP>TM </SUP>marketing campaign.
    Each element of this campaign makes it easy for citizens and 
visitors alike to plan multi-faceted trips along heritage themes or 
geographic destination. These efforts have included: publishing a 
Journey Through Hallowed Ground guidebook, designing a website which 
educates and facilitates heritage visitation, the creation of visitor 
maps and brochures, working to create a National Trust for Historic 
Preservation Study Tour and the development of audio touring CDs. In 
addition, the Partnership has implemented a targeted, concentrated 
media outreach plan which has resulted in over 100 local and national 
articles including features in Smithsonian, National Geographic and 
Preservation magazines as well as PBS television and National Public 
Radio stories. A sample of these articles is attached to this 
testimony.\8\
---------------------------------------------------------------------------
    \8\ Attachment F (retained in subcommittee files) includes copies 
of major print press coverage of the Journey Through Hallowed Ground.
---------------------------------------------------------------------------
    Allow me to emphasize, however, one very important distinction 
between marketing the region and the intended results. Clearly, by 
design, our marketing efforts provide economic benefits to, and support 
for, our heritage sites, national parks, Main Street Communities and 
working landscape industry. However, our directive and intended result, 
as we launched and pursue our Where America Happened<SUP>TM</SUP> 
campaign, is to bring civic education alive for children and adults 
alike. This Partnership feels that The Journey Through Hallowed Ground 
is a trip every American must take in their lifetime.
    Accordingly, we also seek to work with the National Park Service to 
create interpretive programs on leadership. Such programs will allow 
visitors to walk in the footsteps of those who created this nation and 
fought to ensure democracy prevailed. Only by visiting can one begin to 
comprehend the enormity of the contributions made by normal citizens 
and statesmen alike. Only by experiencing this Journey can we hope to 
instill the invaluable lessons of individual acts of leadership under 
peril which combined to create the values of America--values and 
lessons which must be shared with generations to come. By combining 
historic preservation and civic education with sound environmental 
stewardship, the Partnership aims to help inspire every citizen and 
visitor alike.
    Finally, Heritage Area designation also has more intangible 
benefits, such as functioning as a federal ``seal of approval'' that 
acknowledges the depth of historic assets and importance of a region to 
our American cultural heritage on a national scale. It is an honor for 
a region to achieve this congressionally-designated status and propels 
citizens and communities to greater appreciation and understanding, and 
spurs voluntary conservation practices. Increased pride of a community 
and region in its history and traditions increases residents' interest 
and involvement in retaining and interpreting the landscape for future 
generations. Preserving the integrity of the cultural landscape and 
local stories means that future generations will be able to understand 
their relationship to the land and have a sense of ``place'' although 
they may not be from the area originally. In sum, designation would 
provide increased opportunity for collaboration, marketing, resource 
protection, education, interpretation, recreation, heritage 
celebration, civic involvement and quality of life.
D. Community Support
    Community support for the Journey Through Hallowed Ground Heritage 
Area reaches back to 1992 to the origins of the Partnership, when 
national and local organizations joined together with local citizens to 
raise awareness of the importance of the history of the region in 
response to a proposal to build a theme park in the area. Support for 
the Partnership has come from ordinary citizens and landowners, local 
businesses, heritage sites, educators, government agencies, and elected 
bodies such as town councils, counties, historians and other academics, 
regional planning districts state general assembly, and nonprofit 
conservation and preservation organizations.
    For example, over the past several years, in preparation of seeking 
the National Heritage Area designation, the Partnership has sought to 
formalize this support through obtaining official resolutions in favor 
of the National Heritage Area designation and the efforts of the 
Journey Through Hallowed Ground from fifty-eight (58) elected 
bodies.\9\ In each case, these resolutions were considered after public 
presentations and thoughtful debate. S. 2645 would further this 
community involvement by allowing all federal, state and local groups 
to participate actively in the development and implementation of the 
management plan and allow sites within the area to benefit from grants 
to be administered by the National Park Service and offered through the 
Partnership.
---------------------------------------------------------------------------
    \9\ Attachment G (retained in subcommittee files) to this Testimony 
includes copies of the resolutions of support passed by local 
governmental bodies within the proposed Heritage Area.
---------------------------------------------------------------------------
    In addition, many residents, business interests and nonprofit 
organizations within the proposed area have been involved in the 
planning for the Heritage Area and have demonstrated their support 
through letters of support. For example, thirty preservation, 
conservation and recreation organizations, fourteen heritage sites, 
nine government agencies, thirty-four businesses, twenty educators and 
education institutions, and over two hundred and fifty private citizens 
have written in support of the Heritage Area. The Heritage Area effort 
has also generated a high level of public interest, having been written 
about it over ninety newspaper articles, fifteen of which were on the 
front page, and including editorials of support from Vermont to 
Fredericksburg, Virginia.\10\ The Heritage Area also has a high level 
of voter support, as indicated in a voter survey taken in 2005 
regarding the Journey Through Hallowed Ground initiative.\11\
---------------------------------------------------------------------------
    \10\ See Attachment F (retained in subcommittee files).
    \11\ See Attachment G (retained in subcommittee files).
---------------------------------------------------------------------------
    As stated, the Partnership already has a very strong foundation of 
community support and commitment through the involvement and support of 
more than 150 public and private, foundation, community, and citizen 
partners already actively involved in heritage activities in the 
region. Designation would ensure that this level of collaboration and 
support is increased and sustained.
                    ii. private property protections
    Celebrating American heritage is important, and so are 
constitutionally-protected private property rights. Sections 9 and 10 
of S. 2645 are devoted to private property protection assurances. 
Section 9 requires that owners of private property be notified in 
writing if the property will be included in the management plan and 
provide written consent. Section 9 also allows a property owner to 
withdraw from being included within the boundary of the Heritage Area 
by submitting a written request.
    Section 10 provides that nothing in the bill would require any 
property owner to provide governmental or public access to their 
property, or modifies any federal, state or local law dealing with 
public access or use of private property or any land use regulation. In 
addition, Section 10 provides that nothing in the bill creates any 
liability of any property owners with respect to persons injured on 
such property. Section 10 provides, further, that nothing in the bill 
requires a private property owner located within the boundaries of the 
Heritage Area to participate or be associated with the Heritage Area.
    In Section 5(a), the bill authorizes the Partnership to acquire 
land through gift, devise or by purchase from a willing seller, and 
also provides assurance that ``no lands or interests in lands may be 
acquired by condemnation.'' In Section 5(e), the legislation states 
that the Partnership ``may not use Federal funds received under this 
Act to acquire real property or interest in real property.'' In sum, S. 
2645 contains some of the most stringent private property rights 
protections of any heritage bill yet passed by Congress. Even private 
property advocates have acknowledged that the bill's language is not 
objectionable from a private property protection standpoint.
    Furthermore, a General Accounting Office (GAO) report from 2004 
determined that there is no evidence that heritage areas impact private 
property rights, after extensive interviews with private property 
rights groups.\12\ Zoning and land use policies remain local decisions 
made by locally elected officials who are directly accountable to 
citizens they represent. There are no federal mandates in this bill. 
Heritage areas are ``non-federally owned, managed by local people with 
many partners and NPS advice, funded from many sources, and intended to 
promote local economic development as well as protect natural and 
cultural heritage resources and values.'' \13\
---------------------------------------------------------------------------
    \12\ See GAO Report 04-593T, ``National Park Service: A More 
Systematic Process for Establishing National Heritage Areas and Actions 
to Improve Their Accountability Are Needed'' (March 30, 2004) 
(Methodology section) (``To determine the extent to which, if at all, 
private property rights have been affected by these areas, we discussed 
this issue with the national coordinator, regional officials, the 
Executive Director of the Alliance of National Heritage Areas . . . the 
executive directors of the 23 heritage areas that were established at 
the time of our work, and representatives of several private property 
rights advocacy groups and individuals, including the American Land 
Rights Association, the American Policy Center, the Center for Private 
Conservation, the Heritage Foundation, the National Wilderness 
Institute, and the Private Property Foundation of America. In each of 
these discussions, we asked the individuals if they were aware of any 
cases in which a heritage area had positively or negatively affected an 
individual's property rights or restricted its use. None of these 
individuals were able to provide such an example.'')
    \13\ Carol Hardy Vincent and David Whiteman, Congressional Research 
Service, Resources, Sciences and Industry Division, ``Heritage Areas: 
Background, Proposals, and Current Issues'' (updated March 9, 2006), at 
pg. 3.
---------------------------------------------------------------------------
                            iii. conclusion
    Heritage areas are founded on the concept that the best way to 
preserve important historic and cultural landscapes is through 
voluntary partnerships and community participation, allowing property 
to remain in state, local or private ownership but unifying the area 
through shared efforts at promotion, preservation, and interpretation. 
It is essential for Congress to continue to recognize the desire of 
citizens and communities to obtain national recognition for areas with 
national importance, allowing citizens to promote and further a sense 
of pride of place on a national and international scale.
    We understand that National Park Service seeks enactment of program 
legislation as contained in S. 243 passed by the Senate last year that 
would establish statutory guidelines and a more uniform process for 
designation of national heritage areas. We also understand that the 
increasing demand on National Park Service resources should dictate 
that only those sites that are most qualified should be designated by 
Congress as a heritage area. We strongly believe that the Journey 
Through Hallowed Ground National Heritage Area meets the criterion for 
designation set forth in S. 243, and is an example of a site most 
worthy of national heritage area designation. We look forward to 
continuing our close collaboration with National Park Service to 
provide all the necessary assurances that the Journey Through Hallowed 
Ground National Heritage Area Act of 2006 is consistent with their 
desire for supporting only the most highly qualified heritage area 
programs.
    Once again, I thank you, Mr. Chairman, for the opportunity to 
address the Subcommittee on this important legislation. I look forward 
to answering any questions you or your colleagues may have.

                            *      *      *

``This is the ground of our Founding Fathers. These are landscapes that 
  speak volumes--small towns, churches, fields, mountains, creeks and 
rivers with names such as Bull Run and Rappahannock. They are the real 
thing, and what shame we will bring on ourselves if we destroy them.'' 
                                  \14\
---------------------------------------------------------------------------

    \14\ As stated in a Press Conference regarding the Journey Through 
Hallowed Ground at the National Press Club on May 11, 1994.

                --David McCullough, a Pulitzer Prize winner and one of 
---------------------------------------------------------------------------
                the narrators for the PBS ``Civil War'' series

    Senator Thomas. Thank you very much.
    Mr. Rice.

        STATEMENT OF DANIEL M. RICE, PRESIDENT AND CEO, 
           OHIO & ERIE CANALWAY COALITION, AKRON, OH

    Mr. Rice. Mr. Chairman, distinguished members of the 
committee; my name is Dan Rice. I'm president and chief 
executive officer of the Ohio & Erie Canalway Coalition, a 
regional non-profit organization working on the Ohio River 
canalway in northeastern Ohio.
    I greatly appreciate the opportunity to appear before the 
committee today to offer testimony in support of S. 1721. I am 
here also today to testify as a general witness on behalf of 
the eight other national heritage areas included within S. 
1721.
    While I will be providing some limited information about 
the work of some of the national heritage areas, I respectfully 
request the subcommittee keep the record open so that those 
national heritage areas can submit testimony themselves. The 
Ohio & Erie Canalway is a national treasure, that sovereign can 
meet national, historical and recreation resources along the 
Ohio-Erie canal of northeast Ohio.
    Working in partnership with our private, local, State, and 
national partners, we are developing a 101 mile multi-use 
recreational trail conserving hundreds of acres of natural 
areas, cultivating new stewards with over 160,000 hours on area 
projects, preserving historic structures and stimulating over 
$270 million of community and economic development.
    For every one dollar federally-received funding, Mr. 
Chairman, we are leveraging over $12.00 of private, local and 
State investment. All of these accomplishments would not even 
be possible if it were not for the legislation and designation 
as a national heritage area.
    With the development of our management plan, we have 
obtained the investment, commitment and support of all our 
partners, including the National Park Service, for this 20-year 
plan.
    For the first 3 years of our designation, we completed our 
resource inventories and developed a management plan. From 2000 
and 2006, we established the identity for the canalway and 
worked on the three main linkages of the Topia Trail, scenic 
highway and scenic river.
    Through the hard word and dedication of our over 90 plus 
partners, I am proud to tell you, Mr. Chairman, that we are 
ahead of schedule and poised to move into the second phase of 
the development of the Ohio River canalway.
    As you can see, Mr. Chairman, we are at very critical 
crossroads in the development of our project as well as the 
eight other national heritage areas. If our Federal partners 
withdraw from the partnership and their commitment to the 
management plans, the private, State and local partners may 
take the same approach and withdraw their commitment and 
support. Once this occurs, the public/private partnership is 
dissolved, the foundation for the regional resource 
conservation strategy is destroyed, and the previous investment 
of private, local and state and other partners may be at risk.
    Reauthorization of the Ohio & Erie River Canalway and the 
eight other national heritage areas allows us to complete our 
management plans, fulfill our commitments to the local 
communities and develop the necessary funding diversification 
and self-sustaining strategies.
    In essence, Mr. Chairman, reauthorization enables the 
national heritage areas identified in S. 1721 to move towards 
sustainability, and a decreased dependence on the National Park 
Service for long term funding.
    Although the Ohio & Erie Canalway is not scheduled to 
address the issue of funding diversification and sustainability 
until 2012, this year, the net of 2006 we have already begun 
the view of our processes and our partners and all our funding 
at the local level.
    It is our intention, over the next 3 years to develop a 
funding diversification sustainability strategy so that we can 
be prepared in 2012 to implement that policy.
    As you see, these are results of effective planning. As you 
know, Mr. Chairman, we support very strongly your general area 
heritage program administration bill, S. 243.
    However, with a grandfather clause to include the existing 
national heritage areas, we support the account of doing a 
study 3 years to the sustaining of funding. But unfortunately 
we do not have the luxury of that time right now.
    And so we would ask, respectfully, that we be able to make 
an adjustment in the pending legislation.
    To be quite honest with you, I'm disappointed in the 
National Park Service testimony that was just received here. It 
truly sends a mixed message. The reference to the National Park 
Service Advisory Committee report regarding having a framework 
and structure for national heritage areas, at the same time, 
that very report, Mr. Chairman, says that there was a need to 
include national heritage areas within the system of the 
National Park Service, as well as a long term commitment to 
national heritage areas, and we feel that does send a mixed 
message.
    As I move to my conclusion, Mr. Chairman, now more than 
ever, we need to maintain our partnership with the National 
Park Service and renew our shared commitment to the nine 
national heritage areas listed in S. 1721.
    I believe that national heritage areas are an innovative 
approach to resource conservation and truly represent the 
future of the National Park Service of the 21st century. Most 
importantly, national heritage areas expand the reach of the 
National Park Service and allows the service to effect the 
lives of ordinary citizens in extraordinary ways, without the 
burden and responsibility of long term maintenance and 
ownership. Working together, Mr. Chairman, we have the 
opportunity to create legacies for future generations. I want 
to thank you very much for this opportunity. I look forward to 
answering any questions you may have, sir.
    [The prepared statement of Mr. Rice follows:]
  Prepared Statement of Daniel M. Rice, President and Chief Executive 
           Officer, Ohio & Erie Canalway Coalition, Akron, OH
    Mr. Chairman and distinguished members of the Committee, my name is 
Daniel M. Rice. I am the President and Chief Executive Officer of the 
Ohio & Erie Canalway Coalition, a regional private non-profit 
organization working on the development of the Ohio & Erie National 
Heritage Canalway from Cleveland to New Philadelphia, Ohio in northeast 
Ohio. I appreciate the opportunity to appear before the Committee today 
to offer testimony in support of S. 1721, a bill to amend the Omnibus 
Parks and Public Lands Management Act of 1996 to extend the 
reauthorization for certain National Heritage Areas.
    I am here today also to testify as a general witness on behalf of 
the eight other National Heritage Areas included within S. 1721. These 
National Heritage Areas, the class of 1996, were all authorized 
together in the Omnibus Parks and Public Lands Management Act of 1996. 
These National Heritage Areas have charted new territory in the way the 
federal government works to conserve America's great heritage. These 
nine National Heritage Areas have proven that the National Park Service 
conservation strategy can be a partnership that involves state, local 
and private partners with each party's investment hinged to support the 
others. These nine National Heritage Areas have been reviewed by the 
Government Accountability Office and have successfully demonstrated 
that National Heritage Areas promote the National Park Service ethic of 
resource conservation, and cultivate stewardship for our national 
resources without impacting private property rights. While I will be 
providing some limited information about the work of some of the 
National Heritage Areas, I respectfully request that the Subcommittee 
keep the record open so that those National Heritage Areas can submit 
testimony themselves.
    Within S. 1721 are eight other National Heritage Areas, including 
Augusta Canal National Heritage Area (Georgia), Coal National Heritage 
Area (West Virginia), Essex National Heritage Area (Massachusetts), 
Hudson River Valley National Heritage Area New York), Rivers of Steel 
National Heritage Area (Pennsylvania), Silos and Smokestacks National 
Heritage Area (Iowa), South Carolina National Heritage Corridor (South 
Carolina), and Tennessee Civil War National Heritage Area (Tennessee). 
Over the past ten years, I have had the privilege and benefit of 
working with each of these Heritage Areas and experienced the unique 
heritage and resources of the eight other National Heritage Areas. 
Collectively, these nine National Heritage Areas are successfully 
promoting resource conservation, celebrating cultural traditions and 
stimulating community and economic development.
    The Ohio & Erie Canalway is a regional and national treasure that 
celebrates the unique natural, historical and recreational resources 
along the Ohio & Erie Canal from Cleveland to New Philadelphia in 
northeast Ohio. Working in partnership with our private, local, state 
and national partners, we are developing a 101-mile multi-use 
recreational trail, conserving hundreds of acres of natural areas, 
preserving historic structures and stimulating over $270,000,000 of 
community and economic development activity. For every $1 of federal 
seed funding, we are leveraging over $12 of private, local, and state 
investment.
    As one of the 27 Congressionally-designated National Heritage 
Areas, the Ohio & Erie Canalway is a successful example of the national 
heritage area concept of the conservation and interpretation of 
nationally significant resources through local management and 
investment. Some examples of our resource conservation accomplishments 
include:

  <bullet> Development of 73 miles of the multi-use recreational 
        Towpath Trail from Cleveland to New Philadelphia, Ohio. To 
        date, over $53,000,000 of private, local, state and federal 
        resources have been invested in this regional greenway. Over 3 
        million users utilized the Ohio & Erie Canal Towpath Trail in 
        2005.
  <bullet> Implementation of four county trail and green space plans 
        with over 400 miles of connecting trails and 1,000 acres of 
        green space.
  <bullet> The relocation of the world headquarters of Advanced 
        Elastomers Systems from St. Louis, Missouri to Akron, Ohio, 
        along the banks of the Ohio & Erie Canal. Local developer Paul 
        Tell invested $25 million dollars in the former BFGoodrich 
        building and generated over 300 new jobs in downtown Akron.
  <bullet> Over 160,000 volunteer hours on National Heritage Area 
        related programs and projects, and over 250,000 participants in 
        educational programs.
  <bullet> Preservation and restoration of historic canal resources 
        including, the Mustill House and Store, Henniger House, Zoar 
        Hotel, Zoar Town Hall, Jackson Township School and the Richard 
        Howe House.
  <bullet> Local developer Frank Sinito invested over $13 million 
        dollars in the mixed-use development, Thornburg Station, along 
        the banks of the Ohio & Erie Canal and Towpath Trail in 
        Independence, Ohio in Cuyahoga County. Through a combination of 
        upscale restaurants, offices and shops, Thornburg Station has 
        generated over 50 jobs and is a destination Trailhead along the 
        Ohio & Erie Canal Towpath Trail.
  <bullet> Designation of the Canalway Ohio Scenic Byway as a State and 
        National Scenic Byway.
  <bullet> Extending the Cuyahoga Valley Scenic Railroad from the 
        Cuyahoga Valley National Park to the City of Akron and the City 
        of Canton.
  <bullet> Creation of a Communications Plan, including a comprehensive 
        Interpretation Plan, Signage Plan and Marketing Plan. In April 
        2006, we introduced the first Visitors Guide for the Ohio & 
        Erie Canalway, in partnership with our Convention & Visitors 
        Bureaus.
  <bullet> Provided technical assistance and planning support for the 
        four main Canalway Center Visitors facilities. The first of our 
        facilities, the Stark County Canalway Learning Center is 
        scheduled to open in 2007.

    Through the development of public/private partnerships, we are 
exporting the National Park Service ethic of resource conservation to 
thousands of citizens, cultivating stewardship and investment of the 
unique resources and most importantly, creating a legacy for future 
generations.
    All of these accomplishments would not have been possible without 
the designation, as a National Heritage Area, by Congress in 1996.
    The National Heritage Area designation provides an organized 
regional structure and forum for the promotion of resource 
conservation, interpretation and development of the natural, historical 
and recreational resources along the Ohio & Erie Canalway. With the 
development of the Corridor Management Plan, we obtained the 
investment, commitment and support of all of our private, local, state 
and federal partners for the Ohio & Erie Canalway. All of our private, 
local, state and federal partners, including the National Park Service, 
endorsed the Corridor Management Plan and committed their resources to 
the completion of the 20-year plan.
    For the first three years of our designation, we completed our 
resource inventories and developed the Corridor Management Plan. From 
2000 to 2006, we established the identity for the Ohio & Erie Canalway 
and worked on the three main regional linkages of the Towpath Trail, 
Scenic Byway and the Scenic Railroad. Through the hard work and 
dedication of our over 90-plus partners, I am proud to tell you that we 
are ahead of schedule and are poised to move into the second phase of 
the development of the Ohio & Erie Canalway.
    According the Corridor Management Plan, approved by the Secretary 
of the Interior, over the next six years, we will work on the following 
items:

  <bullet> Complete the key regional linkages, including the Towpath 
        Trail, Scenic Byway and Scenic Railroad.
  <bullet> Expand the connecting trail network.
  <bullet> Market the entire Ohio & Erie Canalway and its journeys.
  <bullet> Assist the Canalway Center project partners to complete 
        construction.
  <bullet> Continue coordination with the National Park Service for 
        program involvement.
  <bullet> Develop Corridor-wide programs and mechanisms for their 
        continued operations.

    As you can see, Mr. Chairman, we are at a very critical crossroads 
in the development of the Ohio & Erie National Heritage Canalway, as 
well as the other eight National Heritage Areas and that is why we are 
requesting reauthorization of these nationally significant projects. 
Just as much of the past accomplishments of the nine National Heritage 
Areas have been due to the participation and involvement of the 
National Park Service, much of our future success depends on the 
continued partnership and participation of the National Park Service. 
As the Corridor Management Plan for the Ohio & Erie Canalway states, 
``Alliances and regional coalitions are critical to the long-term 
success of the National Heritage Corridor as well as to the 
accomplishment of short-term projects.''
    Over the past ten years, the other eight Heritage Areas have 
experienced similar success in the promotion of resource conservation 
and development.
    From FY 1997 through FY 2006, the Rivers of Steel National Heritage 
Area in western Pennsylvania has received $8,645,000 in National Park 
Service funding through this authorization. This funding, which Rivers 
of Steel is required to match, has raised more than $45,000,000 through 
the National Heritage Area to match the National Park Service funding, 
with an additional $35,000,000 being leveraged with the partner 
organizations or local governments in the seven county National 
Heritage Area. This investment has resulted in more than 200 heritage 
development projects that are either ongoing or have been completed in 
the Rivers of Steel National Heritage Area.
    Since 1996, the South Carolina National Heritage Corridor has 
successfully completed over 100 large-scale projects, and is currently 
working on over 40 more, while also providing programming and major 
marketing efforts. The South Carolina National Heritage Corridor serves 
as a catalyst and an incubator for heritage tourism development across 
the state of South Carolina. The efforts within the Heritage Area led 
to the development of numerous statewide initiatives, including the 
South Carolina Farmer's Association and the South Carolina Artisans 
Consortium; and placed an emphasis on protecting and celebrating the 
diversity of cultures in South Carolina such as the influence of Native 
Americans, African and Caribbean heritage.
    The Augusta Canal National Heritage Area in Georgia preserves 
promotes and celebrates the region's rich history, heritage, culture 
and natural resources relating to the Augusta Canal for the benefit of 
current and future generations. Since designation in 1996, some of the 
major projects completed include, construction of a nine-mile multi-use 
trail along the Augusta Canal, construction of an award-winning 
Interpretive Center in an abandoned textile mill, and renovation of the 
1875 gatehouse, locks, four historic buildings and the canal head 
gates.
    I know without reauthorization of the Ohio & Erie Canalway, we will 
be unable to fulfill the commitments and obligations outlined in the 
Corridor Management Plan, and it could undermine the successful public/
private partnership strategy at the local level. I trust that without 
reauthorization, the other eight Heritage Areas contained within S. 
1721, will not be able to fulfill their Management Plans and 
responsibilities.
    If our federal partners abandon the partnership and their 
commitment to the Management Plans, the private, local and state 
partners may take the same approach and withdraw their commitment and 
support. Once this occurs, the public/private partnership is dissolved, 
the foundation for the regional resource conservation strategy is 
destroyed and the previous investment of private, local, state and 
other partners will be at risk. Continued federal investment is 
necessary to maintain the momentum and provide critical seed funding to 
important components of the Management Plans.
    All of the National Heritage Areas included in S. 1721 were 
established with 10-year Management Plans to guide the work of the 
National Heritage Areas for the next 10 years. This was not meant to be 
a limitation on the life of the National Heritage Area, only a 
limitation on the timeframe of the plan. At the end, or near the 
conclusion of the Management Plan, the National Heritage Areas were 
charged with the responsibility to chart out its next 10-year strategy. 
National Heritage Areas were established as long-term conservation 
tools to protect America's heritage in places where sole federal 
government ownership, i.e., units of the National Park Service were not 
feasible or practicable. National Heritage Areas need to be 
reauthorized in order to fulfill their Management Plans. Selecting a 
pre-determined termination, as it has been suggested after 10 years, 
will cause more harm than good.
    Reauthorization of the Ohio & Erie Canalway, and the other eight 
National Heritage Areas, allows us to complete our Management Plans, 
fulfill our commitments to the communities and develop the necessary 
funding diversification and self-sustaining strategies. In essence, 
reauthorization enables the National Heritage Areas identified in S. 
1721 to move towards sustainability and a decreased dependence on the 
National Park Service for long-term funding.
    From 2012 to 2020, the Corridor Management Plan for the Ohio & Erie 
Canalway recommends the development of funding diversification and 
self-sustaining strategies to maintain the quality of the experience of 
the Ohio & Erie Canalway. Although we are not scheduled to address this 
issue until 2012, in 2006, we began an internal review of our 
operations and initiated conversations with our local foundations, 
corporations, governments and state agencies regarding funding 
diversification and self-sustaining strategies and models. Building 
upon the recently completed studies of the John H. Chafee Blackstone 
River Valley National Heritage Corridor and the Delaware and Lehigh 
Canal National Heritage Area, it is our goal to begin the 
implementation of our funding diversification strategy within the next 
six years. With the continued participation of the National Park 
Service, we will develop a comprehensive funding diversification and 
self-sustaining strategy that protects the investment of private, 
local, state and federal resources, continues the promotion of resource 
conservation, while stimulating community and economic development in 
the region.
    Mr. Chairman, now, more than ever, we need to maintain our 
partnership with the National Park Service and renew our shared 
commitment to the Ohio & Erie National Heritage Canalway, and the eight 
National Heritage Areas listed in S. 1721. National Heritage Areas 
successfully promote and export the National Park Service ethic of 
resource conservation without significant permanent investment. Through 
the National Heritage Area designation, we are building permanent 
community partnerships and developing funding diversification and 
sustainability strategies for the conservation of nationally 
significant resources. Most importantly, National Heritage Areas expand 
the reach of the National Park Service and allows the Service to affect 
the lives of ordinary citizens, in urban areas and townships, across 
this country in extraordinary ways, without the burden and 
responsibility of ownership and long-term maintenance by the National 
Park Service.
    In closing, Mr. Chairman, I believe that National Heritage Areas 
are an innovative approach to resource conservation and they represent 
the future direction of the National Park Service in the 21st century. 
That is why I strongly urge your support for the passage of S. 1721 so 
we can continue our successful partnership for resource conservation 
and the celebration of our nationally significant resources. Working 
together, we are creating legacies for future generations.
    I would like to express my thanks to you, Senator Thomas, for your 
outstanding leadership and vision regarding National Heritage Areas. 
Thank you for the opportunity to offer testimony regarding S. 1721 
before your Committee, and I am happy to answer any questions that you, 
or other members of the Committee might have.

    Senator Thomas. Thank you very much.
    Ms. Cutler.

STATEMENT OF CHARLENE PERKINS CUTLER, EXECUTIVE DIRECTOR & CEO, 
          QUINEBAUG-SHETUCKET HERITAGE CORRIDOR, INC.

    Ms. Cutler. Thank you, Mr. Chairman, for the opportunity to 
offer testimony on the amendment of the Quinebaug-Shetucket 
River Valley National Heritage Corridor Act of 1994.
    I am the executive director and CEO of Quinebaug-Shetucket 
Heritage Area, Incorporated, which is a nonprofit, designated 
management entity for the Quinebaug and Shetucket Rivers Valley 
National Heritage Corridor.
    I ask that our document ``The Trail to 2015, a 
Sustainability Plan'' can be entered in it's entirety into the 
record of the subcommittee.* To summarize that document, I am 
pleased to say that the Quinebaug-Shetucket Heritage Corridor, 
Incorporated has been very successful in its work to date in 
fulfilling the intent of Public Law 103-449, the responsibility 
given to us by the Congress, and the visions and goals of our 
management plan. It is our intent to be self-sustaining and not 
need Federal funding by the year 2015.
---------------------------------------------------------------------------
    * The document has been retained subcommittee files.
---------------------------------------------------------------------------
    Our heritage corridor has been diligent, has completed a 
management plan, an implementation and action plan, an 
interpretative plan, a 10 year plan that extended the vision of 
the management goals, and now a sustainability plan. And those 
documents have been truly useful.
    We have shown a consistent ability to maximize scarce 
resources by developing and fostering partnerships with State 
and Federal municipal governments and regional corporate and 
private entities as well as our residents.
    We've acted as an educator and facilitator to motivate 
other organizations to take independent actions in line with 
our mission.
    The Quinebaug-Shetucket Corridor is one of the most 
appropriate entities, we have taken action through specific 
projects and programs to do critical work.
    Our heritage corridor has received numerous State and 
national awards recognizing the excellence of our work 
including the 2005 Public Education Award from the American 
Association for our Green Valley Institute.
    We have consistently met and exceeded the requirements from 
the Federal appropriation. The communicative ratio is $19 to 
every Federal dollar, and I have a pie charts attached to the 
back of my written testimonies so you can see that where it 
divides up by type.
    Direct grants to 191 local projects have funded work in 
trail development, historic preservation, economic development, 
heritage tourism infrastructure, natural resource conservation 
and community planning. The sustainability plan offers many 
examples of those projects.
    Hundreds of volunteers have given more than 10,000 hours of 
service last year alone to our projects and programs. And 7,045 
participants have benefitted from our fiscal year 2005 
education programs.
    According to our fiscal year 2005 audit, 89% of the 
heritage corridors expenditures regardless of source go 
directly into programming.
    Our communities and residents increasingly look to our 
heritage corridor as a source for educational assistance and an 
advocate for resource conservation. We have developed 
credibility at local, regional, state and Federal levels and we 
need to continue the work to fulfill the mission to be present 
for several decades. That is why we adopted the sustainability 
plan this January and why we are committed to achieving its 
goals.
    There are two key elements to realize those goals. We must 
maintain credible programming and we must have the faith in our 
work that the Federal investment demonstrates to attract 
significant, long-term non-Federal resources. Therefore, we 
respectively request that the Quinebaug-Shetucket Area National 
Heritage Corridor Act of 1994 be amended to extend the period 
of authorization from 2009 to 2015 and to extend the total 
appropriation from $10 million to $16 million to coincide with 
our time table for being self-sustaining.
    We would also request that we retain designation as a 
national heritage corridor after authorization has ceased since 
our region will be known as significant national resources. I 
thank Senators Dodd, Kerry, Kennedy and Lieberman for their 
support of our work in this amendment, and I am pleased to 
answer any questions the subcommittee may have. This concludes 
my prepared testimony.
    [The prepared statement of Ms. Cutler follows:]
 Prepared Statement of Charlene Perkins Cutler, Executive Director and 
            CEO, Quinebaug-Shetucket Heritage Corridor, Inc.
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to offer testimony on S. 574, to amend the Quinebaug and 
Shetucket Rivers Valley National Heritage Corridor Act of 1994. I am 
the executive director and CEO of Quinebaug-Shetucket Heritage 
Corridor, Inc., the grassroots nonprofit designated as management 
entity for the Quinebaug and Shetucket Rivers Valley National Heritage 
Corridor.
    I ask that our document, The Trail to 2015, a Sustainability Plan, 
be entered in its entirety into the record of this subcommittee.*
---------------------------------------------------------------------------
    * The document has been retained in subcommittee files.
---------------------------------------------------------------------------
    To summarize that document, I am pleased to say that Quinebaug-
Shetucket Heritage Corridor Inc. has been very successful in its work 
to date in fulfilling the intent of Public Law 103-449, the 
responsibility given to us by the Congress, and the visions and goals 
of our Management Plan. It is our intent to be self-sustaining and not 
need federal funding by the year 2015.

  <bullet> Our Heritage Corridor has been diligent and has completed a 
        Management Plan, an Implementation and Action Plan, an 
        Interpretive Plan, a Ten-Year Plan that extended the vision of 
        the original management goals, and now a Sustainability Plan. 
        Those guiding documents were completed in a timely and 
        efficient manner, and have been truly useful documents.
  <bullet> We have shown a consistent ability to maximize scarce 
        resources by developing and fostering partnerships with 
        federal, state and municipal governments, and regional 
        corporate and private entities. We have acted as an educator 
        and facilitator to motivate other organizations to take 
        independent actions in line with our mission. When the Heritage 
        Corridor was the only or most appropriate entity, we have taken 
        action through specific projects or programs to do critical 
        work.
  <bullet> Our Heritage Corridor has received numerous state and 
        national awards recognizing the excellence of our work, 
        including the 2005 Public Education Award from the American 
        Planning Association for our Green Valley Institute.
  <bullet> We have consistently met and exceeded the required match on 
        our federal appropriation. The third page of my written 
        testimony includes an analysis of our funding and non-federal 
        leverage since 1994. The cumulative ratio is $19 to each 
        federal dollar.
  <bullet> Direct grants to 191 local projects have funded work in 
        trail development, historic preservation, economic development, 
        heritage tourism infrastructure, natural resource conservation 
        and community planning. The Sustainability Plan offers many 
        examples of these projects.
  <bullet> Hundreds of volunteers have given more than ten thousand 
        hours of service last year to our mission-related projects and 
        programs, and 7,045 participants have benefited from our FY05 
        education programs.
  <bullet> According to our FY05 audit, 89% of the Heritage Corridor's 
        expenditures, regardless of source, go directly into 
        programming.

    Our communities and residents increasingly look to our Heritage 
Corridor as a source for guidance and assistance, and as an advocate 
for resource conservation. We have developed credibility at the local, 
regional, state and federal levels. The need to continue the work to 
fulfill the mission will be present for several decades. That is why we 
adopted the Sustainability Plan this January and why we are committed 
to achieving its goals.
    There are two key elements to meeting those goals:

  <bullet> In order to maintain credible programming that will attract 
        significant, long-term, non-federal resources, it is critical 
        to retain the federal investment over the next ten years.
  <bullet> Reauthorization to 2015 would leverage significant, 
        multiyear, non-federal commitments that are essential to our 
        self-sustainability.

    Therefore, we respectfully request that the Quinebaug and Shetucket 
Rivers Valley National Heritage Corridor Reauthorization Act of 1994 be 
amended to extend the period of authorization from 2009 to 2015, and to 
extend the total appropriation from $10 million to $16 million, to 
coincide with our timetable to be self-sustaining by the year 2015. I 
thank Senators Dodd, Kennedy, Kerry and Lieberman for their support of 
our work and this amendment.
    I am pleased to answer any questions the Subcommittee may have. 
This concludes my prepared testimony.

    Senator Thomas. Thank you very much. Thanks to all of you 
for being here. It's a great job and I know that it takes a 
great deal of work on the local level to do these things, and 
it's very much that way. I have just one or two quick 
questions, and if you can give us a quick answer, then we'll be 
able to wind up here pretty soon.
    Mr. Sullivan, when do you expect the Blackstone River 
Heritage Area to be self-sustaining?
    Mr. Sullivan. Mr. Chairman, I would suggest that we would 
be able to maintain the 22-1 ratio, and I would say by June 6 
we could have come close to meeting that challenge.
    Senator Thomas. I see. Okay. Good. Mr. Rice, your heritage 
area does not lose its authorization until 2012. Why are you 
seeking to go to 2027 with 6 years remaining?
    Mr. Rice. Mr. Chairman, there's actually two caps in our 
legislation there's a funding cap of up to only a million 
dollars for a total cap of $10 million, and then there's the 
amount of years, I believe 15 years. We are coming up against 
our refunding cap. That's why we're seeking reauthorization at 
this time so we can continue to fulfill the obligations and 
responsibilities outlined in our management plan.
    Senator Thomas. I see. Okay.
    Ms. Cutler, yours will be self-sustaining then by 2015, is 
that your plan?
    Ms. Cutler. Correct.
    Senator Thomas. Did you intend to be self-sustaining as you 
organized your plan in the first place?
    Ms. Cutler. The first 5 years of our appropriation was 
about $300,000 a year in an area of 1,100 square miles. That 
didn't make a lot of impact so it was only within the past 5 
years that we've been able to make some significant headway and 
realized what our capabilities would be. And so it's been our 
intention over the past couple of years to develop this plan 
because we feel that if we can't sustain that work over the 
long term. This is off-and-on, though.
    Senator Thomas. Okay, well, I appreciate it. I want you to 
understand, I'm not trying to make a huge issue out of this 
funding thing, but I do think that heritage areas are pretty 
much oriented to regions and to local areas and they're very 
helpful to the local people, although they do retain side 
things as well.
    You know, we have 390 park systems now and we have a 
funding problem on that, as you well know, you've read a lot 
about it, and so we have to try to figure out the best way 
overall to handle this financial situation and so on. We 
certainly want to continue to see these things happen and find 
the best way to do that.
    Ms. Wyatt, section 5 of the bill as I understand it, 
authorizes the use of Federal funds for land acquisition and 
section 5(e), states that Federal funds may not be used for 
acquisition of real estate. I don't understand that.
    Ms. Wyatt. Typo.
    Senator Thomas. Typo? Gotcha.
    Ms. Wyatt. That was just a typo, we have no intentions of 
using the funds under this Federal Act for the purchase of real 
property.
    Senator Thomas. I see.
    Ms. Wyatt. Other funds from other donations could be used 
by the non-profit.
    Senator Thomas. Sure. I understand.
    Ms. Wyatt. But we will certainly make that change.
    Senator Thomas. Yeah, okay. Well, again, let me say how 
important I think it is to continue to do these things. 
Because, you know, the park generally, why the whole park is a 
ball park and it's all public land, and it's maintained and so 
on, where here you have private lands within your operations, 
and Federal and local lands, and all this other, they are 
different, but they're very important. And it's very important 
of you to be able to work at the local level to create these 
kinds of things. They are great. I was just in Virginia a 
couple of weeks ago, and all the things that happened in 
Jamestown and Yorktown and also all the park facilities that 
are already there. But it's great, you know, it's historic and 
we're very proud of Yellowstone and Cavetown and so on in 
Wyoming, so I'm glad we're working together to do these things 
and we just got a buzz to go vote, I noticed and thank you very 
much for being here. We'll certainly work with the committee in 
trying to get maybe some of the changes that the Department 
would like to have and then see if we can get you in and do 
other things. So thank you very much. If there are any 
questions from other members, why, I will ask you to answer 
them by mail.
    Thank you.
    Senator Thomas. The committee's is adjourned.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

   Responses of Cate Magennis Wyatt to Questions From Senator Thomas
    Question 1. (S. 2645, Journey Through Hallowed Ground NHA 
Designation): Have any private property owners objected to this 
designation as a National Heritage Area?
    Answer. No individual property owners have approached the 
Partnership with concerns or objections about how they feel the 
proposed bill might affect their land specifically. However, 
representatives of a few organizations representing private property 
rights viewpoints and opposed to the national heritage area concept, 
generally, have contacted the Partnership to voice opposition.
    Where the Partnership has been able to engage in dialogue with 
these groups, and language has been proposed by them to improve the 
bill and strengthen private property rights protections, we have 
readily agreed and immediately incorporated suggested language--for 
example the language in Section 5(a)(2)(D) clearly stating that ``no 
lands or interests in lands may be acquired by condemnation.'' Other 
entities have been unwilling to engage in dialogue, and have limited 
themselves resort to public protest tactics, making it hard to discern 
from them improvements to the bill that would address concerns.
    We can tell you, however, that hundreds of private property owners 
resident in the area have voiced resounding support for the National 
Heritage Area and strongly desire a more coordinated regional approach 
to honoring the national importance of the history of the region for 
residents and visitors.
    Question 2. (S. 2645, Journey Through Hallowed Ground NHA 
Designation): Section 5(a) of the bill authorizes the use of Federal 
funds for land acquisition and Section 5(e) states that Federal funds 
may not be used for acquisition of real property or interest in real 
property.
    a. Do you intend to use Federal funds to acquire any land for the 
Journey Through Hallowed Ground Heritage Area?
    b. Should we amend the bill to correct the conflicting statements 
about use of Federal funds for real property/land acquisition?
    Answer. One of the intended purposes of Section 5(a) was to 
recognize that the management entity, as a Virginia corporation like 
any other corporation, has the authority generally to accept funds from 
a variety of sources to assist with operational and other costs. 
However, it was also the intent of the legislation, as stated in 
Section 5(e), to clearly prohibit the Partnership from using federal 
funds provided under the Act to acquire real property or any interest 
in real property. We agree that the language in Section 5(a)(2)(D) 
conflicts with that in Section 5(e) and thus the Partnership would 
support an amendment to strike Section 5(a)(2)(D) and retain Section 
5(e) in its entirety.
    Question 3. (S. 2645, Journey Through Hallowed Ground NHA 
Designation): What do you see as the best use of Federal funds that are 
made available to National Heritage Areas?
    Answer. The Partnership believes that the federal funds made 
available to National Heritage Areas are best utilized to develop and 
implement heritage area management plans that represent the very finest 
that can be achieved by public-private collaboration and coordination 
toward the united goal of moving ahead as a society while respecting 
our past.
    The Partnership understands the economics of prospering through 
preservation and is working currently on creating strategic alliances 
with the private sector and with educational foundations to sustain the 
critical work of educational programming, to create profit centers in 
publishing, study tours, and audio touring tapes, among other 
initiatives that will enhance such collaboration.
    The federal funding that the Partnership is provided as the 
management entity will further these types of efforts, and allow the 
Partnership to fulfill its goal of setting an example of the kind of 
exciting and inspiring things that can happen when government, 
business, and citizenry work together at celebrating, commemorating, 
conserving and promoting the history and resources in an area in a 
cost-effective manner that leverages funding from a variety of sources.
    Question 4. (S. 2645, Journey Through Hallowed Ground NHA 
Designation): What do you see as the Federal government's role in 
National Heritage Areas?
    Answer. Only the federal government, and specifically only an Act 
of Congress, can provide the national ``seal of approval'' for an area 
as a designated National Heritage Area. This national designation is 
honorific. It honors regions which not only hold significant heritage, 
but confers this designation because the citizens, businesses, elected 
bodies and non-profit organizations within the region have taken 
decided steps to ensure this heritage will be available to generations 
to come. In this respect, for over 10 years, the Journey Through 
Hallowed Ground Partnership has worked not only to increase awareness, 
but has worked collaboratively with stakeholders to significantly 
celebrate, commemorate, conserve and promote our heritage.
    As the Partnership has seen many times ``if you Honor people--they 
become Honorably.'' Specifically, we have witnessed, and have research 
to support, the tangible and intangible benefits which result from 
federal honorific designations. The recognition serves to bolster a 
sense of pride and place. It provides a catalyst to voluntary community 
and individual efforts to celebrate, commemorate, conserve, promote and 
protect resources integral to our American heritage.
    In short, the federal role is recognition of the importance of an 
area to the Nation's story. Also, importantly, the designation permits 
the increased partnership of the management entity with the 
professionals within National Park Service who lend their decades of 
expertise to these regions as they work closely and collaboratively to 
promote historic, cultural, recreational and other resources for 
visitors and residents. National Park Service involvement helps ensure 
the ultimate success of the heritage area effort.
    Question 5. (S. 2645, Journey Through Hallowed Ground NHA 
Designation): Is your heritage area prepared to become self-sustaining 
and not require Federal funds like Ms. Cutler has outlined for her 
heritage area in Connecticut? If so, by what date do you expect to be 
self-sustaining?
    Answer. The JTHG Partnership has been self-sustaining for over ten 
(10) years, with the significant support of the private sector, and has 
created a business plan to ensure it has been self sustaining each of 
those ten years. This private sector support will only increase with 
the passage of this legislation, with the federal support authorized 
under the legislation being utilized to broaden the activities of the 
Partnership to serve as a management entity in the manner outlined in 
the legislation. We have every expectation of being fully self-
sustaining as a management entity for the heritage area within the 15 
year authorization period for funding set forth in the legislation.
                                 ______
                                 
   Responses of Ann Marie Velasquez to Questions From Senator Thomas
    Question 1. (S. 2037, Sangre de Cristo NHA Designation): 
Approximately how many people reside within the boundaries of the 
Sangre de Cristo Heritage Area?
    Answer. According to the 2003 Population Estimate from the San Luis 
Valley statistical profile, 27,731 people reside within the boundaries 
of the proposed National Heritage Area. U.S. Census Bureau actual 
figures for the year 2000 were stated as 27,029. This area encompasses 
all of the counties of Conejos, Costilla and Alamosa.
    Question 2. (S. 2037, Sangre de Cristo NHA Designation): Have any 
residents objected to the designation as a National Heritage Area?
    Answer. We have not encountered anyone objecting to this 
designation. We have held public meetings to inform residents of the 
efforts and what the designation could mean for the area. After 
speaking with several people in other currently designated National 
Heritage Areas, and with the National Park Service personnel at the 
beginning of this process, we learned that most objections in the west 
were concerned with private property rights. We have addressed this 
issue whenever possible and specifically asked to have a clause 
concerning private property rights included in the bill. We understand 
that this clause has become a standard clause that is now incorporated 
into a bill to designate a National Heritage Area.
    Question 3. (S. 2037, Sangre de Cristo NHA Designation): If your 
area is approved as a National Heritage Area, how long do you think it 
will take for you to be self-sustaining without a need for Federal 
funding?
    Answer. During the planning process for the feasibility study we 
reviewed other currently designated National Heritage Areas. Many areas 
are able to leverage the federal funding received through the U.S. 
Congress by up to 22 to 1. This figure is even surpassed in some areas. 
With this type of leveraging, self-sustainability should be attainable 
within the authorized period. We intend to create a business plan along 
with the Management Plan that is required within the first 3 years of 
authorization. This should help to focus on projects that will lay a 
solid foundation for sustainability and study how the SDCNHA can 
operate without federal assistance. Business enterprises that directly 
relate to our Not for Profit status could be one avenue of longevity, 
as an example. One of our partners is Adams State College, a local 
higher education facility. We intend to work with the School of 
Business to pursue a plan for sustainability. The ingenuity that it 
took to produce the feasibility study with $5,000.00, called 
``superior'' by NPS Deputy Director Donald Murphy, exists in this 
region of the country. We view these federal funds as a stimulus, not a 
crutch. We are confident that self sustainability is within reach 
during the original authorization period of 10 to 15 years.
                                 ______
                                 
     Responses of Charlene Cutler to Questions From Senator Thomas
    Question 1. (S. 574, Quinebaug and Shetucket NHA Reauthorization): 
Ms. Cutler, you stated that your heritage area will be self-sustaining 
without any need for Federal funds in 2015. Have you always intended to 
become self-sustaining or is this a new approach to doing business?
    Answer. Senator Thomas, early on our Heritage Corridor anticipated 
becoming self-sufficient, and our planning documents bear that out. We 
were one of the earlier NHAs designated and received a smaller 
appropriation for the first five years ($200,000/year). In a region of 
nearly 1,100 square miles, it is understandable that under that level 
of funding our impacts were small. In the past five years we have 
accomplished significant work with the increased federal investment and 
been able to coalesce many partners and, most importantly, residents 
around our joint mission.
    In 2000, we wrote Vision 2010: A Ten-Year Plan, that expanded on 
the vision of our original management plan. The overall goal of that 
plan was ``to accomplish the mission of our National Heritage Corridor 
by perceiving and reflecting the priorities of residents and 
translating these into programs and services for the next ten years and 
beyond.'' That plan also foresaw the need to think past federal funding 
and stated that if the overall goal was to carry the work forward, an 
endowment or some other type of permanent fund would need to be 
established to generate income for the work.
    In preparation for that eventuality, our organization conducted a 
Fundraising Feasibility Study in 2002. That study recognized that there 
was no example of a National Heritage Corridor developing a permanent 
fund, and therefore, we were in uncharted waters. The document also 
recognized the rural nature of our region. It laid out a conservative 
and realistic plan to developing sustaining resources. Extrapolating 
out to our $10 million goal, we plan to have the fund capitalized in 
2015.
    Our experience has also shown us that there is a required critical 
mass of successful programming that must be attained in order to 
attract significant, non-federal resources. We feel that we have 
reached that threshold and will be able to begin a capital campaign to 
develop a permanent fund. However, in our National Heritage Corridor, 
that is very rural and has a relatively low population, we also know 
that we need the time to 2015 to be successful in accumulating the 
funds.
    In 2004, we began working on Trail to 2015, A Sustainability Plan. 
The permanent fund is one leg of our three-legged stool plan; the other 
two are for-profit activities and foundation support.
    With private funds, we have just hired a well-respected and very 
successful development professional to shepherd the organization 
through the next ten years to the point of self-sustainability. The 
only element left to be in place is continued authorization through 
2015 to maintain credible programming until other resources take over. 
We are committed to becoming self-sustaining and this is not a new idea 
for us.
    Question 2. (S. 574, Quinebaug and Shetucket NHA Reauthorization): 
Do you think all National Heritage Areas should become self-sustaining 
and free of Federal funding at some point?
    Answer. Every NHA is distinctive, although they all have 
commonality in resource protection, resource interpretation and 
economic development. If each NHA is truly grassroots in origin, that 
is, its focus is driven internally as opposed to externally, then there 
must be some point at which the stewards take complete ownership for 
the fulfillment of the mission. I think self-sustainability is 
inevitable if the work is to carried forward to the next group of 
stewards--our children and grandchildren.
    Question 3. (S. 574, Quinebaug and Shetucket NHA Reauthorization): 
What do you see as the Federal government's role in National Heritage 
Areas?
    Answer. I think the Federal government best serves National 
Heritage Areas by first recognizing regions of significant national 
resources, designating them as such, and providing seed money for the 
work the residents of that area determines is important. National 
Heritage Areas are impressive in their ability to put responsive 
programming in place very quickly. That ability is what attracts non-
federal match to the process.
    Many layers of federal requirements would seriously impede that 
process and put a damper on the ability of a NHA to become self-
sustaining. For example, if instead of appropriations funding was 
allocated as grants for particular projects, the accomplishments of 
heritage areas would be significantly less, and the time to put 
essential programs on the ground would become so slow that the programs 
would lose credibility with residents.
    Question 4. (S. 574, Quinebaug and Shetucket NHA Reauthorization): 
What do you see as the best use of Federal funds that are made 
available to National Heritage Areas?
    Answer. The best use of Federal funds is to support necessary 
planning documents and invest in programming until a critical mass is 
reached that measures impacts, identifies work no other entity can do, 
and points the way to self-sustainability.
                                 ______
                                 
         Responses of Dan Rice to Questions From Senator Thomas
    Question 1. (S. 1721, Omnibus Heritage Area Extensions): Has the 
National Heritage Area that you manage had any adverse impact on 
private property with the boundaries of the heritage area?
    Answer. No. The Ohio & Erie National Heritage Canalway has not had 
any adverse impact on private property within the boundaries of the 
Heritage Area.
    Question 2. (S. 1721, Omnibus Heritage Area Extensions): Mr. Rice, 
the House has added private property rights language to every National 
Heritage Area bill they have passed. Do you have any objection to the 
language the House is using? If so, what are your specific objections 
and how would you amend the language if given an opportunity to do so?
    Answer. Yes, I object to the private property rights language being 
inserted into the National Heritage Area legislation by the House 
Resources Committee. It is particularly confusing since the General 
Accounting Office investigated the relationship between private 
property rights and National Heritage Areas, and they were not able to 
document any examples or evidence of National Heritage Areas having an 
adverse impact on private property within the boundaries of Heritage 
Areas. The General Accounting Office report conclusively stated that 
National Heritage Areas do not have an adverse impact on private 
property rights.
    For over 45 years, the citizens of northeast Ohio have worked in a 
collaborative manner to conserve, interpret and develop the natural, 
historical and recreational resources along the Ohio & Erie Canal, 
without a single issue of adverse impact on private property rights. 
The proposed language is unnecessary since we do not, and cannot 
preserve, conserve or promote private property without the consent of 
the private property owner. The success of our project is dependent on 
the cooperation and participation of our partners. Any other approach 
is unacceptable and inconsistent with our mission.
    Based on our 45-year history and experience, I would suggest that 
the proposed private property rights language is not necessary and does 
not need to be included in our Reauthorization Bill, S. 1721.
    Question 3. (S. 1721, Omnibus Heritage Area Extensions): S. 1721 
reauthorizes 9 National Heritage Areas including the one that you 
manage.
    a. Your heritage area, the Ohio and Erie Canalway, does not lose 
its authorization for Federal funding until 2012. Why are you seeking 
reauthorization to 2027 if you have another 6 years remaining?
    Answer. In our original authorizing legislation, the Omnibus Parks 
and Public Lands Management Act of 1996, there were two clauses 
established for planning purposes:

          ``The Secretary may not make any grant or provide any 
        assistance under this title after September 30, 2012.''
          ``There is authorized to be appropriated under this title not 
        more than $1,000,000 for any fiscal year. Not more than a total 
        of $10,000,000 may be appropriated for the corridor under this 
        title.''

    Since our authorization in 1996, we have received approximately 
$8,500,000 of federal funds towards our $10,000,000 authorization. At 
our present rate of federal appropriations, we will reach our funding 
authorization before 2012 and before we fulfill the responsibilities 
outlined in our Management Plan.
    By seeking reauthorization now, we will maintain the momentum of 
leveraging over $12 of private, local and state resources for every $1 
of federal investment, complete the responsibilities and projects 
outlined in the Management Plan and fulfill our commitment to the local 
communities.
    Question 3b. Is your heritage area prepared to become self-
sustaining and not require Federal funds like Ms. Cutler has outlined 
for her heritage area in Connecticut? If so, by what date do you expect 
to be self-sustaining?
    Answer. According to our Management Plan, approved by the Secretary 
of the Interior, there are three phases to our plan, 2000-2006: 
Establishing the Identity, 2006-2011: Develop key Linkages and 
Resources and 2012-2020: Funding Diversification and Self-sustaining 
strategies. As I mentioned in my testimony, we are ahead of our 
schedule and we are already examining what we need to accomplish by 
2020 and what partnerships, collaborations and resources we need to 
meet our objectives outlined in the Management Plan. Currently, we are 
developing a 3-year funding diversification and cultivation strategy 
for implementation in 2008, with the expectation that by 2012, we will 
be on target according to our Management Plan.
    During the development of the funding diversification and 
cultivation strategy, we will examine the role of all of our public/
private partners, including our federal, state, local and private 
partners, to determine if there is a continued need for continued 
participation, as outlined in Senator Thomas's National Heritage Area 
program legislation (S. 243). As part of the family of the National 
Park Service, there is a level of expectation and service that visitors 
to Heritage Areas have, due to the association with the National Park 
Service. When folks see the National Park Service logo attached to 
National Heritage Area materials, programs and projects, there is an 
immediate recognition that this is one of America's special places and 
that visitors will have a quality experience. One of the ways to ensure 
quality and service of the programs and projects of National Heritage 
Areas is to maintain the partnership with the National Park Service.
    Question 4. (S. 1721, Omnibus Heritage Area Extensions): Should 
National Heritage Areas be made units of the national park system?
    Yes. Despite being in direct conflict with Senator Thomas's 
National Heritage Area program legislation, S. 243, as well as the 
National Park Service Advisory Committee Report on Heritage Areas, I 
believe it is time to re-examine this issue. Even though the National 
Park Service Advisory Committee Report on Heritage Areas states, ``the 
National Park Service must commit to Heritage Areas for the long term 
and welcome Heritage Areas into the system of the National Park 
Service,'' the recent testimony by the National Park Service on our 
Reauthorization bill, S. 1721 contradicts that statement. It is 
apparent from their testimony that the National Park Service is not 
committed to National Heritage Areas, nor have they welcomed National 
Heritage Areas into the system of the National Park Service.
    I have reached the conclusion that the only way for the National 
Park Service to fully accept, embrace and understand National Heritage 
Areas, may be to make them units of the National Park System. Our 
situation is similar to the National Long Distance Trails, National 
Seashores and National Recreation Areas, who received similar treatment 
before becoming part of the National Park System. Rather than being 
treated as the ``red-headed step child,'' National Heritage Areas can 
be recognized for their contributions to resource conservation, 
stewardship cultivation and recreational opportunities. Additionally, 
some of the successes of National Heritage Areas, including public-
private partnerships and leveraging significant amounts of private, 
local and state funding, can be applied to units of the National Park 
Service. Congress has thoroughly examined the benefits and successes of 
National Heritage Areas and their entrepreneurial ways of conserving 
nationally significant resources. As the National Park Service looks to 
fulfill its mission in the 21st century, they can utilize the National 
Heritage Areas principles of leveraging private, local and state 
resources, cultivating public-private partnerships and developing 
entrepreneurial business practices to make the current system of 
National Park Service units more efficient and cost-effective. Finally, 
as units of the National Park Service, National Heritage Areas will 
demonstrate the significant costs savings of National Heritage Areas, 
compared to traditional National Park Service units. Rather than the 
traditional funding of between $5,000,000 and 8,000,000 annually to 
each unit of the National Park Service, National Heritage Areas fulfill 
the mission of the Service at a fraction of the cost.
    Based on these reasons, I believe it may be time to re-examine the 
issue of including National Heritage Areas as units of the National 
Park Service.
                                 ______
                                 
 Responses of Governor Donald Carcieri to Questions From Senator Thomas
    Question 1. (S. 1387, Blackstone River NHA Reauthorization): How 
many acres of state, Federal, and private land are there within the 
boundaries of the Blackstone River National Heritage Area?
    Answer. There are 400,000 acres of land within the boundaries of 
the Blackstone River Valley National Heritage Corridor. Of this total, 
approximately 26,000 acres are state-owned and 1,365 acres are 
Federally-owned. The rest is primarily in private ownership.
    Question 2. (S. 1387, Blackstone River NHA Reauthorization): Have 
any private land owners within the boundaries of the Blackstone River 
National Heritage Area objected to being included in the area?
    Answer. The Corridor Commission is not aware of any private land 
owners who have objected to being included in the area. On the 
contrary, several towns have expressed an interest in being included 
within the Corridor's boundaries, based upon local citizen initiatives. 
The Corridor has no authority to own or control land. Rather, it works 
in partnership. The Corridor Commission developed a policy early on to 
avoid taking positions on land use disputes at the local level, acting 
instead as a mediator or ``convenor'' on issues related to the 
Corridor's mission of resource protection. The Corridor has hosted 
public meetings on many occasions, inviting all factions and all levels 
of involvement, including Federal, state, and local governments, 
business entities, organizations, and local citizens. The purpose of 
these meetings has been to provide a neutral space for all parties to 
state their case, rather than to decide the outcome of a particular 
issue. This policy helped cement the Commission's reputation for 
promoting ``the big picture'' and a true spirit of cooperation and 
collaboration.
    Question 3. (S. 1387, Blackstone River NHA Reauthorization): 
National Heritage Areas are established to form collaborative 
partnerships for identifying and managing areas with unique natural, 
cultural, and recreational resources. How much of the budget for the 
Blackstone River National Heritage Area is derived from Federal, state, 
and non-government sources?
    Answer. The BLAC operating budget ($800,000 in FY 2006 before 
recissions) is matched by the States of Massachusetts and Rhode Island 
at least one-to-one. This requirement helps assure that each state is 
engaged in activities consistent with the ten-year work plan for the 
Corridor submitted to Congress. BLAC also has also received development 
funds in varying amounts throughout its 18 year term. BLAC has 
documented leveraging of 22 to 1 on those funds. A detailed breakdown 
of Federal appropriations and the leverage these funds have created in 
the Corridor was included in the Blackstone Sustainability Study, 
``Reflecting on the Past, Looking to the Future'', which was published 
early this year, and is excerpted below:
     the cost-effectiveness of the corridor's management structure
    It is also important to evaluate the cost-effectiveness of the 
management structure. At the Commission's request, the NPS serves as 
staff and coordinates and implements the management plan, working 
primarily through partnerships to protect the valley's nationally 
important resources. The original assumption of the designation was 
that the heritage corridor management framework would be a less costly 
alternative to a traditional national park designation. While it may be 
difficult to compare the operations of a national heritage corridor and 
national park, it nonetheless demonstrates different funding scenarios 
and provides insights to the added value the NPS achieves through 
partnership management strategies.
    Below, we compare two national parks with the Blackstone National 
Heritage Corridor in terms of annual operating budget and staffing. The 
Chesapeake and Ohio Canal National Historical Park is a linear canalway 
traversing several states, and Lowell National Historical Park is an 
urban partnership park focused on industrial heritage.
    Chesapeake and Ohio Canal National Historical Park follows the 
route of the Potomac River for 184 miles from Washington, D.C., to 
Cumberland, Maryland, and encompasses 20,000 acres. The park manages a 
complex historic and natural resources program with an annual operating 
budget of $8.4 million and 122 full-time employees.
    Lowell National Historical Park encompasses 141 acres within the 
City of Lowell, Massachusetts, and is responsible for preserving and 
interpreting numerous historic and cultural resources and celebrating 
the beginnings of America's industrial heritage. Lowell has an annual 
operating budget of $8.5 million and 112 full-time employees.
    Blackstone River Valley National Heritage Corridor encompasses an 
entire watershed of 400,000 acres and includes 24 cities and towns. It 
has a very broad mandate for the preservation, redevelopment, and 
interpretation of the cultural landscape. Blackstone has a current 
annual operating budget of approximately $1 million and 14 full-time 
employees.
    Historic Preservation: The Commission has invested approximately 
$3,560,000 with an estimated return on this investment that exceeds 
$132,705,000. These projects include such activities as historic 
preservation of national register eligible properties, cultural 
landscape assessments, collection management and curation of historic 
objects, archaeological studies, and community preservation plans.
    Interpretation, Education and Tourism Development: The Commission 
has invested approximately $9,966,000 in historical research, 
interpretive and cultural programs, and educational programs, with an 
estimated return on this investment that exceeds $17,700,000. These 
projects include such activities as NPS-ranger guided tours and 
lectures, visitor center and museum development, exhibit design and 
fabrication, interpretive master plans for heritage sites and 
communities, curriculum development, support for cultural arts 
education and programming, development of interpretive brochures and 
websites, tourism marketing and promotion, a unified identity system, 
and public information program.
    Community Planning and Economic Development: The Commission has 
invested approximately $4,667,000 to assist communities in developing 
strategies and plans that help to support Corridor heritage 
preservation and development goals. It is difficult to put a definitive 
dollar value on much of the leverage to this investment. An estimated 
$292,371,000 in leverage contributed toward community revitalization 
projects, regional visions, transportation improvements, master 
planning for historic mill villages, land preservation, regional 
economic development plans, revitalization of historic industrial 
properties, and the redevelopment of historic mills.
    River Recovery and Recreation: The Commission has invested 
approximately $4,684,000, which has leveraged $79,121,000. These 
activities include developing parks, constructing the Blackstone River 
Bikeway, developing river landings and public access sites for boating 
and fishing, constructing trails, developing plans for the restoration 
of migratory fish, wetland and streambank restoration projects, 
upgrades to wastewater treatment plants, watershed-wide education 
programs, and water quality monitoring and protection programs.

------------------------------------------------------------------------
                                         Commission        Partnership
         Commission leverage             investment         leverage
------------------------------------------------------------------------
Historic Preservation...............      $3,559,810      $132,704,834
Interpretation, Education and             $9,965,629       $17,713,372
 Tourism............................
Community Planning and Economic           $4,666,497      $292,370,886
 Development........................
River Recovery and Recreation.......     $44,684,340       $79,120,938
------------------------------------------------------------------------

    Development funds are the most effective way we engage with our 
partners. More recently, BLAC has been able to require greater levels 
of collaboration and matching funds from our partners. For example; the 
Northern Gateway Visitor Center in Worcester, MA--a project which will 
anchor the northern end of the Corridor--was developed as a result of a 
feasibility and engineering study partially funded by the Corridor 
Commission. That contribution, along with funding set aside for exhibit 
development, consists of about $700,000 in funding from the Corridor. 
This contribution leveraged a commitment of $6.4 million in federal 
transportation funds, $1.6 million in state matching funds, and $2 
million from the City of Worcester. In addition, the Visitor Center's 
prime tenant and operating entity, the Worcester Historical Museum, 
expects to raise between $5 million and $7 million to develop a world-
class museum facility in the Visitor Center. It is unlikely that this 
complex project would have succeeded without the upfront ``seed'' money 
provided by the Corridor Commission.
    Question 4. (S. 1387, Blackstone River NHA Reauthorization): Dr. 
Sullivan, we have just heard the director of a heritage area in 
Connecticut state that she plans to be self-sustaining and free of 
Federal funding by the year 2015. When do you expect the Blackstone 
River National Heritage Area to be a self-sustaining entity with no 
requirement for Federal funds?
    Answer. The question of becoming self-sustaining is one that post-
dates the designation of the Corridor in 1986. BLAC was only the second 
National Heritage Corridor designated. No heritage area program or set 
of guidelines existed at that time. Certainly the Commissioners had no 
expectation of becoming self-sustaining after five years when Congress 
first reauthorized the Commission, or even after ten years, when 
Congress extended the Commission's authorization in 1996. Early on, 
Commission reviews suggested that it would take at least 20 years to 
make the Corridor's legislative mission and vision sustainable without 
Federal funding through the National Park Service. Even that estimate 
failed to fully reflect the scale of the task faced by the Commission.
    While the newer heritage areas can take advantage of a well-
established template, BLAC spent much of its early years creating that 
template. The first Management Plan, begun from scratch, took 18 months 
to be completed and approved. Newer areas can complete these tasks in 
much less time because of policies and procedures that were pioneered 
and shared by BLAC. The Sustainability Study undertaken by the BLAC was 
precedent setting. BLAC was the first area to conceive of such an open 
``audit'' of their practices and procedures and to invite the public to 
help critique the effectiveness of the Heritage Corridor and say how 
they would like to see the Commission operate in the future. The 
Conservation Study Institute was engaged because of its talent and 
ability to act as a third party reviewer.
    Each Heritage Area must have a management entity appropriate to the 
landscape and people within its borders. For BLAC, that has been a 
Federal commission because of the bi-state nature of its operations. 
BLAC has had a close alliance with the National Park Service, and its 
citizens sent a resounding note of confidence in this management entity 
and NPS partnership. BLAC has requested a Special Resource Study be 
conducted to help determine the Corridor's future relationship with the 
NPS, and NPS has endorsed this position to your Committee. BLAC intends 
to use its next reauthorization period to study and recommend future 
management options for the Corridor. Because 5 communities, and most 
importantly the City of Worcester, the second largest city in New 
England, have only participated in the Heritage Corridor for 10 years, 
and the northern leg of the Corridor is, therefore, not completed, the 
Commission believes that 10 years, rather than 5 years, would be more 
appropriate to the job left to complete. River restoration and the 
completion of the northern section of the Blackstone Bikeway that will 
link the entire Heritage Corridor and join with the East Coast Greenway 
require the leadership and convening abilities of the Blackstone 
Corridor Commission.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                       Adams State College,
                                        Alamosa, CO, June 16, 2006.
To Whom It May Concern:
    On behall of Adams State College, I am pleased to lend our support 
to the efforts of the Sangre de Cristo National Historical Area 
Committee. We wholeheartedly endorse congressional designation of the 
tri-county area of Conejo Costilla, and Alamosa counties as a national 
historic area. This designation will greatly enhance the historical, 
recreation, and economic situations of this area.
    If you have any questions, please feel free to contact me at 719-
587-7341.
            Sincerely,
                                           David P. Svaldi,
                                                         President.
                                 ______
                                 
                                           City of Alamosa,
                                        Alamosa, CO, June 16, 2006.
To Whom It May Concern:
    On behalf of the City of Alamosa, please accept this as support for 
the efforts toward Sangre de Cristo National Historic Designation Area 
of Alamosa, Conejos and Costilla Counties.
    The designation of this area will enhance tourism, heritage, 
recreation, and economic development of the entire San Luis Valley.
    Please give this request your favorable consideration.
            Sincerely,
                                          Farris J. Bervig,
                                      Mayor of the City of Alamosa.
                                 ______
                                 
                         The Commonwealth of Massachusetts,
                                         Boston, MA, June 21, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on Parks, Historic Preservation and Recreation, 
        U.S. Senate, Washington, DC.
    Dear Senator Thomas: I am writing to express my support for Senate 
Bill 1387, relative to the reauthorization of the John H. Chafee 
Blackstone River Valley National Heritage Corridor and Commission.
    As you know, the Blackstone River Valley National Heritage Corridor 
serves the Commonwealth of Massachusetts and the State of Rhode Island. 
The work of the Commission has had substantial, positive economic and 
environmental impacts on our states, and has helped to further 
interstate cooperation on a number of fronts.
    The Commission's efforts have demonstrably improved water quality, 
opening up new opportunities for business, tourism and outdoor 
recreation. Notably, the numbers of fish and wild animals have 
increased, and Great Blue Herons and Bald Eagles have returned to the 
river valley. Much of this progress has been the direct result of the 
Commission's involvement and dedicated work. Passage of SB 1387 would 
affirm the federal government's commitment to this tremendously 
successful partnership.
    Thank you for your attention to this matter. I would urge your 
favorable consideration of this important piece of legislation.
            Sincerely,
                                               Mitt Romney,
                                                          Governor.
                                 ______
                                 
                             Congress of the United States,
                                     Washington, DC, June 22, 2006.
Hon. Craig Thomas,
Chairman, Energy and Natural Resources Subcommittee on National Parks, 
        Washington, DC.
Hon. Daniel K. Akaka,
Ranking Member, Energy and Natural Resources Subcommittee on National 
        Parks, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: We are writing to 
commend the Subcommittee for scheduling a hearing on S. 1387, the John 
H. Chafee Blackstone River Valley National Heritage Corridor 
Reauthorization Act of 2005, and we respectfully urge you to report 
this legislation favorably.
    The Blackstone River Valley Heritage Corridor was established in 
1986 in recognition of the national importance of the region as the 
birthplace of the American Industrial Revolution. Redesignated in 1999 
as the John. H. Chafee Blackstone River Valley National Heritage 
Corridor, the Corridor has become a national model of how the National 
Park Service, without federal ownership and regulations, can work 
cooperatively with local communities and a multi-agency partnership to 
create a seamless system of parks, preserved historic sites, and open 
spaces that enhance the protection and understanding of America's 
heritage. The Corridor is managed by a bi-state, 19 member federal 
Commission, which represents federal, state, and local authorities and 
citizens from the Commonwealth of Massachusetts and the State of Rhode 
Island. The Commission's federal stature has made it an extremely 
effective management entity for coordinating two states and 24 local 
governments around a common action agenda.
    As you may know, the authorization and funding for the John H. 
Chafee Blackstone River Valley National Heritage Commission are 
scheduled to expire November 2006 unless reauthorized by Congress. S. 
1387 would provide for the update of the Cultural Heritage and Land 
Management Plan for the Corridor, extend the authority of the John H. 
Chafee Blackstone River Valley National Heritage Corridor Commission 
for an additional ten years, and authorize operating and development 
funding appropriations to enable the Commission to continue its work.
    The John H. Chafee Blackstone River Valley National Heritage 
Corridor is important to Rhode Island and Massachusetts, as well as to 
our entire nation. Please let us extend to you our appreciation in 
advance for your consideration of this request.
            Sincerely,
                                   James P. McGovern,
                                   Patrick J. Kennedy,
                                   Richard E. Neal,
                                   James R. Langevin,
                                           Members of Congress.
                                 ______
                                 
                                               U.S. Senate,
                                     Washington, DC, June 22, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Washington, DC.
    Dear Chairman Thomas: As cosponsors to Senate Bill 1721, the 
National Heritage Area Extension Act of 2005, we would like to take 
this opportunity to convey our strong support for reauthorization of 
the National Heritage Areas Program.
    The National Heritage Areas Program has been very beneficial to 
communities throughout the country. Heritage Areas are proven methods 
of community preservation and revitalization.
    Currently, Iowa is fortunate to have the America's Agricultural 
Heritage Partnership. This Heritage Area encompasses a 37-county region 
and covers more than 20,000 square miles. The Partnership is helping to 
preserve significant agricultural and industrial events from our 
history. America's Agricultural Heritage Partnership was part of the 
originally authorized Heritage Areas in the Omnibus Parks and Public 
Lands Act of 1996.
    In addition, the Mississippi River National Heritage Area would be 
established to serve the counties bordering this mighty river in ten 
states, one of which is Iowa. This Heritage Area would help inventory, 
improve, promote, and preserve the resources and rich culture along our 
nation's river.
    We appreciate your consideration of this program before your 
committee this week, and hope that you are able to support the National 
Heritage Area Extension Act of 2005. Please call on us if you need 
additional information, or if we can be of service as you work to 
reauthorize program.
            Sincerely,
                                   Charles E. Grassley,
                                   Tom Harkin,
                                           U.S. Senators.
                                 ______
                                 
   Statement of Annie C. Harris, Executive Director, Essex National 
                          Heritage Commission
    Mr. Chairman and distinguished members of the Committee, I am 
pleased to submit the following written testimony in support of S. 
1721, a bill to amend the Omnibus Parks and Public Lands Management Act 
of 1996. I am writing in favor of the provisions included in S. 1721 to 
extend reauthorization for the nine National Heritage Areas, including 
the Essex National Heritage Area, authorized under this Act to receive 
up to $10 million in appropriations over a fifteen year period.
    I serve as the Executive Director of the Essex National Heritage 
Commission. The Commission is the designated management entity for the 
Essex National Heritage Area. Operating under the oversight of a 25 
member board of trustees, 150 commissioners and 62 ex officio 
commissioners, the Commission coordinates preservation, conservation 
and education programs in throughout this 500 square mile area north of 
Boston, Massachusetts. Essex National Heritage Area, along with the 
other eight National Heritage Areas established in the Act of 1996, has 
an impressive ten-year track record in preserving America's heritage 
through innovative and successful public-private partnerships at every 
level of government. S. 1721 would allow this worthwhile work to 
continue by extending the federal funding and permitting the National 
Park Service to continue to participate this important work.
    There are four questions that are frequently asked about the 
National Heritage Areas. These questions go to the core of the National 
Heritage Areas. I have answered them below and illustrated my answers 
with examples from the Essex National Heritage Area.

          1. What are the public benefits of the National Heritage 
        Areas?
          2. Does the National Park Service derive significant benefits 
        from the National Heritage Areas?
          3. Why should Congress consider reauthorizing the National 
        Heritage Areas?
          4. Do National Heritage Areas restrict private property 
        rights?

    1. What are the public benefits of the National Heritage Areas? The 
National Heritage Areas provide significant national, regional and 
local benefits to the American public in these ways:

          a. NHAs preserve nationally important historic sites, develop 
        regional recreational facilities (such as bikeways and trails), 
        and foster community revitalization through the rehabilitation 
        of historic and cultural resources.
          b. NHAs leverage their annual federal appropriations, 
        regularly attracting between $3 to $12 in private, local and 
        state investment for every $1 of federal investment `seeded' in 
        the Area.
          c. NHAs build dynamic civic partnerships by bringing together 
        hundreds of volunteers, businesspeople, educators and elected 
        officials to work together to revitalize their communities.

          Examples: The Essex National Heritage Area contains more than 
        9,200 National Register of Historic Places properties, 607 
        National Register districts and 24 National Historic Landmarks. 
        The Area interprets three nationally significant themes: Early 
        European settlement, American maritime history in the Great Age 
        of Sail and the early Industrial Revolution, and conserves four 
        major heritage landscapes. The Essex National Heritage Area 
        plays a critical role in facilitating collaborative programs 
        across the region including an extensive Heritage Landscape 
        Inventory that identified more than 1,300 resources, two scenic 
        byways designations, and thirty miles of proposed rail-trail 
        development. The ENHA `Trails & Sails' event annually attracts 
        more than 3,500 people, introducing them to the rich heritage 
        resources of the region and engaging them in the long-term 
        preservation and promotion of these significant assets. 
        Bikeways, trails, regional tourism, downtown revitalization, 
        education and recreation are all important aspects of ENHA. In 
        2005 alone, the Essex National Heritage Area hosted 1,182,000 
        cultural visitors, oversaw 10,500 hours of volunteer time, 
        managed 369 formal and informal partnerships, made 33 direct 
        grants, worked on projects that improved 37 National Register 
        properties, and offered education programs that engaged 340 
        people. During the past 10 years, the Essex National Heritage 
        Area has gained extraordinary momentum but the work is on-going 
        and should not be stopped in mid stride.

    2. Does the National Park Service derive significant benefits from 
the National Heritage Areas? The National Park Service derives 
important benefits from their affiliation with the National Heritage 
Areas, and many of these have been identified in the ``Report by the 
National Park System Advisory Board's Partnership Committee'' which 
notes that ``National Heritage Areas contribute to the mission of the 
National Park Service'' and ``the National Heritage Area approach . . . 
can serve as a model for achieving NPS collaborative conservation 
goals.'' It is our experience that the following benefits result from 
the collaboration between the National Heritage Areas and the Park 
Service:

          a. NHAs build goodwill for the National Park Service 
        especially in areas where the Heritage Area is adjacent to or 
        surrounds the NPS site.
          b. NHAs promote partnerships between residents and the Park 
        Service on a broad range of projects from small, one time 
        events to large volunteer maintenance and construction 
        projects.
          c. NHAs often provide significant additional resources, 
        monetary and otherwise, to the Park Service.
          d. NHAs support the mission of the Park Service and allow 
        many of parks to focus on their core resources more 
        effectively.

          Examples: The Essex National Heritage Area partners with the 
        National Park Service's Salem Maritime National Historic Site 
        and Saugus Ironworks National Historic Site on a wide variety 
        of projects. There is the tall ship ``Friendship'' volunteer 
        program where 200+ volunteers maintain and sail the NPS tall 
        ship thus saving the Salem Maritime NH Site thousands of 
        dollars each year in maintenance and operations costs. 
        Recently, the Essex National Heritage Area has provided 
        assistance to Salem Maritime for the acquisition of a dock for 
        their Visiting Vessels program, an important NPS initiative 
        developed to generate new educational activities and revenue 
        for the park. Another example is the interpretive thematic 
        trails that ENHA has developed cooperatively with NPS that are 
        designed to educate residents and visitors about the history of 
        the park and the surrounding region and that also encourage the 
        economic benefits of increased visitation. The Essex National 
        Heritage Area works cooperatively with local area colleges, the 
        National Archives regional office and the National Park Service 
        on exhibits and primary source research projects, and this in 
        turn enables the NPS to have new exhibits and educational 
        programs at no cost to the park.

    3. Why should Congress consider reauthorizing the National Heritage 
Areas? The work of the National Heritage Areas is not complete. While 
there are many successful initiatives and projects, ten years is too 
short a time to build and maintain hundreds of lasting collaborative 
partnerships. The National Heritage Areas should not be stopped in mid-
stream when so much more can be accomplished by continuing the 
relationship with the National Park Service and the small investment of 
federal funds.

          a. NHAs have proven to be very effective historic 
        preservation and resource conservation tools. Hundreds of 
        National Register properties have benefited from the support of 
        the National Heritage Areas. Miles of trails have been cleared 
        and improved by the Areas. A multitude of cultural 
        organizations and civic groups have revitalized their 
        communities with the guidance of the National Heritage Areas. 
        These improvements benefit not only the residents but also the 
        thousands of tourists who visit the National Heritage Areas 
        every year (68 million visitors at last count).
          b. NHAs have built hundreds of regional and local 
        partnerships to carry out their work. These relationships are 
        usually carefully nurtured over many years, and often include 
        small investments of `seed' funding to assist the partners in 
        the cooperative projects. These `seed' funds allow the National 
        Heritage Areas to build trust among formerly competing 
        organizations, and in turn, this stability has enabled these 
        organizations to attract additional matching funds from a wide 
        range of new sources. All of the National Heritage Areas are 
        working diligently to develop sustainable sources of revenue, 
        but it is too early in the process to zero out the federal 
        funding. These funds provide a stable platform upon which many 
        new cooperative ventures are being built. All of the partners 
        need to remain `at the table' for a while longer so that this 
        model can continue to mature.
          c. NHAs and their special affiliation with the National Park 
        Service are designated in perpetuity. The quality of the 
        National Heritage Area has a direct bearing on the public's 
        perception of the National Park Service. Up to this point, the 
        National Heritage Areas have reflected well on the Park 
        Service, however without any public assistance for their base 
        operations and programming, this may not be the case in the 
        future.
          d. NHAs have oversight from the National Park Service through 
        Cooperative Agreements that specific the federal funding and 
        the annual work program for each National Heritage Area. With 
        no federal appropriations, there will not be Cooperative 
        Agreements and the Park Service will not be in a position to 
        provide oversight to the work of the National Heritage Areas 
        despite their continuing affiliation with the Service.

          Example: To date the Essex National Heritage Area has made 
        228 direct grants to historic preservation projects, heritage 
        education programs, trail development, interpretative projects 
        and historical records preservation. These grants total 
        $1,351,000 and have leveraged $4,123,000 in additional direct 
        investment in these resources. The National Heritage also makes 
        other types of grants such as twenty-one survey and planning 
        grants to archival organizations where hundreds of thousands of 
        nationally significant historical records are housed and grants 
        to the regional visitor centers who collaborate with the 
        National Park Service to welcome tourists to the Area. In 
        addition, the Essex National Heritage Area maintains over 300 
        formal and informal partnerships that promote the heritage 
        resources in the region in broad array of projects ranging from 
        bikeway planning to seed funding. The National Heritage Area 
        works closely with the National Park Service's Salem Maritime 
        and Saugus Ironworks National Historic Sites on education, 
        interpretation, and preservation projects that are outlined in 
        the annual cooperative agreement. These projects feature the 
        historic themes of the two National Park units and integrate 
        the park themes into projects with other regional partners. For 
        example, ``Using Essex History'' highlights Salem and Saugus 
        along with other significant historic sites in a multi-year 
        project that links teaching history to the statewide standards 
        testing. The ``100 Milestones'' celebrates many significant 
        accomplishments in regional preservation and community 
        engagement including the National Park Service's resources.

    4. Do National Heritage Areas restrict private property rights? The 
simple answer is no; there is nothing in the National Heritage Area 
legislation or in their practice that restricts the rights of property 
owners to own, develop or change their property. Some people confuse 
the limitations imposed by local authorities such as zoning and 
planning boards as somehow being the purview of the National Heritage 
Area. This is incorrect.

          a. NHAs do not have any regulatory authority explicit or 
        implied in the legislative acts that established them.
          b. NHAs do not have legal authority to tell private property 
        owners what they can and cannot do, nor is there any evidence 
        that they try to do this.
          c. NHAs are not mandated to affiliate with other regulatory 
        federal and state agencies. In fact, the cooperative nature of 
        the work of the National Heritage Areas dictates the opposite.

          Example: The Essex National Heritage Area works to inspire 
        residents and their communities to cooperative in preserving 
        and promoting their heritage resources. The Area's 
        collaborative partnerships seek to demonstrate the benefits 
        derived from heritage while they reframe from interfering with 
        local decisions. With the hundreds of formal and informal 
        partners working on matters that affect a substantial portion 
        of the 9,000 national register properties in this region as 
        well as acres of open space and trails, the Essex National 
        Heritage Area has a proven track record of excellent 
        relationships with all levels of government and civic 
        organizations, and at no time is there evidence that this work 
        has limited the rights of private property owners to do what 
        they wish with their property.

    In conclusion: The work of the National Heritage Areas requires 
that all of the partners in this exciting experiment continue to 
cooperate and work together. The successes to date are clearly 
documented, but the challenges for heritage preservation and community 
revitalization are still many. This is a work-in-progress that should 
be continued. Perhaps no group has said it better than the National 
Park System Advisory Board's Partnerships Committee. In their recent 
study of the National Heritage Areas, they concluded that ``the 
National Park Service can benefit from the National Heritage Areas 
approach to conserving nationally important living landscapes and 
cultures'' and they recommended that the Director of the National Park 
Service and by extension the Park Service and Congress:

          1. Create a home for Heritage Areas in the Park System
          2. Commit to Heritage Areas for the long-term
          3. Provide for unique legislative authorities
          4. Extend our reach to gateway communities
          5. Support research and understand partnership networks.

    Their study recognizes that ``National Heritage Areas are founded 
on consensus-based planning, local commitments and a network of long-
term partnerships. For this reason a long-term commitment is needed to 
achieve meaningful progress.'' The National Heritage Areas endorse this 
conclusion and urge this committee to reauthorize the nine National 
Heritage Areas established in the Act of 1996.
    Mr. Chairman and distinguished members of this committee, thank you 
for your consideration of this matter and for the opportunity to make a 
written presentation to the committee.
                                 ______
                                 
         Statement of the Conejos County Board of Commissioners
    Mr. Chairman and Members of the Committee: We the Conejos County 
Board of Commissioners would like to submit the following testimony in 
support of Senate bill 2037 for the purpose of establishing the Sangre 
de Cristo National Heritage Area in the San Luis Valley located in 
Southern Colorado.
    The passage of this bill would enhance the opportunity this 
designation would bring to the Counties of Alamosa, Conejos and 
Costilla. The designation would bring economic opportunities to the two 
poorest counties in the state of Colorado. Although, we have been 
called the poorest counties in the state, we are rich in culture and 
heritage. The opportunity to share our area's history and culture would 
entice tourism into our communities and bring economic value to our 
local businesses and agricultural community.
    The idea of a National Heritage Area concept was introduced by a 
501(c)(3) non-profit organization called the Los Caminos Antiguos 
Scenic and Historic Byway (LCA). Through the efforts of the LCA a 
steering committee was formed, this was the beginning of much hard work 
and perseverance to make the heritage area a reality. Hundred of hours 
in planning, research, committee and community meetings took place over 
a 5 year period of time. Over time much support was gained from 
citizens, organizations, local and regional governments. All groups 
recognized the need to capture and preserve the unique blend of the 
native American, Hispano and Anglo settlement and to preserve the 
history, art and traditions or future generations.
    ``The mission of the Sangre de Cristo National Heritage Area is to 
promote, preserve, protect, document and interpret its profound 
historical, religious, environmental, geographic, geologic, cultural, 
and linguistic resources''. The efforts will contribute to the overall 
national story engender a spirit or pride and self-reliance, and create 
a legacy in the Colorado counties of Alamosa, Conejos and Costilla.
    A feasibility study that was required by both the U.S. Congress and 
the National Park Service was produced by using local and regional 
professional writers, historians, academics and local citizens, working 
on a volunteer basis.
    The heritage and history of the area has been well preserved 
through the isolation of the San Luis Valley and through local 
preservation and conservation efforts.
    The abundance of historical and cultural sites is described in 
detail in the feasibility study. Although there are many historical and 
cultural sites in Conejos County, the following are a few sites that 
have played an important part of early history in the State of 
Colorado:

  <bullet> Pike's Stockade--the contact between the Anglo and Hispanic 
        cultures in the San Luis Valley. Dating back to 1806 the 
        encounter between Lt. Zebulon Pike and Spanish scouts, the 
        stockade was constructed on the Conejos River.
  <bullet> Our Lady of Guadalupe Church--considered the oldest Church 
        in Colorado, established in 1856.
  <bullet> The Lobato Bridge--one of three iron bridges remaining in 
        the United States constructed in 1892. This bridge was the 
        first bridge constructed in Colorado over the Rio Grande. Iron 
        and lumber at a cost of $8,400 was brought in by wagon.
  <bullet> Cumbres and Toltec Scenic Railroad--going into new New 
        Mexico on February 1, 1881. The railroad not only conquered the 
        Sangre de Cristos and the San Juan Mountains, but brought the 
        blend and diverse ethnic and racial groups that still live in 
        harmony today. This nineteenth-century steam railroad provides 
        an adventure for tourists to enjoy yet another historical 
        experience.

    We the Conejos County Board of Commissioners and on behalf of our 
citizens ask and urge you to consider and approve S. 2037 bill 
designating the Sangre de Cristo National Heritage Area.
                                 ______
                                 
       Statement of Darius Allen, Chairman of the Board, Alamosa 
                          County Commissioners
    Mr. Chairman and Members of the Committee, am Darius Allen, 
Chairman of the Board of Alamosa County Commissioners and in support of 
S. 2037, the Sangre de Cristo National Heritage Area Act, appreciate 
the opportunity to present my thoughts on behalf of the Board of 
Alamosa County Commissioners on the proposed legislation.
    S. 2307 proposes to designate the counties of Alamosa, Conejos and 
Costilla, Monte Vista National Wildlife Relive, the Baca National 
Wildlife Refuge, the Great Sand Dunes National Park and Preserve as a 
National Heritage Area and to establish guidelines, standards and 
requirements for the Area. A local 501(c)(3) nonprofit board of 
directors will be put in place and would be designated as the 
management entity for the Heritage Area to work with the National Park 
Service and the many local heritage organizations.
    The mission of the Sangre de Cristo National Heritage Area is to 
promote, preserve, protect, document and interpret its profound 
historical, religious, environmental, geographic, geologic, cultural 
and linguistic resources. These efforts will contribute to the overall 
national story, engender a spirit of pride and self reliance and create 
a legacy in the Colorado Counties of Alamosa, Conejos and Costilla.
  the sangre de cristo national heritage area is rich in culture and 
                   history and worthy of preservation
    The Sangre de Cristo National Heritage located in the South Central 
part of Colorado is rich in culture and natural resources. The people 
of the San Luis Valley have found ways to preserve their cultural and 
natural heritage. There are historical structures and land that still 
exist today such as Mexican land grants, the narrow gauge railroad also 
known as the Cumbres and Toltec Scenic Railroads Pikes Stockade, Great 
Sand Dunes National Park and Fort Garland. The language, art, 
architecture, religious tradition of the Native American early Spanish 
colonists and Mexican settlers is still alive and thriving in the area. 
The towns of San Luis and Antonito, Colorado are the two oldest 
settlements in the State. The area still contain moradas (place of 
worship, the oldest church in Colorado, murals, the first mercantile of 
the region, the first water right and La Vega (the last remaining 
commons area in the United States that is still used for its original 
purposes) which is located in Costilla County, Colorado. Festivals and 
religious celebrations including century old procession of Los Hermanos 
Penitentes are still hosted today.
    The Sangre de Cristo National Heritage Area inhabited over 11,000 
years by native people, including Ute, Navajo, Apache, Tiwa, Tewa, 
Comanche, Kiowa and Arapaho remains central to native cultures and is 
home to Mount Blanca (one of Colorado's 14,000 foot peaks) also known 
as Sisnaajini, a sacred mountain for Navajo and other people that marks 
the eastern boundary of their world. There are also petroglyphs and 
pictographs along the Rio Grande telling stories and cosmologies of 
early inhabitants. The San Luis Valley is beautiful in nature 
surrounded by the San Juan and Sangre de Cristo Mountains. The San Luis 
Valley is one of the largest alpine valleys in North America and has an 
abundance of natural resources.
    I believe the San Luis Valley is very unique because of the 
preservation of culture and the strong historical significance. The San 
Luis Valley history has been well preserved through isolation and 
conservation efforts.
    A volunteer steering committee worked hundreds of hours in 
committee meetings, research, and public meetings to organize and gain 
support or this effort. There are resolutions from local governments 
that show support with the feasibility study that has been submitted to 
Congress. I strongly urge you to pass Senate Bill 2037. This will 
enable the people to preserve the rich culture and natural resources of 
the San Luis Valley. Thank you for giving me this opportunity to submit 
a written testimony.
                                 ______
                                 
 Statement of Donald P. Short, Executive Director, Silos & Smokestacks 
                         National Heritage Area
    America's Agricultural Heritage Partnership, also known as Silos & 
Smokestacks National Heritage Area, is a thirty seven county area 
located in Northeast Iowa. We are the second largest of the twenty 
seven National Heritage Areas and the only one telling the story of 
American agriculture through a network of over ninety partner sites 
covering more than 20,000 square miles.
    Silos & Smokestacks is proud to have distributed over $1.3 million 
to assist partner sites in telling the story of American agriculture 
through grant programs. Our cash matching requirements for this program 
has created a five to one multiplier effect.
    Launched in 2001, CampSilos (campsilos.org) educational website 
targets students in grades 4-8 with online educational material related 
to all aspects of agriculture. Student activities, teacher lesson plans 
and virtual field trips are featured on the website with over forty 
thousand (40,000) hits per month. The National Education Association 
recognized CampSilos with a national 2nd place award in 2003 for 
quality education.
    SSNHA is also nationally recognized for its L.I.F.E. (Living an 
Iowa Farm Experience) Tours group travel program creating relationships 
with several foreign countries including Denmark, Norway, France, 
England, Japan, Brazil, Canada, Mexico, Ireland and now (October, 06) 
Argentina. Life Tours has definitely impacted Iowa's six billion dollar 
tourism industry yet state funding ranks third from the bottom 
nationally.
    Silos & Smokestacks acts as a facilitator for small communities. We 
provide technical assistance, hospitality training workshops and grant 
opportunities to help them become self supporting. Our support helps 
them ``jump-start'' projects that may never become a reality for small 
town Iowa to again prosper.
                                summary
    Silos & Smokestacks provides the tools for its people and 
communities to preserve and tell the story of American agriculture. 
Fewer people are living in rural areas. As farming becomes more 
automated, the people are separated farther from how their food is 
grown and processed. Silos is the critical link to preserve the stories 
and the culture.
    The most difficult dollars to raise are for administrative 
expenses. Nobody wants to fund an organization's daily operating. When 
federal funding stops the wheels could slowly come to a halt. Federal 
funding brings other partners to the table and has enabled us to create 
a match of the fed funds. The small rural communities do not have the 
audiences to fund many of the initiatives needed for sustainability. 
Heritage Areas provide the critical supporting link.
    On behalf of the Board of Trustees, Leadership Advisors and 
Partnership Panel of Silos & Smokestacks National Heritage Area, we're 
asking you to pass S. 1721.
    Senators Tom Harkin and Chuck Grassley are strong supporters of 
this bill. A letter of support was delivered to your committee at the 
hearing on June 22, 2006.
                                 ______
                                 
  Statement of Michelle McCollum, Executive Director, South Carolina 
                       National Heritage Corridor
    The South Carolina National Heritage Corridor (SCNHC) is one of 27 
congressionally designated heritage areas in the country. A `National 
Heritage Area' is a place where natural, cultural, historic and scenic 
resources combine to form a cohesive, nationally distinctive landscape 
arising from patterns of human activity shaped by geography.
    A recent National Park Service survey shows that almost 45 million 
people across 17 states live within a national heritage area. The very 
nature of the `heritage area' structure engages communities to work in 
partnership across jurisdictional boundaries to improve their future by 
building on a shared past. This is a very unique and effective way for 
the federal government to impact local communities with minimal 
investment. It is important to note that a recently conducted GAO 
report stated that national heritage areas do not infringe upon private 
property rights. National Heritage Areas allow the federal government 
to preserve, protect and promote the resources of these areas without 
acquiring or managing additional land or programs.
    Many projects such as downtown revitalization, adaptive reuse of 
historic structures, preservation of diverse cultures, and conservation 
of unique and endangered landscapes are initiated within and by 
National Heritage Areas. Heritage Area programs also provide training 
to individuals, businesses, and non-profit organizations in grant 
writing, strategic planning, product development and marketing. Large 
scale technical assistance programs as well as local grant programs are 
part of the leveraging process used to build on the federal seed money. 
On average, National Heritage Areas leverage $10 to every federal $1 
that is invested, proving that this program is an investment, not an 
expense, for the federal government. National Heritage Areas are also 
required to match federal funds dollar-for-dollar, thus spurring local 
investment and building a foundation for local partnerships.
    The importance of the National Heritage Program cannot be 
overstated. Tourism is growing worldwide and Heritage Tourism is the 
fastest growing segment and the segment with the greatest per capita 
expenditures by tourists. Unless our nation focuses on this segment of 
worldwide tourism we will be losing ground to other countries which are 
putting major emphasis on this growing trend.
    The SCNHC was designated in the Omnibus Parks and Public Lands 
Management Act of 1996. The program began under the leadership of the 
SC Department of Parks, Recreation and Tourism and has now moved under 
the direct management of a public/private partnership Board of 
Directors. This has been a very important move for our organization and 
is part of the overall strategy to become self sustaining.
    The development of the SCNHC has been an important program for our 
state. Not only does the SCNHC preserve and promote ``pride of place'' 
in South Carolina, it also tells a national story as our state is one 
of the original thirteen colonies and one which has had a 
disproportionately large impact on national events. Unlike many other 
National Heritage Areas, the SCNHC is not a single destination, but a 
wide variety of sites and attractions. These locations are extremely 
diverse, and they are in many cases ``authentic'' and ``raw'' as 
opposed to ``manmade'' and ``polished''. Many facets of historic and 
rural ``Americana'' can be experienced within the boundaries of our 
heritage area. Our themes include Native American History; Frontier and 
Colonial Life; Military History; Transportation; and African American 
History. Few programs interpret this level and depth of history and 
provide such a unique and educational experience.
    By weaving the threads of South Carolina's history, culture and 
natural resources together in a defined area, the state has added to 
its available tourism product and increased visitation and spending. 
According to a study prepared by Lane, Frenchman and Associates of 
Boston, completion of the SCNHC 10 year management plan will mean as 
many as 700,000 additional visitor days and will generate $83.5 million 
in new tourism revenue each year; rising, of course, as the work 
continues.
    The SCNHC currently works with over 70 local communities and over 
120 designated sites to build a foundation that protects area resources 
and creates quality community infrastructure. Since our inception we 
have successfully completed over 100 large-scale projects, and are 
currently working on over 40 more, while also providing programming and 
major marketing efforts. Product development in the Corridor has 
centered chiefly on the creation of tourism infrastructure in areas of 
the state that have not always seen the benefits of tourism. As tourism 
`product' is developed, it is phased into our Discovery System, the 
mechanism that provides regional interpretation, way-finding and 
visitors services to tourism locations in our 14-county area.
    This system is continuously gaining momentum and will ultimately 
have a major economic impact on the heritage area and the state. At 
this time, half of our system has been installed and we need more time 
and additional federal investment in order to complete the foundational 
structure of the program. This will include the design, fabrication and 
installation of visitor centers, interpretive signage and directional 
signage in the final two of our four regions. This will also include 
the completion of over 100 large-scale projects in the rural areas of 
our state and the development and execution of a major marketing 
program.
    The entrepreneurial spirit of this program has successfully engaged 
local citizens and they are working together through public-private 
partnerships to preserve and promote the structures, places and 
traditions that provide a sense of place and a unique quality of life 
for South Carolinians. The SCNHC has served as an incubator and a 
catalyst for heritage tourism development across the state. The efforts 
within our heritage area have led to the development of numerous 
statewide initiatives such as the South Carolina Farmer's Association 
and the South Carolina Artisans Consortium. It has also placed an 
emphasis on protecting and celebrating the diversity of cultures in 
South Carolina such as the influence of Native American, African and 
Caribbean culture in today's society. Most importantly, our efforts 
have stimulated the economy by diversifying economic development 
initiatives in areas that are struggling with the loss of manufacturing 
jobs and a changing economy.
    Some examples of our accomplishments include:

  <bullet> The development of two Regional Discovery Centers that serve 
        as visitor's centers as well as rural tourism development 
        centers. Programming, special events and training workshops are 
        held regularly at these locations.
  <bullet> The development of a large-scale interpretation system that 
        links together over 100 sites and attractions throughout 10 
        counties of our heritage area. This system is complimented by a 
        comprehensive way-finding signage program. Development is still 
        needed in four of our counties.
  <bullet> The restoration and adaptive reuse of major historic 
        structures within our heritage area to include the Walhalla 
        Civic Auditorium, the Anderson Arts Warehouse, the Springfield 
        High School and the Lourie Theatre. These four structures alone 
        have diversified economic opportunities, created jobs and 
        increased the quality of life for their communities.
  <bullet> Awarded over $2.5 million in grants to local projects. Once 
        complete, these projects are phased into our program and 
        marketed for visitation and development.
  <bullet> Created a partnership with Barbados to highlight the influx 
        of Caribbean influence into our heritage area and ultimately 
        the nation. A joint development and marketing plan is currently 
        being created to spur European visitation to both countries 
        based on our shared past.
  <bullet> Provided much needed technical assistance and training to 
        our communities in areas such as product development, 
        marketing, visitor's services and grant writing. This type of 
        assistance is on-going and has a major impact on rural 
        communities.
  <bullet> As a compliment to our economic development initiatives, 
        educational programs have been implemented in local schools and 
        our children's program currently has over 450 members.

    It is extremely important to point out that the SCNHC comprises 14 
counties across the state of South Carolina. The impacts of the 
Corridor have been so great for our communities that three additional 
counties have expressed an interest in being added to our program. This 
will enlarge our Heritage Area to 17 counties and a length of over 450 
miles. Again, unlike many other heritage areas, the federal investment 
into our program is spread out not only geographically, but also 
programmatically. The size of our Heritage Area also increases the time 
needed to become fully established and self-sustaining. Although we 
have made significant progress, 10 years is certainly not enough time 
to complete a project of this proportion.
    Just as all of the Heritage Areas included in S. 1721, the SCNHC 
was established with a 10-year Management Plan to guide the work of the 
program for the next 10 years. This was not meant to be a limitation on 
the life of the National Heritage Area, only a limitation on the 
timeframe of the plan. At the end, or near the conclusion of the 
Management Plan, the National Heritage Areas were charged with the 
responsibility to chart out their next 10-year strategy. Since the 
designation of the ``Class of 1996'' the individual heritage areas, 
partner organizations and the National Park Service have all discovered 
better, more effective ways to operate the heritage area program and 
many of these points are addressed in the Heritage Area program bill, 
S. 243. At this critical point, we need to ensure that the ``Class of 
1996'' is not penalized for being the test case for the movement before 
these issues were resolved.
    I cannot emphasize enough that the SCNHC understands the need to 
become self sustaining and we are currently in the process of 
conducting a new 10 year management plan that will include a 
sustainability plan. This sustainability plan will map out a strategy 
for diversifying funding sources for the program and will solidify the 
on-going development of our heritage area. Because of the fact that the 
management of our program has only recently transferred from a 
government agency to a public/private Board of Directors, precious 
years were lost in which sustainability was not a major focus. I assure 
you that if granted reauthorization our Board of Directors will 
maximize the federal investment and will become self sustaining by the 
end of the authorization period.
    Our new management plan has not been completed at this point; 
however, several goals have already been established:

  <bullet> Create and implement a strategy for diversification of 
        funding sources for the sustainability of the SCNHC.
  <bullet> Complete the development of the SCNHC Discovery System 
        throughout the entire heritage area to include two (2) 
        additional visitor centers and interpretive signage at over 150 
        additional locations.
  <bullet> Implement a tourism plan with the country of Barbados to 
        spur European visitation to both countries based on the 
        ``Carolina--Caribbean Connection''.
  <bullet> Develop Corridor-wide educational programs to be implemented 
        at partner locations and in school-districts within our 
        heritage area.
  <bullet> Work with the SC Departments of Commerce, Transportation, 
        Arts, and Parks, Recreation and Tourism to further solidify 
        cultural tourism as an economic development tool in the state 
        through major product development and marketing efforts.

    Heritage tourism development, like all other economic development 
initiatives, is an on-going process. It is also a lengthy process. It 
takes time to build the type of grassroots support and participation 
that makes the heritage area program successful. This is particularly 
true of heritage areas encompassing numerous counties and numerous 
themes. The large-scale projects that are initiated by heritage areas 
also take many years to complete as preservation and conservation 
involves the input and assistance of many citizens, organizations and 
government entities.
    The federal funding appropriated to national heritage areas serves 
as the foundation for securing state, local and private investment. If 
this foundation is removed, it will surely impede, and could possibly 
halt, the unprecedented work that has been accomplished thus far. The 
South Carolina National Heritage Corridor has a proven record of 
successfully leveraging the federal investment AND improving the 
communities that we serve. For these reasons, reauthorization is a 
necessary and logical request.
    The Board of Directors of the SCNHC, the fourteen counties and 
numerous municipalities within the boundaries of our heritage area, and 
the many citizens of our state appreciate the support and assistance of 
Congress over the past ten years and respectfully request that Congress 
review our successes, access the impact of the federal investment and 
grant reauthorization through the passage of S. 1721 so that our 
important work can continue.

                                    

      

</pre></body></html>
